APPENDIX

1a

APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1923
UNITED STATES OF AMERICA,
Appellant
v.
MARIO NELSON REYES-ROMERO
On Appeal from the United States District Court
for the Western District of Pennsylvania
(W.D. Pa. No. 2:17-cr-00292-001)
Hon. Mark R. Hornak,
Chief United States District Judge
Argued March 3, 2020
Before: SMITH, Chief Judge, HARDIMAN, and
KRAUSE, Circuit Judges
(Filed: May 19, 2020)

2a
Donovan J. Cocas [Argued]
Laura S. Irwin
Office of the United States Attorney
700 Grant Street
Suite 4000
Pittsburgh, PA 15219
Counsel for Appellant United States of America
Adrian N. Roe
[Argued]
428 Boulevard of the Allies
First Floor
Pittsburgh, PA 15219
Counsel for Appellee Mario Nelson Reyes-Romero
OPINION OF THE COURT
KRAUSE, Circuit Judge.
Under the Hyde Amendment, a prevailing
defendant in a federal criminal prosecution can apply
to have his attorney’s fees and costs covered by the
government. Such an award is appropriate only if the
defendant shows that “the position of the United
States” in the prosecution “was vexatious, frivolous, or
in bad faith.” Pub. L. No. 105-119, § 617, 111 Stat.
2440, 2519 (1997) (codified at 18 U.S.C. § 3006A app.).
That standard is demanding, and it requires farreaching prosecutorial misconduct affecting the
criminal case “as an inclusive whole.” United States v.
Manzo, 712 F.3d 805, 810 (3d Cir. 2013). Short of that
standard, the Hyde Amendment is not an appropriate
vehicle to criticize the conduct of law enforcement
officers or second-guess the management of a criminal
prosecution.

3a
The District Court here awarded attorney’s fees and
costs under the Hyde Amendment to Mario Nelson
Reyes-Romero, who was prosecuted for unlawful
reentry in violation of 8 U.S.C. § 1326, on the grounds
that the prosecution was frivolous and in bad faith.
Although assuredly born of good intentions and
understandable frustration with faulty processes in
the underlying removal proceeding here, that award
was not based on the type of pervasive prosecutorial
misconduct with which the Amendment is concerned.
Accordingly, we will reverse.
I. BACKGROUND
The relevant background can be divided into three
stages. First, Reyes-Romero, a noncitizen,1 was
subject to an administrative removal proceeding and
removed from the country. Second, he returned to the
United States and was prosecuted for unlawful
reentry, a charge that he collaterally attacked under 8
U.S.C. § 1326(d) and that the District Court ultimately
dismissed.
Third, he sought and was awarded
attorney’s fees and costs under the Hyde Amendment.
Because a complete understanding of this history is
crucial for analyzing the question presented, we
discuss each stage in some detail.
A. 2011 Administrative Removal Proceeding
Reyes-Romero, an El Salvadoran national, entered
the United States unlawfully in 2004. In 2008, the
Department of Homeland Security (DHS) initiated

1

We follow the Supreme Court’s lead in using the term
“noncitizen” to “refer to any person who is not a citizen or national
of the United States.” Pereira v. Sessions, 138 S. Ct. 2105, 2110
n.1 (2018).

4a
removal proceedings on the ground that he was
“present in the United States without [having] be[en]
admitted or paroled,” 8 U.S.C. § 1182(a)(6)(A)(i). A
year later, after Reyes-Romero pleaded guilty to
aggravated assault in New Jersey state court,2 DHS
aborted the § 1182 proceeding and placed him in
expedited administrative removal on the ground that
his conviction constituted an “aggravated felony,” 8
U.S.C. § 1228(b)(1), namely a “crime of violence,” id.
§ 1101(a)(43)(F) (incorporating 18 U.S.C. § 16’s
definition).
In 2011, DHS officers Trushant Darji and Jose
Alicea conducted Reyes-Romero’s administrative
removal proceeding. The officers first served him with
a Form I-826, which sets out a “Notice of Rights and
Request for Disposition.” App. 180. It is unclear why
they did so, as the I-826 does not apply to noncitizens
in expedited removal because of an aggravated felony
conviction. For instance, the I-826 instructed ReyesRomero he “ha[d] the right to a hearing before the
Immigration Court,” id., even though administrative
removal is conducted by immigration officers outside
of the Immigration Court, see 8 U.S.C. § 1228(a)(3),
(b)(1). Adding to the confusion, two boxes on the I-826
corresponding with contradictory declarations were
checked, indicating Reyes-Romero had both
“request[ed] a hearing before the Immigration Court”
2 The statute under which Reyes-Romero was convicted makes
it a second-degree felony to “[a]ttempt[] to cause serious bodily
injury to another, or cause[] injury purposely or knowingly or
under circumstances manifesting extreme indifference to the
value of human life recklessly cause[] such injury.” N.J. Stat.
Ann. § 2C:12-1(b)(1). He was sentenced to time served (397 days)
and three years’ supervised release.

5a
to determine his right to remain in the country and
had “give[n] up [his] right to a hearing” so he could be
returned to El Salvador. App. 180.
The officers then presented Reyes-Romero with the
applicable form—a Form I-851, the “Notice of Intent to
Issue a Final Administrative Removal Order” that
governs noncitizens who are charged with having
committed an aggravated felony. App. 96–97. The I851 informed Reyes-Romero of the grounds for
expedited removal, his ability to contest those
grounds, and the option to raise any “fear [of]
persecution” related to his return to El Salvador. Id.
That form indicated Reyes-Romero conceded
removability, “acknowledge[d] that [he was] not
eligible for any form of relief from removal,” and
waived judicial review.
App. 97.
But close
examination of the I-851 reveals it to be irregular.
Reyes-Romero apparently executed the waiver of his
rights at 9:00 AM—twenty minutes before the time
stamp next to a certification that the form had been
translated into Spanish for his benefit and forty
minutes before the time stamp accompanying the
relevant DHS supervisor’s issuing signature.
Reyes-Romero received a final administrative
removal order that afternoon and was later removed
to El Salvador.
B. Unlawful Reentry Prosecution
Reyes-Romero returned to the United States
without inspection and, after he was found and
detained, a federal grand jury returned an indictment
charging him with unlawful reentry in violation of 8
U.S.C. § 1326. He did not contest any of the elements
of that offense—that he had been “removed” and was

6a
later “found in” the country without express consent,
8 U.S.C. § 1326(a).
Instead, Reyes-Romero moved to dismiss the
indictment under a statutory provision allowing him
to “challenge the validity of the [removal] order” on
which the prosecution was based, 8 U.S.C. § 1326(d).
Under § 1326(d), a defendant bears the burden of
showing that (1) he “exhausted any administrative
remedies that may have been available to seek relief
against the [removal] order”; (2) the removal
proceedings “improperly deprived [him] of the
opportunity for judicial review”; and (3) the “entry of
the [removal] order was fundamentally unfair.”
Richardson v. United States, 558 F.3d 216, 223 (3d Cir.
2009) (quoting 8 U.S.C. § 1326(d)(1)–(3)).
“Fundamentally unfair” means “both [(a)] that some
fundamental error occurred and [(b)] that as a result
of that fundamental error [the defendant] suffered
prejudice.” United States v. Charleswell, 456 F.3d 347,
358 (3d Cir. 2006).
Reyes-Romero’s motion advanced two arguments.
First, the 2011 administrative removal proceeding,
with its contradictory forms and the “inconsisten[t]”
selections on the I-826, “had an impermissible
tendency to mislead” him and invalidated any waiver
of his rights. App. 71. Second, the proceeding was
“fundamentally unfair” because he had not committed
an aggravated felony and therefore was entitled to a
full hearing before an immigration judge (IJ).3 App.
72.
3 In Baptiste v. Attorney General, 841 F.3d 601 (3d Cir. 2016)—

a case involving the same offense of which Reyes-Romero was
convicted—we held that 18 U.S.C. § 16(b), the “residual” clause

7a
The Government resisted on both fronts. In its
view, Reyes-Romero’s I-851 waiver was valid and
overcame any inconsistency on the I-826, and as a
result he had failed to exhaust administrative
remedies or seek judicial review as required by
§ 1326(d)(1) and (2). And in any event he failed to
show prejudice as required by § 1326(d)(3) because he
had not demonstrated “a reasonable likelihood that
the result”—i.e., the removal order—“would have been
different” but for the errors he identified. App. 225
(quoting Charleswell, 456 F.3d at 362).
The District Court held a hearing on the § 1326(d)
motion. It first addressed the I-851 waiver and its
effect on § 1326(d)’s exhaustion and judicial-review
requirements. The Court expressed concerns not only
with the “inconsistent” nature of the I-826 and I-851
forms but also with the I-851’s time stamps suggesting
Reyes-Romero had been informed of his rights after
signing the waiver—an argument Reyes-Romero had
not developed in his brief. The Court told Adam
Hallowell, the Assistant United States Attorney
(AUSA) prosecuting the case, that the Government

of the federal crime-of-violence definition, is void for vagueness.
841 F.3d at 615–21. Baptiste’s reasoning was ultimately
embraced by the Supreme Court in Sessions v. Dimaya, 138 S. Ct.
1204, 1210 (2018). But Baptiste avoided the question whether
New Jersey second-degree aggravated assault qualifies as a
crime of violence under § 16(a), the crime-of-violence definition’s
“elements” clause. 841 F.3d at 606 n.4. As discussed below, that
question turns on whether a state crime capable of commission
by reckless conduct can categorically satisfy the elements clause,
an issue that remains unresolved. See Borden v. United States,
140 S. Ct. 1262 (2020) (granting certiorari on this issue).

8a
was “in a deep hole” because the immigration forms
were “facially at odds with themselves.” App. 283.
The Government called Officers Darji and Alicea as
witnesses. Each had no memory of Reyes-Romero or
his proceeding and had handled a substantial number
of immigration cases in the years since 2011, so they
testified only to general practices. Darji explained
that he often worked with native Spanish speakers
like Alicea to serve immigration forms on noncitizens
in DHS custody. Noncitizens charged with having
committed aggravated felonies would first receive the
“more general” I-826 form before receiving the I-851
form “specific to administrative removal.” App. 294.
The noncitizen would typically “hold the pen” and
make necessary selections. App. 291. If the noncitizen
made contradictory or nonsensical selections, the
officers would confirm his intent but otherwise leave
those selections untouched.
The District Court, interposing its own questions at
the hearing, pressed Officer Darji about ReyesRomero’s forms:
THE COURT: . . . [A]m I reading the[se forms]
accurately that within moments of 9 o’clock in the
morning on June 23rd, 2011, several things had
occurred pretty much all at once. This defendant
was told he had a right to request a hearing. He
requested a hearing. He said he didn’t want a
hearing. And he was told he couldn’t have a
hearing. Am I reading those forms correctly, sir?
THE WITNESS: Yes.
THE COURT: Does that make any sense at all to
you, sir?
THE WITNESS: No, Your Honor.

9a
App. 331. The District Court took Officer Darji’s
response to mean that “the process that was used” in
Reyes-Romero’s removal proceeding did not
“ma[k]e . . . sense.” App. 476.
Based on that concession and the defects in ReyesRomero’s forms, the District Court made clear it was
“highly likely . . . [to] conclude that there was no
voluntary and intelligent waiver” and therefore that
“the first two prongs of [§ 1326(d)] will have been
fulfilled.” App. 474–75.
The parties’ attention therefore turned to the “only
open issue”: prejudice. App. 543. At first, ReyesRomero repeated the argument he had advanced in his
brief: that the misidentification of his crime of
conviction as an aggravated felony itself constituted
prejudice. But after the District Court pressed him
about “the reasonable likelihood of some different
result” in the removal proceeding, App. 442, he
switched gears, arguing that he could have sought
asylum or withholding of removal. To bolster that
novel argument, he offered testimony from relatives
who had suffered abuses in El Salvador or in
neighboring Honduras. Seeking more support, ReyesRomero requested his relatives’ A-files, and the
parties set out on a multi-week process to get them
from DHS. The Court held Reyes-Romero’s motion
while that process was underway and requested
supplemental briefing to be filed once it was complete.
While his § 1326(d) motion was pending, ReyesRomero moved for bond. The District Court expressed
concern that, were Reyes-Romero to be released, DHS
officials would detain him, reinstate the 2011 removal
order, and remove him to El Salvador. The Court also

10a
wondered aloud whether DHS would take different
action if Reyes-Romero were released after the
Government had “move[d] to dismiss the indictment,”
App. 566.
The Government soon came back with a surprise: a
motion to dismiss the indictment with prejudice under
Federal Rule of Criminal Procedure 48.4 It explained
that based on the evidence at the first hearing “and on
additional factual information that ha[d] come to [its]
attention” since then, dismissal was “in the interests
of justice.” App. 603. In another surprise, ReyesRomero opposed the Government’s motion, contending
the District Court should grant it only if it also
intervened in future immigration proceedings by
expressly “barr[ing] [the Government] from removing
[him] on the basis of the [2011 removal] [o]rder.” App.
608.
When the parties convened for a hearing to address
the Government’s motion to dismiss, the Government
clarified that the “additional . . . information” to which
it had referred came from Reyes-Romero’s relatives’ Afiles, some of which “support[ed] the testimony” he had
offered in support of relief from removal. App. 645.
The Government’s decision to seek dismissal, it
explained, was based on the “litigation risk to th[e]
[§ 1326(d)] affirmative defense” and the “time and
expense” necessary to continue the prosecution. App.
646. But the District Court was hesitant, asking the
Government whether Reyes-Romero risked detention
or removal even after dismissal with prejudice, to
which the Government replied that it “c[ould] [not]
4

“The government may, with leave of court, dismiss an
indictment . . . .” Fed. R. Crim. P. 48(a).

11a
speak for DHS,” App. 617. The Court also noted its
views that the DHS officers’ testimony had been
“bizarre” and possibly untruthful, App. 634–35, and
that Reyes-Romero’s 2011 removal “was not . . .
consistent with the highest traditions of the American
legal system,” App. 657. Still, the Court made clear it
was not accusing the prosecution “of any wrongdoing
whatsoever,” App. 634, and suggested the
Government’s decision not to proceed with the
prosecution was “how we want the system to work,”
App. 635.
Yet when the hearing resumed the next day, the
District Court’s assessment had evolved. It now
expressed the view that the DHS officers’ testimony
was not just “bizarre,” but a mix of “lies” and “law
enforcement outrageousness.” App. 677. And it
recalled Officer Darji’s answer to its line of
questioning to have meant not just that “the
process . . . used” in the removal proceeding did not
“ma[k]e any sense,” App. 476, but that “his [own]
testimony made no sense,” App. 678 (emphasis added).
Most significant, the Court no longer deemed AUSA
Hallowell blameless, but as needing to make a “choice”
about whether he would “continue to rely on th[e]
[officers’] testimony.” App. 678–79. Even if the
prosecution was not responsible for errors in the
removal proceeding, it said, there “come[s] a point
where” the Government “adopt[s]” those errors as its
own. App. 679. The Court again held all motions open
pending further briefing.
In an effort to respond to the concerns voiced by the
District Court, the Government filed a supplemental
brief raising two points: First, the District Court
lacked jurisdiction to condition a Rule 48 dismissal on

12a
the actions of an independent department—here, on
DHS’s forgoing future removal proceedings based on
the 2011 order. Second, the Government made
unambiguous that it was not “rely[ing] on or
adopt[ing]” the DHS officers’ testimony and was no
longer contesting any element of the § 1326(d) defense
“other than the issue of prejudice.” App. 755.
But the Government’s brief came with yet another
surprise. At the start of the prosecution, the U.S.
Attorney’s Office had received black-and-white copies
of Reyes-Romero’s A-file from DHS and had shared
those files with Reyes-Romero’s counsel. Neither
counsel had previously asked to inspect the originals.
But before filing its supplemental brief, the
prosecution obtained the original documents, which
revealed that the two inconsistent checks on the I826—one requesting a hearing, the other waiving it—
were made in different colors. And based on the ink
color, it appeared the DHS officer who signed the form
had filled in the box corresponding to Reyes-Romero’s
waiver of rights. Even more odd, the waiver box
featured a blue mark drawn over a pre-printed black
“x,” suggesting the DHS officers had given ReyesRomero a pre-filled form.
AUSA Hallowell
immediately disclosed the color versions of the
documents to Reyes-Romero’s counsel and to the
Court.
After reviewing the color copies, the District Court
was “more convinced than ever” that the DHS officers’
testimony was a “combination of nonsense . . . [and]
lies.” App. 792. And it continued to criticize the
prosecution. The Court took issue, for instance, with
AUSA Hallowell’s repeated statements that, as an
AUSA assigned to a criminal prosecution, he could not

13a
unilaterally bind DHS to a specific course of conduct
in future immigration proceedings. It also criticized
the Government for not adequately “disclaim[ing]” the
DHS officers’ testimony:
MR. HALLOWELL: Your Honor, we are saying
that we will not rely on that testimony moving
forward in this case.
THE COURT: Why? Why won’t you rely on it?
MR. HALLOWELL: Your Honor, we don’t feel
that that testimony can support a verdict for the
Government on the first two prongs of [§ 1326(d)].
THE COURT: If believed, it’s legally insufficient?
Or I shouldn’t believe it?
MR. HALLOWELL: We understand that Your
Honor will make the final decision as to whether
that testimony could be believed or not. . . .
THE COURT: Well, I understand that. I’m
asking the lawyer for the United States of
America, should I believe that testimony?
MR. HALLOWELL: Your Honor, you should give
it as much weight as you see fit.
App. 795, 797. In the Court’s view, AUSA Hallowell’s
refusal to “take a[] position” on the testimony
conflicted with his obligations as a prosecutor. App.
798–99. And the District Court suggested that the
Government had moved to dismiss in “bad faith” to
ensure DHS officials could use the 2011 order in future
immigration proceedings against Reyes-Romero
rather than instituting a new removal proceeding
through service of a notice to appear (NTA). App. 822–
24.

14a
In response, the Government pointed out that
months earlier, DHS officials had attempted to do just
that, offering Reyes-Romero an NTA that would have
led to new proceedings before an IJ rather than
reinstatement of the 2011 administrative removal
order. But Reyes-Romero had rejected it. He gave two
reasons for having done so: a theory that the
Government’s choice to prosecute him for unlawful
reentry precluded it from starting new removal
proceedings5 and a desire to ensure that the District
Court would reach the merits of his § 1326(d) motion.
With the District Court’s continued deferral of a
ruling, the parties filed supplemental briefing on
prejudice.
Reyes-Romero’s supplemental brief
expanded the argument that but for the defects in his
2011 removal proceeding, there was “a reasonable
likelihood,” Charleswell, 456 F.3d at 362, that he
would have received asylum, withholding of removal,
or protection under the Convention Against Torture
(CAT).
The Government responded that ReyesRomero was ineligible for asylum because his assault
5

In support, Reyes-Romero cited several district court
opinions holding that if a noncitizen is prosecuted for a criminal
offense and is granted pretrial release, he cannot be seized by
DHS officials under an immigration detainer during the criminal
proceeding. E.g., United States v. Hernandez-Bourdier, No. 16cr-222-2, 2017 WL 56033, at *11 (W.D. Pa. Jan. 5, 2017). That
line of cases is contrary to what we and our sister circuits have
had to say on the matter, see, e.g., United States v. Soriano Nunez,
928 F.3d 240, 247–27 (3d Cir. 2019); United States v. Lett, 944
F.3d 467, 470–71 (2d Cir. 2019) (collecting decisions and joining
the consensus), and in any event, nothing in those cases suggests
the decision to bring a § 1326 prosecution forfeits DHS’s right to
pursue immigration proceedings against the noncitizen after the
criminal prosecution ends.

15a
conviction qualified as an aggravated felony; that he
was ineligible for withholding of removal because the
assault offense was a “particularly serious crime,” 8
U.S.C. § 1231(b)(3)(B)(ii); and that he was not
reasonably likely to prevail in seeking CAT protection
or any other form of relief from removal. In his reply
brief, Reyes-Romero unearthed a new argument: dicta
from Charleswell, an early decision on § 1326(d),
suggesting “[t]here may be some cases where the
agency’s violations of a [noncitizen’s] rights [ar]e so
flagrant, and the difficulty of proving prejudice so
great, that prejudice may be presumed.” 456 F.3d at
362 n.17 (citation omitted).
The District Court ultimately granted ReyesRomero’s § 1326(d) motion. It ruled that the I-826 and
I-851 forms were “shams” and that any waiver on
those forms was invalid; that, “in light of the invalid
waivers,” any failure to exhaust administrative
remedies or seek judicial review as required by
§ 1326(d)(1) and (2) must be excused; that the
irregularities in Reyes-Romero’s removal proceeding
constituted fundamental errors; and that those errors
caused him prejudice, both because his claims for
relief from removal were reasonably likely to succeed
and because “the procedural defects were so central . . .
that prejudice must be presumed” under footnote 17 of
Charleswell. The Court therefore granted ReyesRomero’s motion to dismiss “on the merits.” App.
1028. Doing so, the Court explained, would “serve[] to
limit
[Reyes-Romero’s]
exposure
to
future”
immigration proceedings “reliant on the . . . 2011”
order. App. 1031.
Given that disposition, the District Court denied as
moot Reyes-Romero’s pending motion for bond. But it

16a
did not do the same with the Government’s pending
motion to dismiss. Instead, it took the “unusual” step,
App. 1030, of proceeding to analyze the Government’s
motion on the merits and denying it as “clearly
contrary to manifest public interest.” Id. (quoting In
re Richards, 213 F.3d 773, 787 (3d Cir. 2000)). The
Court found that the Government’s subjective
motivation for its motion to dismiss was a desire to
guarantee that DHS could rely on the 2011 removal
order in future immigration proceedings.
That
motivation, it explained, “taint[ed]” the Government’s
effort to have the case dismissed. App. 1032–33.
Similarly problematic, the Court continued, was the
Government’s “taking . . . a noncommittal position as
to the credibility of” Officers Darji and Alicea, which
the Court deemed inconsistent with the Government’s
duty to correct a witness’s statement that is
“obvious[ly]” untrue. App. 1037–38 (quoting United
States v. Harris, 498 F.2d 1164, 1169 (3d Cir. 1974)).
The District Court thus dismissed the indictment
with prejudice. The Government did not appeal the
District Court’s rulings on the motions to dismiss or
the order of dismissal.6

6

After the dismissal, DHS officers served Reyes-Romero with
an NTA, initiating new removal proceedings in Immigration
Court. Before the IJ, Reyes-Romero conceded removability but
applied for asylum, withholding of removal, CAT relief, and
cancellation of removal. The IJ denied his applications and
ordered him removed, and the Board of Immigration Appeals
(BIA) dismissed his appeal. His petition for review before the
Sixth Circuit remains pending. Reyes-Romero v. Barr, No. 1903784 (6th Cir. Aug. 15, 2019).

17a
C. Hyde Amendment Application
Following that dismissal, Reyes-Romero timely
applied to the District Court for attorney’s fees and
costs under the Hyde Amendment.7 Relying heavily on
the findings in the Court’s opinion resolving the
parties’ motions to dismiss, Reyes-Romero argued the
Government had pursued an “egregious” prosecution
that was “vexatious, frivolous, [and] in bad faith.”
App. 1052–53 (citation omitted).
The District Court awarded Reyes-Romero fees and
costs, a decision it reached in five steps: First, because
the Government did not appeal the order resolving the
motions to dismiss, the Court deemed any “findings
and conclusions in that . . . Opinion and Order final.”
App. 4.
Second, the Court determined that in
assessing “the position of the United States,” 18 U.S.C.
§ 3006A app., it would consider not only “the litigation
position of the [Department of Justice (DOJ)] through
th[e] . . . U.S. Attorney’s Office” but also “the actions
taken (or not taken) by the federal agency upon which
the criminal case is based”—that is, DHS, including
“the actions of DHS Officers in 2011.” App. 26–27.
Third, borrowing a phrase used in the indictment, the
7

Hyde Amendment awards are subject to “the procedures and
limitations . . . under section 2412 of title 28,” 18 U.S.C. § 3006A
app., one of which is that the application must be filed “within
thirty days of final judgment,” 28 U.S.C. § 2412(d)(1)(B). That
thirty-day deadline “begins when the government’s right to
appeal the order has lapsed.” Johnson v. Gonzales, 416 F.3d 205,
208 (3d Cir. 2005) (citation omitted). Here, the District Court
granted Reyes-Romero’s motion to dismiss the indictment on July
2, 2018; the Government’s window to appeal closed on August 1,
2018, see Fed. R. App. P. 4(b)(1)(B); and Reyes-Romero moved for
a Hyde Amendment award on August 7, 2018.

18a
Court deemed the deficiencies in Reyes-Romero’s
immigration forms so apparent that it was “frivolous”
for the Government to prosecute him on the ground
that he “had been previously . . . removed from the
United States pursuant to law.” App. 31 (citation
omitted). Fourth, although the Court acknowledged
that the Government’s arguments on § 1326(d)(3)’s
prejudice requirement “did not brush up against any
prosecutorial misconduct” and “were largely
reasonable and based in law,” it reasoned that “this
‘good’ . . . [does not] sufficiently outweigh[] the ‘bad.’”
App. 42. Finally, the Court found that the
Government’s behavior “before and during the
criminal prosecution . . . demonstrated conscious
wrongdoing,” making the prosecution one brought “in
bad faith” under the Amendment. App. 28. So the
Court ordered the Government to pay Reyes-Romero’s
costs and attorney’s fees, which it later calculated as
$73,757.00. This appeal followed.
II. JURISDICTION AND STANDARD OF REVIEW
The District Court had jurisdiction under 18 U.S.C.
§ 3231, and we have jurisdiction under 28 U.S.C.
§ 1291. Despite a circuit conflict over whether an
appeal from a Hyde Amendment application is civil or
criminal for purposes of Federal Rule of Appellate
Procedure 4, compare, e.g., United States v. Truesdale,
211 F.3d 898, 902–04 (5th Cir. 2000) (civil), with, e.g.,
United States v. Robbins, 179 F.3d 1268, 1269–70
(10th Cir. 1999) (criminal), we are assured of our
jurisdiction and need not decide the issue because
Reyes-Romero’s notice of appeal was timely filed even
under Rule 4(b)’s shorter deadline. See United States
v. True, 250 F.3d 410, 421 n.8 (6th Cir. 2001) (taking
this approach).

19a
We review a Hyde Amendment award for abuse of
discretion, United States v. Manzo, 712 F.3d 805, 809–
10 (3d Cir. 2013), “which occurs if the district court’s
decision rests upon a clearly erroneous finding of fact,
an errant conclusion of law[,] or an improper
application of law to fact,” Ferreras v. Am. Airlines,
Inc., 946 F.3d 178, 182 n.1 (3d Cir. 2019) (citation
omitted).
III. DISCUSSION
A defendant seeking fees and costs under the Hyde
Amendment bears the burden, United States v.
Manzo, 712 F.3d 805, 810 (3d Cir. 2013), of showing
that the “position of the United States was vexatious,
frivolous, or in bad faith,” Pub. L. No. 105-119, § 617,
111 Stat. 2440, 2519 (1997) (codified at 18 U.S.C.
§ 3006A app.). Those grounds for a cost- and feeshifting award were “curtailed significantly” from
those in the more permissive Equal Access to Justice
Act (EAJA) provision on which the Hyde Amendment
was generally modeled. United States v. Gilbert, 198
F.3d 1293, 1302–03 (11th Cir. 1999). As a result, a
criminal defendant seeking costs and fees under the
Hyde Amendment faces a “daunting obstacle.” Manzo,
712 F.3d at 810 (quoting United States v. Isaiah, 434
F.3d 513, 519 (6th Cir. 2006)).
That obstacle is insurmountable here. Although
Reyes-Romero attempts to limit our review,
contending that the District Court’s previous factfinding is preclusive and that the Government has
waived several of its arguments, we conclude those
attempts are futile. And once we assess the complete
record, we perceive no basis for a Hyde Amendment
award. From the inception of the prosecution and

20a
throughout the extensive briefing and hearings, the
Government had objectively reasonable arguments
that Reyes-Romero was not prejudiced by errors in his
2011 removal proceeding and thus could not prevail on
his § 1326(d) challenge. The Government’s position,
therefore, was not frivolous—a high bar requiring that
the prosecution be “utterly without foundation in law
or fact.” United States v. Monson, 636 F.3d 435, 440
(8th Cir. 2011) (citation omitted). Nor was the
prosecution brought or maintained in bad faith—an
equally high bar requiring an objective showing of
“dishonest purpose or moral obliquity.” Manzo, 712
F.3d at 811 (quoting Gilbert, 198 F.3d at 1299). Below,
we address issue preclusion and waiver before turning
to the merits of the Hyde Amendment application.
A. Threshold Issues
Reyes-Romero does not defend the District Court’s
decision directly. Instead, he advances two arguments
that, if accepted, would restrict our review of the bases
for that decision. Neither is persuasive.
1. Issue preclusion
Reyes-Romero contends that findings and
conclusions in the District Court’s opinion resolving
the parties’ motions to dismiss were rendered “final
and binding” by the Government’s decision to appeal
not those rulings but only the award of fees and costs.
Appellee’s Br. 1. In support, he cites cases involving
the doctrine of issue preclusion, which holds that “a
prior judgment . . . foreclose[es] successive litigation of
an issue of fact or law actually litigated and resolved
in a valid court determination essential to the prior
judgment.” Herrera v. Wyoming, 139 S. Ct. 1686, 1697
(2019) (alterations in original) (citation omitted). But

21a
issue preclusion does not apply here for three
independent reasons.
First, as Reyes-Romero recognizes, issue preclusion
applies only “in a subsequent action.” Appellee’s Br. 9
(quoting 1 Restatement (Second) of Judgments § 27
(Am. Law Inst. 1982)); see United States ex rel. Doe v.
Heart Sol., PC, 923 F.3d 308, 316 (3d Cir. 2019)
(requiring that the issues be resolved in an “earlier
case” (quoting Allen v. McCurry, 449 U.S. 90, 95
(1980))); Hawksbill Sea Turtle v. FEMA, 126 F.3d 461,
474 (3d Cir. 1997) (requiring that they be “decided in
a previous action”); see also United States v. Briseno,
843 F.3d 264, 270 (7th Cir. 2016) (noting that issue
preclusion “applies to rulings in different proceedings,
and not simply different stages within the same
proceeding”).
“Relitigation of issues previously
determined in the same litigation,” on the other hand,
“is controlled by principles of the law of the case
doctrine rather than [issue preclusion].” Hull v.
Freeman, 991 F.2d 86, 90 (3d Cir. 1993) (emphasis
added).
Reyes-Romero’s criminal prosecution and Hyde
Amendment application are, at least for these
purposes, part of the “same litigation,” Hull, 991 F.2d
at 90. The Amendment authorizes fee-shifting “in . . .
criminal case[s],” 18 U.S.C. § 3006A app. (emphasis
added), and an application must be submitted “within
thirty days of final judgment,” 28 U.S.C.
§ 2412(d)(1)(B); see 18 U.S.C. § 3006A app. Although
the issues involved in deciding a defendant’s guilt or
innocence and those involved in a Hyde Amendment
application are not identical, the latter flow directly
from the former. An application for attorney’s fees and
costs under the Amendment, therefore, is merely a

22a
“different stage[] within the same proceeding,”
Briseno, 843 F.3d at 270 (emphasis omitted). So under
Hull, if the District Court’s previous findings are to
have binding effect, that effect must flow not from
issue preclusion, but from the law-of-the-case doctrine.
That doctrine, however, is of no help to ReyesRomero because “[a]n appellate court’s function is to
revisit matters decided in the trial court.” Musacchio
v. United States, 136 S. Ct. 709, 716 (2016). As a
result, we are “not bound by district court rulings
under the law-of-the-case doctrine,” id.; see Koppers
Co. v. Aetna Cas. & Sur. Co., 158 F.3d 170, 173 n.4 (3d
Cir. 1998) (“[T]he district court’s reference to ‘law of
the case’ cannot bind this Court on appeal.”), and we
owe no deference—beyond what the clear error
standard of review demands—to findings in the
District Court’s previous opinion.
Second, issue preclusion “cannot apply when the
party against whom the earlier decision is asserted did
not have a full and fair opportunity to litigate that
issue.” Heart Sol., 923 F.3d at 316 (quoting Allen, 449
U.S. at 95). Without an “incentive to obtain a full and
fair adjudication” of an issue, a party will not be bound
by the court’s resolution of it. 1 Restatement (Second)
of Judgments § 28(5).
Here, however, the Government had no incentive to
contest the District Court’s findings or appeal its
gratuitous denial of the Government’s motion to
dismiss. By the time the District Court resolved the
parties’ motions to dismiss, the Government had long
disclaimed reliance on the DHS officers’ testimony and
abandoned any argument on § 1326(d)’s exhaustion or
judicial-review prongs.
And given that the

23a
Government had agreed the prosecution should be
dismissed, it comes as no surprise that it chose not to
appeal the Court’s order of dismissal. We cannot
impute to the Government an “incentive to . . .
adjudicat[e],” 1 Restatement (Second) of Judgments
§ 28(5), factual findings made en route to a disposition
it sought. Nor would it be prudent to do so, as a
contrary rule “would force the [Government] to
abandon . . . prudential concerns and to appeal every
adverse decision in order to avoid foreclosing further
review,” United States v. Mendoza, 464 U.S. 154, 161
(1984), of any issues that might bear on a Hyde
Amendment application.
Third, issue preclusion applies only where the issue
in question was “essential to the prior judgment.”
Nat’l R.R. Passenger Corp. v. Pa. Pub. Util. Comm’n,
342 F.3d 242, 252 (3d Cir. 2003) (citation omitted).
That limitation “is rooted in principles of fairness” and
“ensures that preclusive effect is not given to
determinations that did not receive close judicial
attention . . . or that were unappealable by virtue of
being incidental to a decision.” Jean Alexander
Cosmetics, Inc. v. L’Oreal USA, Inc., 458 F.3d 244, 250
(3d Cir. 2006) (internal quotation marks and citation
omitted).
In defining whether an issue was
“essential,” we ask whether it “was critical to the
judgment or merely dicta.” O’Leary v. Liberty Mut.
Ins. Co., 923 F.2d 1062, 1067 (3d Cir. 1991).
The findings on which Reyes-Romero relies were not
“critical to the judgment,” O’Leary, 923 F.3d at 1067,
and thus are not entitled to preclusive effect. The
dispositive parts of the District Court’s opinion were
its determinations that Reyes-Romero had satisfied
each of the prongs of § 1326(d), which together entitled

24a
him to dismissal of the indictment. But none of those
prongs demanded an assessment of prosecutorial
motives: Section 1326(d) focuses on exhaustion,
judicial review, and fundamental unfairness in
relation to underlying removal proceedings, and the
Government’s motivation in bringing or maintaining a
prosecution years later has no bearing on those
issues.8 Nor does the District Court’s decision to
address and deny the Government’s motion to dismiss
give rise to preclusion. Indeed, once the Court granted
Reyes-Romero’s § 1326(d) motion on the merits, the
Government’s own motion to dismiss became moot—a
dynamic the District Court recognized with respect to
the issue of release on bond—so the Court’s ruling on
that motion and attendant findings were, in any event,
beyond its jurisdiction.9
8

Nor do the findings related to the immigration officers’
misconduct in 2011 have preclusive effect because they
contributed to the District Court’s determination that ReyesRomero had satisfied § 1326(d)’s exhaustion and judicial-review
requirements. That is because, even beyond what we have
already explained, issue preclusion applies only where the issue
is “the same as that involved in the prior action.” Karns v.
Shanahan, 879 F.3d 504, 514 n.3 (3d Cir. 2018) (citation omitted).
Here, however, there is a “lack of total identity,” 1 Restatement
(Second) of Judgments § 27 cmt. c, between a finding of
misconduct as related to the § 1326(d) affirmative defense and a
finding of misconduct as it bears on whether the government’s
litigation position was in bad faith under the Hyde Amendment.
9 We briefly address and reject two additional arguments.
First, we have held “that independently sufficient alternative
findings should be given preclusive effect” even where those
findings “do not fulfill the necessity requirement . . . in a strict
sense.” Jean Alexander Cosmetics, 458 F.3d at 255. But
comments made in the course of denying the Government’s
motion to dismiss cannot be viewed as alternative bases for the

25a
For these reasons, we reject Reyes-Romero’s
argument that we are bound by findings or conclusions
in the District Court’s previous order.
2. Waiver
Of course, even if our review is not limited by issue
preclusion or the law of the case, it “may well be
constrained by other doctrines such as waiver [or]
forfeiture.” Musacchio, 136 S. Ct. at 716. ReyesRomero seizes on those doctrines, arguing that the
Government waived several arguments it advances on
appeal by not pressing them before the District Court
at the Hyde Amendment stage. We disagree.
Reyes-Romero identifies only two arguments he
contends are waived: (i) that the delayed production of
color copies of Reyes-Romero’s immigration forms was
a “snafu” attributable to Reyes-Romero’s counsel’s
failure “to inspect the originals,” Appellant’s Br. 48;
and (ii) that the District Court’s finding that Officer
Darji had lied under oath hinged on a “misread[ing]”
of his testimony,10 id. at 45. Reyes-Romero is correct
in a limited sense: Those arguments do not appear in
result here, which was a dismissal of the indictment. Second,
although we have recognized that district courts have an
“independent responsibilit[y]” to examine whether a Rule 48
motion to dismiss is “clearly contrary to manifest public interest,”
App. 1030–31 (quoting In re Richards, 213 F.3d 773, 787–88 (3d
Cir. 2000)), we have never suggested that responsibility extends
where the court has already granted a defendant’s separate
motion to dismiss on the merits, leaving it with no live
controversy with respect to the government’s motion.
10

Although Reyes-Romero’s brief identifies a third
argument—that Reyes-Romero “wanted to drop his claim for
asylum,” Appellee’s Br. 13 (citing Appellant’s Br. 53)—a review
of the Government’s brief reveals no such argument.

26a
the Government’s response to his Hyde Amendment
application. And at least as a general matter,
“[a]rguments not raised in the district courts are
waived on appeal,” United States v. Tyler, 956 F.3d
116, 124 n.9 (3d Cir. 2020), such that we cannot
consider them “absent exceptional circumstances,”
United States v. James, 955 F.3d 336, 345 (3d Cir.
2020) (citation omitted).
But our case law does not require parties to
relitigate previously decided issues before the district
court where doing so “would be an exercise in wasteful
formality.” United States v. Hoffecker, 530 F.3d 137,
165 (3d Cir. 2008) (citation omitted); see Chassen v.
Fidelity Nat’l Fin., Inc., 836 F.3d 291, 293 (3d Cir.
2016) (“[A] litigant [need not] engage in futile gestures
merely to avoid a claim of waiver.” (second alteration
in original) (citation omitted)). Here, by the time the
District Court had ruled on the parties’ motions to
dismiss and Reyes-Romero had applied for costs and
fees, the Court’s views on the prosecutor’s conduct and
the DHS officers’ candor were beyond doubt, and
relitigating them would have been nothing more than
a “futile gesture[],” Chassen, 836 F.3d at 293. Faced
with a court “more convinced than ever” on those
points, App. 792, the Government’s choice not to
relitigate them was therefore reasonable and did not
constitute waiver or forfeiture.
B. Merits of the Hyde Amendment
Application
Having dispensed with those threshold issues, we
now turn to the merits of the Hyde Amendment award.
For the reasons we explain below, we conclude that
AUSA Hallowell, acting on behalf of the Government,

27a
satisfied the high ethical and professional standards
to which we hold prosecutors, and the District Court
mistakenly extrapolated from errors on the part of
DHS to make findings about the prosecution that the
record cannot support.
We start with two clarifications about the applicable
legal framework and then explain why the
Government’s position was neither frivolous nor in
bad faith.11
1. The applicable legal framework
The Hyde Amendment applies where, “in a[]
criminal case[,] . . . the position of the United States
was vexatious, frivolous, or in bad faith.” 18 U.S.C.
§ 3006A app. The District Court examined a wealth of
case law on the Amendment and accurately
summarized much of the applicable legal framework.
But we must clarify two aspects of that framework at
the outset, one concerning “the position of the United
States” and the other the requirement that that
position be “vexatious, frivolous, or in bad faith.”

11

Although Reyes-Romero argued in the District Court that
the Government’s position was also vexatious, the Court found
only frivolousness and bad faith, and Reyes-Romero has not
specifically argued vexatiousness on appeal. To the extent that
argument is implicit in his others, however, we reject it on the
same grounds. Vexatiousness embodies two elements: (i) “that
the criminal case was objectively deficient, in that it lacked either
legal merit or factual foundation”; and (ii) “that the government’s
conduct, when viewed objectively, manifests maliciousness or an
intent to harass or annoy.” Manzo, 712 F.3d at 810 (citation
omitted). The former roughly corresponds to frivolousness and
the latter to bad faith, so our analysis here essentially covers all
three grounds for a Hyde Amendment award.

28a
i. The meaning of “position of the
United States”
Notwithstanding its reference to “the position of the
United States,” 18 U.S.C. § 3006A app., the Hyde
Amendment is not a tool to combat misconduct by the
federal government writ large. It applies only “in a[]
criminal case,” id., which directs us to focus on “the
government’s position underlying the prosecution,”
Manzo, 712 F.3d at 810 (emphasis added) (quoting
Gilbert, 198 F.3d at 1299). The Amendment thus
reaches “prosecutorial misconduct” affecting the “case
as an inclusive whole,” id. (citations omitted), not
misconduct in distinct government proceedings nor
isolated “errors” by individual law enforcement
officers in the course of the investigation or
prosecution, id. at 813.
Our sister circuits share that view. The Second
Circuit, for instance, reads “the position of the United
States” for Hyde Amendment purposes “to mean . . .
the government’s general litigation stance: its reasons
for bringing a prosecution, its characterization of the
facts, and its legal arguments.” United States v. Bove,
888 F.3d 606, 608 (2d Cir. 2018). The Ninth Circuit
reads the Amendment as requiring an assessment of
“the government’s litigating position as a whole,” not
of “other types of bad conduct by government
employees during the course of an investigation.”
United States v. Mixon, 930 F.3d 1107, 1111 (9th Cir.
2019); see id. at 1112 (requiring “serious misconduct
on the part of prosecutors” (emphasis added)). Several
others have agreed, see, e.g., Monson, 636 F.3d at 439–
40 (holding that a ruling for the defendant under
Franks v. Delaware, 438 U.S. 154 (1978), which
“constitutes a finding that law enforcement

29a
deliberately lied or recklessly disregarded the truth,”
“does not necessarily mean that . . . the prosecution
against the defendant was frivolous or vexatious”),
and we are aware of no precedential appellate decision
taking a different approach.
In sum: The Hyde Amendment demands we
“[f]ocus[] on the prosecutors’ conduct,” Monson, 636
F.3d at 439 (emphasis added), and ask whether the
alleged prosecutorial misconduct was so “pervasive” as
to “render the government’s litigating position as a
whole vexatious, frivolous, or in bad faith,” Mixon, 930
F.3d at 1112 (emphasis added).
The District Court, however, understood the
“position of the United States,” 18 U.S.C. § 3006A app.,
to include both “the litigation position of the DOJ
through th[e] . . . U.S. Attorney’s Office and the actions
taken (or not taken) by” DHS officers, App. 26
(emphasis added), including as far back as ReyesRomero’s administrative removal proceeding in 2011.
In assessing Reyes-Romero’s Hyde Amendment
application, for example, the Court found that DHS
officers “railroaded [him] out of the country in 2011” in
a manner that was “lacking in any reasonable factual
or legal basis” and was therefore frivolous, App. 28–
29, and that the officers’ testimony in 2018
“demonstrate[d] clear bad faith” on their part, App. 29.
That understanding was mistaken. It assumes
that, because the EAJA’s “procedures and limitations”
are incorporated into the Hyde Amendment, 18 U.S.C.
§ 3006A app., and because the EAJA defines “position
of the United States” to include, “in addition to the
position taken by the United States in the civil action,
the action or failure to act by the agency upon which

30a
the civil action is based,” 28 U.S.C. § 2412(d)(2)(D), the
Hyde Amendment must also incorporate that
definition. But the EAJA’s substantive definition of
“position of the United States” is neither a
“procedure[]” nor a “limitation[],” so it cannot be read
into the Hyde Amendment.
And there are good reasons not to compare EAJA
apples to Hyde Amendment oranges. For one thing,
we took a contrary view in Manzo, emphasizing “the
government’s position underlying the prosecution” and
asking whether it was “objectively []reasonable for the
government to attempt to prosecute” the defendant.
712 F.3d at 810, 813 (emphasis added) (citation
omitted); see also, e.g., Mixon, 930 F.3d at 1111
(defining “position of the United States” under the
Hyde Amendment without reference to the EAJA
definition); Bove, 888 F.3d at 608 & n.10 (noting that
the phrase “position of the United States” “cannot
mean precisely the same thing in both” the Hyde
Amendment and the EAJA). For another, the EAJA
covers a much broader swath of litigation, including
civil actions arising from agency enforcement or
adjudication. See 28 U.S.C. § 2412(a)(1); see also
Taylor v. Heckler, 835 F.2d 1037, 1040 (3d Cir. 1987)
(under the EAJA, the “position of the United States”
necessarily includes “not only the litigation
position . . . but also the agency position [that] made
the lawsuit necessary” (alterations in original)
(citation omitted)). Yet a criminal prosecution for
unlawful reentry does not fit that paradigm: Although
a previous removal order is “a necessary element to
the [§ 1326] charge,” App. 27, the criminal prosecution
is distinct from and collateral to the immigration
proceeding that led to the order and thus unlike

31a
agency enforcement actions that directly lead to civil
actions in federal court. For these reasons,12 we
reaffirm the principles set out in Manzo and hold that
the “position of the United States” for purposes of the
Hyde Amendment refers only to the position taken by
the department and officers charged with
12 In interpreting the “position of the United States” to include

actions of DHS and its officers, the District Court also cited two
out-of-circuit district court opinions—United States v. Holland,
34 F. Supp. 2d 346 (E.D. Va. 1999), and United States v. Gardner,
23 F. Supp. 2d 1283 (N.D. Okla. 1998)—both of which were
decided before we or many of our sister circuits had a chance to
construe the Amendment. In Holland, the court considered the
defendants’ application for costs and fees to flow not from the
Hyde Amendment as bounded by the “procedures and
limitations” of § 2412(d), but from a distinct open-ended EAJA
provision holding the United States “liable for such fees and
expenses to the same extent that any other party would be liable
under the common law,” 18 U.S.C. § 2412(b). See 34 F. Supp. 2d
at 356–59. As the District Court recognized elsewhere in its
opinion, Holland’s analysis deviates from the “consensus among
circuits that the Hyde Amendment incorporates only those
procedures and limitations in subpart (d).” App. 25. And
although the Holland court originally found “vexatious
misconduct” on the part of the Federal Deposit Insurance
Corporation (FDIC) as well as DOJ, it later vacated that portion
of its award after concluding the FDIC had lacked “sufficient
notice that . . . fees and litigation expenses might be assessed
against it.” United States v. Holland, 48 F. Supp. 2d 571, 581
(E.D. Va. 1999). In Gardner, the district court ruled that the
EAJA’s broad definition of “position of the United States” is a
“procedure or limitation incorporated into the Hyde Amendment”
and therefore that executive agencies like the Internal Revenue
Service can be swept into that definition. 23 F. Supp. 2d at 1293–
95. But that analysis was not based on a rigorous analysis of the
Amendment’s statutory text, has never been cited favorably by
any court of appeals, and is contrary to both Manzo and our
conclusion today.

32a
administering the prosecution—here, DOJ and AUSA
Hallowell.
To be clear, misconduct by law enforcement officers
or other executive departments can be relevant to a
Hyde Amendment application if prosecutors leverage
that misconduct to further a prosecution that has no
factual or legal basis or that is brought for purposes of
harassment.
But because the Amendment is
concerned only with prosecutorial misconduct, see
Mixon, 930 F.3d at 1112 (“A defendant is not entitled
to attorneys’ fees under the Hyde Amendment due to
law enforcement misconduct; rather, the focus is on
the prosecutors . . . .”), alleged misconduct by DHS or
its officers cannot independently create liability for
attorney’s fees and costs.
ii. The meaning of “vexatious,
frivolous, or in bad faith”
The Hyde Amendment applies where the
Government’s litigation position “was vexatious,
frivolous, or in bad faith.” 18 U.S.C. § 3006A app.
(emphasis added). We have taken the Amendment’s
use of the disjunctive “or” to mean that each ground
must be assessed separately, see Manzo, 712 F.3d at
810–11 (laying out different standards for each), and
several of our sister circuits agree, see, e.g., Monson,
636 F.3d at 438–39; United States v. Manchester
Farming P’ship, 315 F.3d 1176, 1182 (9th Cir. 2003).
While the three grounds meaningfully “overlap,”
United States v. Terzakis, 854 F.3d 951, 955, 956 n.3
(7th Cir. 2017), analyzing each on its own helps courts
focus only on relevant factors and not on a nebulous
sense of government impropriety.

33a
When we conduct that analysis on this record and
consider the Hyde Amendment case law on
frivolousness and bad faith, we conclude ReyesRomero is not entitled to an award.
2. The position of the United States was
not frivolous
We and our sister circuits have laid extensive
groundwork for analyzing frivolousness under the
Hyde Amendment. For the Government’s position to
be frivolous, the prosecution it pursues must be
“groundless[,] with little prospect of success.” Manzo,
712 F.3d at 810 (alteration in original) (quoting
Gilbert, 198 F.3d at 1299). Said differently, the
position must be “foreclosed by binding precedent
or . . . obviously wrong,” id. at 811 (quoting United
States v. Capener, 608 F.3d 392, 401 (9th Cir. 2010)),
and a prosecution based on an unresolved but
reasonable legal argument cannot be frivolous, id. See
Bove, 888 F.3d at 608 (frivolousness requires a
prosecution that is “[m]anifestly insufficient or futile”
(alteration in original) (citation omitted)); Monson,
636 F.3d at 440 (to be frivolous, a prosecution must be
“utterly without foundation in law or fact” (citation
omitted)). In assessing frivolousness, therefore, we
view the prosecution through the lens of the elements
of the criminal charge and the evidence required to
satisfy those elements.
We also find guidance in Hyde Amendment case law
addressing vexatiousness, which—though a distinct
ground for awarding fees, see supra note 11—overlaps
with frivolousness to the extent it too requires that the
prosecution be “objectively deficient, [meaning]
lack[ing] [in] either legal merit or factual foundation.”

34a
Manzo, 712 F.3d at 810. In Manzo, for instance, the
defendant argued the government had made
“blatantly false” allegations about his receipt of a cash
bribe. Id. at 812. In that decision, we assumed he had
not received the cash and that the government had
knowingly presented false testimony. See id. Even so,
we explained, the charges against the defendant “did
not require the government to prove that he physically
received a cash bribe,” and because the government
could “plausibly argue that Manzo was aware of the
cash payment . . . and played a role in facilitating it,”
it maintained a viable—and thus objectively
nonfrivolous—pathway to conviction. See id.
Manzo controls here. Reyes-Romero did not contest
either element required for conviction under
§ 1326(a)—that he was removed and later found in the
country without the Attorney General’s consent.
Rather, he sought to attack the removal order
collaterally under § 1326(d), which we have treated as
akin to an affirmative defense. See Richardson v.
United States, 558 F.3d 216, 222 (3d Cir. 2009); United
States v. Charleswell, 456 F.3d 347, 358 (3d Cir. 2006).
Yet at every point in the prosecution, from the return
of the indictment through the decision resolving the
parties’ motions to dismiss, the Government had—at
minimum—a reasonable argument that ReyesRomero could not show prejudice under § 1326(d)(3)
and thus could not make out the affirmative defense.
The District Court even recognized as much,
characterizing the Government’s position on prejudice
as “largely reasonable and based in law.” App. 42.
We agree with the characterization of the
Government’s prejudice arguments as reasonable and
based in law, and we briefly highlight some of the

35a
complexities on which those arguments turned. The
first was whether Reyes-Romero’s conviction qualified
as a “crime of violence,” 8 U.S.C. § 1101(a)(43)(F)
(incorporating 18 U.S.C. § 16’s definition), and thus an
aggravated felony rendering him ineligible for asylum,
id. § 1158(b)(2)(A)(ii), (B)(i), and cancellation of
removal, id. § 1229b(a)(3). Although § 16(b)’s residual
clause has been held void for vagueness, Sessions v.
Dimaya, 138 S. Ct. 1204, 1210 (2018); Baptiste v. Att’y
Gen., 841 F.3d 601, 615–21 (3d Cir. 2016), those
decisions were not in place in 2011, and the
Government argued prejudice must be assessed as of
the underlying removal proceedings rather than as of
the collateral challenge to those proceedings. Even
setting § 16(b) aside, Reyes-Romero would remain
ineligible for asylum and cancellation if his offense fit
within § 16(a)’s elements clause, which in turn
depended on whether an offense capable of
commission through reckless conduct can satisfy that
clause—a difficult and open question the Supreme
Court recently agreed to resolve, see supra note 3. A
related question was whether Reyes-Romero’s offense
qualified as a “particularly serious crime” rendering
him ineligible for withholding of removal, 8 U.S.C.
§ 1231(b)(3)(B)(ii). At the time of his removal, our
precedent held “that an offense must be an aggravated
felony in order to be classified as a ‘particularly serious
crime.’” Alaka v. Att’y Gen., 456 F.3d 88, 105 (3d Cir.
2006). But we have since revisited Alaka, holding that
“the phrase ‘particularly serious crime’ . . . includes
but is not limited to aggravated felonies.” Bastardo
Vale v. Att’y Gen., 934 F.3d 255, 266–67 (3d Cir. 2019)
(en banc).
And the notion that second-degree
aggravated assault under New Jersey law could have

36a
qualified as particularly serious was not out of the
question. See, e.g., Aguilar v. Att’y Gen., 665 F. App’x
184, 185–86, 188–89 (3d Cir. 2016) (per curiam)
(upholding the BIA’s designation of that offense as
particularly serious).13
We need not review every step in the District
Court’s analysis. It is enough to say we agree that
whatever the merits of Reyes-Romero’s arguments on
prejudice, the Government’s arguments in response
were “reasonable and based in law,” App. 42—or, put
another way, were far from “foreclosed by binding
precedent or . . . obviously wrong,” Manzo, 712 F.3d at
811 (citation omitted). As a result, the Government at
all times maintained a viable path to conviction,
making its litigation position nonfrivolous under the
Hyde Amendment.
Reyes-Romero argues to the contrary, urging us to
accept the District Court’s reasoning. We address
each argument below.
We start with language from Reyes-Romero’s
indictment stating that he had been “removed from
13

There is also the matter of Reyes-Romero’s evidence
showing fear of persecution or torture if returned to El Salvador.
The District Court concluded Reyes-Romero had shown a
reasonable likelihood of obtaining relief from removal, but it did
so only after an extensive review of the evidence and the case law,
and only after reaching favorable conclusions on close issues such
as the cognizability of Reyes-Romero’s family unit as a particular
social group, the relevance of incidents that took place in
Honduras, and whether the private violence he feared would
qualify as torture for CAT protection. That both the IJ and BIA
in Reyes-Romero’s subsequent removal proceeding rejected his
applications for relief from removal, see supra note 6, further
suggests the Government’s arguments were not beyond the pale.

37a
the United States pursuant to law.” App. 31 (quoting
App. 63). Reyes-Romero seizes on that language,
arguing that if a removal proceeding violated DHS’s
rules or a noncitizen’s rights, the noncitizen was not
removed “pursuant to law” and thus cannot be
prosecuted for unlawful reentry regardless whether he
can show that those errors caused him prejudice. But
that argument runs aground on our precedent, which
holds that “prejudice is a necessary component under
[§] 1326(d)(3).” Charleswell, 456 F.3d at 358. In plain
terms, a criminal defendant who concedes the
elements of § 1326(a) but cannot satisfy § 1326(d)(3)’s
prejudice requirement—which, we have held,
generally requires a showing of “a reasonable
likelihood that the result would have been different if
the error in the [removal] proceeding had not
occurred,” id. at 362 (citation omitted)—is guilty of
unlawful reentry, and the Government’s prosecution
of that charge cannot be “groundless,” Manzo, 712 F.3d
at 810 (citation omitted).
Reyes-Romero’s argument to the contrary is
essentially that when a defendant has a good case on
some but not all the elements of an affirmative
defense, the Government must concede the rest and
consent to dismissal on his terms. That simply is not
the law. Although our criminal justice system depends
on prosecutors’ discretion to decide which cases to
pursue, their choice to pursue an objectively valid
prosecution is immune from scrutiny by the federal
courts.
Put another way, our “constitutional
framework” is such that “we cannot read the Hyde
Amendment to license judicial second-guessing of
prosecutions that are objectively reasonable,” United

38a
States v. Shaygan, 652 F.3d 1297, 1314 (11th Cir.
2011)—as this prosecution undoubtedly was.
Nor was the Government bound to abandon the
prosecution because it shined a light on an
administrative removal proceeding that, as the
Government acknowledges, was something of a
“botched job.” Arg. Tr. 15. To the contrary, “[i]t is the
responsibility of the Department of Justice to enforce
the law vigorously[,] and it cannot abdicate this duty
because of possible embarrassment to other agencies
of the government.” U.S. Dep’t of Justice, Justice
Manual § 9-2.159 (2018), https://www.justice.gov/jm/
justice-manual. Despite signs that DHS might have
mishandled Reyes-Romero’s administrative removal,
AUSA
Hallowell
nonetheless
maintained
a
nonfrivolous pathway to conviction throughout the
prosecution, and under those circumstances we cannot
fault him or the office he represents for continuing to
seek such a conviction.
As a last resort, Reyes-Romero suggests we deem
the prosecution frivolous because prejudice must be
“presume[d].” Arg. Tr. 31–32. He relies for this
proposition on Charleswell, where we stated that
“some procedural defects may be so central or core to
a proceeding’s legitimacy, . . . and the difficulty of
proving prejudice so great[,] that prejudice may be
presumed.” 456 F.3d at 362 n.17 (internal quotation
marks and citation omitted).
That language, however, is dicta in a footnote. We
have never given effect to the possibility we left open
in Charleswell, nor (to our knowledge) has any other
court of appeals. Nor need we address that possibility
today; the point, rather, is that where no appellate

39a
court has so held to date, we cannot say the
Government lacked a “reasonable legal basis” for
contending § 1326(d)(3)’s prejudice prong could not be
satisfied. Manzo, 712 F.3d at 811 (citation omitted);
see id. (“The government should be allowed to base a
prosecution on a novel argument, so long as it is a
reasonable one, without fear that it might be setting
itself up for liability under the Hyde Amendment.”
(citation omitted)).
It would also be especially
perverse to fault the Government for ignoring this
possibility here given that Reyes-Romero—who
carries the burden on each of § 1326(d)’s elements—
failed to mention it until his supplemental reply brief
filed months after his initial § 1326(d) motion.
In sum, the Government at all times had a legally
defensible and factually supported basis for
prosecuting Reyes-Romero for unlawful reentry. The
“position of the United States,” 18 U.S.C. § 3006A app.,
therefore, was not frivolous.14

14

In analyzing a Hyde Amendment application, the district
court’s task is to “make only one finding . . . based on the case as
an inclusive whole” rather than engaging in “[a] count-by-count
analysis.” Manzo, 712 F.3d at 810 (citation omitted). Here, that
task is straightforward because Reyes-Romero was charged with
only one offense. We therefore have no occasion to address the
implications of a multicount prosecution where only one or some
counts are viable. Cf. United States v. Heavrin, 330 F.3d 723, 730
(6th Cir. 2003) (noting that a Hyde Amendment award may be
appropriate “[e]ven if the district court determines that part of
the government’s case has merit” so long as “the government’s
‘position’ as a whole was vexatious, frivolous, or in bad faith”).

40a
3. The position of the United States was
not in bad faith
Nor did the Government initiate or prolong ReyesRomero’s criminal prosecution in bad faith.
On this issue, too, we benefit from a well-developed
line of precedent. Bad faith requires more than “bad
judgment or negligence”; it demands “the conscious
doing of a wrong because of dishonest purpose or moral
obliquity.” Manzo, 712 F.3d at 811. And in assessing
whether the “position of the United States was . . . in
bad faith,” 18 U.S.C. § 3006A app., we may not “delve
into the minds and motivations of individual
prosecutors,” Manzo, 712 F.3d at 813. Instead, we
must “engage in an objective inquiry,” Manzo, 712
F.3d at 811 (citing Shaygan, 652 F.3d at 1313–14),
asking whether “[u]nder th[e] circumstances” the
government’s litigation strategy was “objectively
unreasonable” in light of the facts and “binding case
law.” Id. at 813. And in doing so, we must be wary to
leave prosecutors the breathing space necessary to
pursue justice with vigor. A Hyde Amendment award
is not available simply because a defendant was
acquitted or because the government engaged in
“contentious and hard-fought” litigation tactics.
United States v. Schneider, 395 F.3d 78, 88 (2d Cir.
2005). To the contrary, “government attorneys are
entitled to be zealous advocates of the law on behalf of
the . . . people of the United States,” and “[w]hile a
prosecutor is not at liberty to strike foul blows, he may
strike hard ones . . . —indeed, he should.” United
States v. Knott, 256 F.3d 20, 29 (1st Cir. 2001)
(internal quotation marks and citation omitted).

41a
The District Court identified seven points
throughout the prosecution that in its view constituted
“evidence of bad faith,” App. 36, on the part of AUSA
Hallowell and, by extension, DOJ. We address them
one by one. Although we generally owe deference to
factual findings, any finding that “is implausible based
on the record” is clearly erroneous and thus
“unsustainable.” Capener, 608 F.3d at 403; see United
States v. Heavrin, 330 F.3d 723, 727 (6th Cir. 2003)
(reversal of a Hyde Amendment award is required
where the reviewing court is left with “a definite and
firm conviction” that “a mistake has been made”
(citation omitted)).
i. Obtaining the indictment
First, we disagree that the Government relied on
“facially invalid waivers,” App. 31, to seek an
indictment and proceed with the prosecution against
Reyes-Romero. Even if we were to accept that the
Government was “mistaken at the time of [the]
[i]ndictment,” App. 31, “the Hyde Amendment [is]
targeted
at
prosecutorial
misconduct,
not
prosecutorial mistake,” Capener, 608 F.3d at 401
(alteration in original) (citation omitted). And here,
the contents of Reyes-Romero’s A-file gave the
Government probable cause to believe that he fell
within the facial elements of the § 1326(a) offense.
Although a defendant in Reyes-Romero’s position may
bring a collateral challenge under § 1326(d), that
challenge is akin to an affirmative defense, and it is up
to the defendant to assert and prove it. That defense
does not turn on whether the removal was “pursuant
to law,” App. 31; it requires (among other things)
prejudice, Charleswell, 456 F.3d at 358, and there was
nothing in the A-file to suggest Reyes-Romero could

42a
show a reasonable likelihood of any outcome other
than removal. When viewed objectively, therefore, the
decision to indict and prosecute Reyes-Romero does
not give rise to an inference of bad faith.
ii. The DHS officers’ testimony
Nor are we persuaded that Officers Darji and Alicea
gave false testimony or that the Government’s refusal
to label it as such violated its obligations under Napue
v. Illinois, 360 U.S. 264 (1959).
We start with the most frequently quoted portion of
the testimony: Officer Darji’s acknowledgment that
the forms in Reyes-Romero’s A-file did not “make any
sense.” App. 331. It is not the case that Officer Darji
“admitted on the stand that his testimony (given just
moments before) was, in fact, nonsense.” App. 32
(emphasis added). Officer Darji had no specific
memory of Reyes-Romero’s proceeding, and thus
offered testimony only about the “normal practice” in
his DHS unit, App. 319. In the leadup to Officer
Darji’s oft-quoted admission, the District Court took
over questioning and presented him with the
irregularities in Reyes-Romero’s forms, asking
whether it was “reading those forms correctly.” App.
331. The Court then asked whether “that”—the
antecedent of which was the content of “those forms”—
“ma[de] any sense,” and Darji admitted it did not. Id.
In context, Officer Darji’s comment was a candid
admission that he could not explain away the apparent
problems with Reyes-Romero’s removal proceeding.
And, at least initially, the District Court agreed,
summarizing that Officer Darji had admitted that “the
process that was used here” did not “ma[ke] . . . sense.”
App. 476. The quite different notion that Darji

43a
admitted that he had lied in his testimony, however,
“is a kind of [factual] Lohengrin,” in that we do not
“know whence it came,” IIT v. Vencap, Ltd., 519 F.2d
1001, 1015 (2d Cir. 1975). Because that notion finds
no support in the record, we reject it.
As a result, nothing in Officer Darji’s concession
triggered Napue obligations on the part of AUSA
Hallowell. Those obligations spring to life only when
the prosecutor “knows that his witness is giving
testimony that is substantially misleading” and where
the misleading nature of the testimony is “obvious.”
United States v. Harris, 498 F.2d 1164, 1169 (3d Cir.
1974). A candid admission of the kind Officer Darji
gave does not fit those criteria.
Nor do the remaining portions of the DHS officers’
testimony. To be sure, both officers, testifying years
later and with no specific memory of Reyes-Romero’s
removal proceeding, gave testimony that was at times
equivocal, confusing, or inconsistent. Officer Darji, for
instance, changed an answer he gave about whether a
prior signature was required to authorize service of
the I-851 on noncitizens. For his part, Officer Alicea
gave difficult-to-reconcile answers in response to
questions about when in the process the I-851’s
contents would be read to the noncitizen in Spanish.
But to the extent the officers’ testimony was somewhat
“convoluted,” App. 43 (citation omitted), it reflects at
least in part the byzantine nature of the
administrative removal system and in part the
circumstances of their questioning. Given that the
District Court assumed the questioning and raised a
line of inquiry about the time stamps on the I-851 that
Reyes-Romero had not flagged and for which the
Government and its witnesses likely had not prepared,

44a
it is unsurprising the officers were in some respects ill
equipped to explain the contents of Reyes-Romero’s Afile. In short, while we recognize certain weaknesses
in the officers’ testimony, we discern no basis in the
record to conclude that the officers were deliberately
perjuring themselves. At most, they exhibited the
kind of inconsistency that is the normal stuff of crossexamination and that might lead a trier of fact to
discount their testimony—but not to assume the sort
of deliberate dishonesty that would require a
prosecutor to correct the record. In our judgment, that
distinction is critical here not only because of the effect
on AUSA Hallowell’s obligations but also because of
the severe reputational, professional, and legal
consequences that could flow from a finding that
Officers Darji and Alicea deliberately lied under oath.
That finding was unjustified here.
At bottom, the Napue argument comes to this: that
because the District Court ultimately decided not to
credit the officers’ testimony, the Government must
have been obligated to disclaim it mid-trial. That does
not follow. In presenting the testimony of government
witnesses, a prosecutor need not “play the role of
defense counsel . . . and ferret out ambiguities in his
witness’ responses on cross-examination.” Harris, 498
F.2d at 1169. He also cannot supplant the role of the
finder of fact in assigning weight to testimony as he
deems appropriate. We therefore discern no violation
of AUSA Hallowell’s Napue obligations and no basis
here to infer bad faith.
iii. Litigating exhaustion and
judicial review

45a
We next confront the idea that the Government
exhibited bad faith by continuing to litigate
exhaustion and judicial review even after the extent of
the irregularities in Reyes-Romero’s A-file came to
light. A review of the record reveals the opposite: that
AUSA Hallowell promptly and appropriately
abandoned all arguments on § 1326(d)(1) and (2).
The initial two-day hearing on Reyes-Romero’s
§ 1326(d) motion took place in early January 2018.
During the second day, the District Court informed the
parties it was “highly likely” to rule in Reyes-Romero’s
favor on exhaustion and judicial review. App. 474–75.
That left prejudice as “the only open issue,” App. 543,
on which the District Court requested additional
briefing. The parties twice requested more time to
submit a schedule for that briefing and did not settle
on such a schedule until late January. A month
later—and before its supplemental brief was due—the
Government moved to dismiss under Rule 48. No
doubt the Government expected its motion would be
the end of the case. But after the District Court
continued to press the Government on the merits of
the § 1326(d) motion, it promptly filed a brief in midMarch making its position clear: It would “not rely on
or adopt th[e officers’] testimony” and, if pushed to
litigate the § 1326(d) motion, “w[ould] not present
argument on any elements . . . other than the issue of
prejudice.” App. 755. And it reinforced that position
at the next hearing.
AUSA
Hallowell’s
response
was
prompt,
unambiguous, and consistent with the best traditions
and standards of his office. That it occurred “over two
months” after the initial hearing, App. 32, was a
product of the parties’ agreed briefing schedule, the

46a
Court’s
unexpected
reservations
about
the
Government’s motion to dismiss, and its ongoing
inquiry into the effect of a dismissal on future
immigration proceedings. The Government was still
“act[ing] promptly to correct [any] error,” United
States v. Lain, 640 F.3d 1134, 1139 (10th Cir. 2011),
and its response is inconsistent with a finding of bad
faith.
iv. Interactions between DOJ and
DHS
We likewise see no signs of bad faith in AUSA
Hallowell’s inability to tell the District Court whether,
if the prosecution were dismissed, DHS would detain
Reyes-Romero or seek reinstatement of the 2011
removal order. In asserting that he could not “speak
for DHS . . . or what [it] would do” in future
immigration proceedings against Reyes-Romero, App.
617, AUSA Hallowell was faithfully representing our
precedent to the District Court. See United States v.
Igbonwa, 120 F.3d 437, 443–44 (3d Cir. 1997) (holding
that an AUSA cannot bind DHS in future immigration
proceedings absent DHS’s consent). Had the Court
granted the Government’s motion to dismiss, any
relevance of the 2011 order would have been left to
DHS in the first instance (in deciding whether to
pursue a new NTA or seek reinstatement) and, if
necessary, to other administrative adjudicators and a
different Article III court.
To be sure, it is possible for an AUSA, after having
obtained “prior authorization from [DHS],” Justice
Manual, supra, § 9-73.510, to come to a binding
agreement with respect to future immigration
proceedings against a noncitizen defendant. But an

47a
AUSA lacks the power to do so on his own. More
important, whether and under what circumstances he
reaches out to DHS to explore such an arrangement is
committed to his discretion—he is not bound to do so.
And even if he does seek authorization from DHS, he
cannot demand that the agency give it, and if the
agency declines the AUSA cannot be held responsible.
When viewed through an objective lens, therefore, the
absence of such an arrangement between DOJ and
DHS with respect to future proceedings against ReyesRomero also does not support an inference of bad faith.
Two related issues must be addressed. First, we do
not consider significant that DHS and DOJ were to
some extent “intertwin[ed] . . . in this case,” App. 37
(emphasis omitted), insofar as DOJ and DHS kept in
contact about Reyes-Romero or a line-level DHS
official was present at counsel table for all but one of
the hearings before the District Court. Coordination
between DOJ and other executive departments is by
no means unusual, but it does not obviate the line
between those departments or between a criminal
prosecution
and
subsequent
administrative
proceedings. We therefore see no support for the
notion that the Government here attempted to use its
collaboration with DHS as both a sword and a shield
against Reyes-Romero.
Second, we are equally unpersuaded that the AUSA
exhibited bad faith by focusing on the criminal offense
with which Reyes-Romero was charged, the evidence
necessary to prove that offense, and the elements of
Reyes-Romero’s affirmative defense. Those were,
after all, the only live issues over which the District
Court had jurisdiction. Even so, AUSA Hallowell did
his best to assist the Court in its consideration of

48a
matters well beyond that jurisdiction, most notably
the effect that various dispositions might have on
future immigration proceedings against ReyesRomero. The AUSA’s responsiveness, candor, and
professionalism in answering unanticipated questions
bespeak good faith on his part and in the “position of
the United States,” 18 U.S.C. § 3006A app. And in
general, the AUSA offered candid and accurate
assistance to the tribunal; was forthright about the
weaknesses in the case; and, once he had received
additional evidence bolstering Reyes-Romero’s
arguments on prejudice and once the prosecution had
exhausted more time and resources than was
expected, sensibly reevaluated it and decided
dismissal was in the best interests of justice. There is
much to commend in the way the prosecution litigated
this case, and certainly nothing of the “dishonest
purpose or moral obliquity,” Manzo, 712 F.3d at 811
(citation omitted), required to justify a Hyde
Amendment award.
v. The Government’s motion to
dismiss
We now come to a central premise of the Hyde
Amendment award: that the Government’s motion to
dismiss was motivated by, and evidence of, bad faith.
There is good reason for skepticism: It is ironic
indeed that the government’s decision to move to
dismiss a criminal case with prejudice would be held
up as proof of ill will toward the defendant. Normally,
if circumstances arise making it clear that the
Government’s case is weaker than it once appeared
and the “Government act[s] promptly to correct [that]
error,” a court will be hard pressed to find bad faith.

49a
Lain, 640 F.3d at 1139. The District Court recognized
this dynamic, correctly stating that if an AUSA
“conclude[s] that a criminal prosecution should not
proceed” and moves to dismiss, that is an appropriate
exercise of prosecutorial discretion and precisely “how
we want the system to work.” App. 635. But it
proceeded to find that motion was evidence of bad faith
on two grounds.
The first was that the motion was designed “to
shield the 2011 Removal Order from an adjudication
of invalidity” and thereby interfere with future
immigration proceedings against Reyes-Romero. App.
36. In other words, because the Government agreed
the prosecution should be dismissed, it had no nonmalicious reason for refusing “to not oppose the bare
granting of Reyes-Romero’s motion to dismiss.” App.
4.
Implicit in that analysis is that there is no
meaningful difference between (i) exercising
discretion to dismiss the prosecution because of some
“litigation risk” on the prejudice prong, App. 646, and
(ii) conceding outright that Reyes-Romero has
satisfied the prejudice prong. Not so. A prosecutor
may have probable cause to believe an element of an
affirmative defense is triable but still conclude that,
because of the closeness of the question as well as
other considerations such as expenses and the time a
defendant has already been in custody, the interests of
justice would not be well served by continuing to
pursue the prosecution. That is, indeed, how the
system should work.
And, most critical, the
Government must be free to do so without having to
concede away the merits of the criminal charge or any

50a
affirmative defenses, which would have been the effect
of endorsing Reyes-Romero’s § 1326(d) motion.
Nor can we agree that the Government was “[n]ever
asked . . . to stipulate to ‘prejudice’” and could have
opted to “‘not oppose’ the granting of Reyes-Romero’s
motion.” App. 15–16. Because dismissal under §
1326(d) requires prejudice, see 8 U.S.C. § 1326(d)(3);
Charleswell, 456 F.3d at 358, the Government cannot
agree to a § 1326(d) dismissal without acknowledging
that the prejudice requirement has been met. And
given the closeness of the prejudice question, see supra
pp. 35–37 & n.13, it strikes us as objectively
reasonable that the Government elected not to do so.
The second ground for the finding that the
Government moved to dismiss in bad faith was that
the reasons it offered in support of its motion were
pretextual. After a review of the record, we conclude
the Government’s reasons were sensible and
consistent. It explained, for instance, that its motion
to dismiss was motivated in part by a desire to
preserve litigation resources. That is no surprise
given that the single-count prosecution had already
lasted months and generated many hearings and
briefs.
True, the Government “then expended
substantial resources on continuing to oppose ReyesRomero’s motion to dismiss” while its own motion
remained pending. App. 39. But that was only
because the Government’s motion was held open,
requiring that it continue to litigate the merits of
Reyes-Romero’s § 1326(d) defense. The Government’s
explanation can be viewed as contradictory only if we
assume there was no difference between acceding to
Reyes-Romero’s motion and proceeding on the

51a
Government’s motion—an idea we have already
rejected.
vi. Production of the color copies
Next, we see no evidence to support the idea that
the late-in-the-game production of color copies from
Reyes-Romero’s A-file suggests bad faith on the
Government’s part. Under the line of cases springing
from Brady v. Maryland, 373 U.S. 83 (1963),
prosecutors have an affirmative duty to disclose
material evidence favorable to the defendant. Dennis
v. Sec’y, 834 F.3d 263, 284 (3d Cir. 2016) (en banc).
But there is no question that AUSA Hallowell, after
having received the color copies, promptly shared
them with Reyes-Romero’s counsel and with the
District Court. That he did so was consistent with his
Brady obligations as well as good faith in the
management of the prosecution.
Nor is there anything to suggest the Government
exhibited bad faith by producing the color copies
months into the prosecution rather than at the outset.
To begin, our precedent on the timing of Brady
disclosures requires only that the government “make[]
[the] evidence available during the course of a trial in
such a way that a defendant is able effectively to use
it.” United States v. Moreno, 727 F.3d 255, 262 (3d Cir.
2013) (citation omitted). Reyes-Romero was certainly
able to use the color copies of the forms to his benefit;
those copies fed into the District Court’s decision
granting his § 1326(d) motion. More to the point, there
was no reason why AUSA Hallowell—or, for that
matter, Reyes-Romero’s counsel, who was given an
opportunity to access or request the original files—
could have anticipated that the color copies would

52a
contain meaningful, relevant evidence that the blackand-white reproductions did not.
Under those
circumstances, AUSA Hallowell lacked “actual or
constructive possession” of the information contained
in the color copies, Hollman v. Wilson, 158 F.3d 177,
180 (3d Cir. 1998), and accordingly that he did not
request or produce them earlier in the litigation does
not give rise to an inference of bad faith.
We end by addressing the assertion that the
production of black-and-white copies was “a clear
implication of conscious wrongdoing,” App. 40, on the
part of unnamed DHS officials. Because the Hyde
Amendment is concerned only with prosecutorial
misconduct, even such unscrupulous conduct by an
independent executive department could not be laid at
the prosecution’s feet without a reasonable and logical
basis for doing so. Moreover, a review of the record
here reveals nothing apart from speculation
suggesting that DHS’s production of black-and-white
copies was intended to shield Reyes-Romero’s A-file
from scrutiny—rather than, for instance, being the
product of an outdated photocopier or cost-saving
printing procedures. So thin a reed cannot justify a
Hyde Amendment award.
vii. Litigation delay
Finally, we disagree that the criminal proceeding
was “unnecessarily drawn out by the various litigation
tactics taken by the Government.” App. 43. The time
between Reyes-Romero’s motion to dismiss and the
decision granting that motion was roughly seven and
a half months. If that period is longer than in the
typical § 1326 prosecution, the reasons are many,
including the ongoing evolution of Reyes-Romero’s

53a
arguments on prejudice, mutual delays in the briefing
schedule, complicated legal and factual questions and,
above all, a willingness on the part of the District
Court to hold outstanding motions open and solicit
supplemental briefing. Those reasons for delay are
unexceptional and understandable. But unwarranted
delay on the part of the Government was not one of
them.
*

*

*

Ultimately, with great respect for the District Court
and its careful administration of this prosecution, we
nonetheless conclude based on our review of the record
that “a mistake has been made.” Heavrin, 330 F.3d at
727 (citation omitted). There is no viable evidence that
the “position of the United States,” as that term is
properly understood in the Hyde Amendment, was
frivolous or in bad faith.
We share the District Court’s view that ReyesRomero’s 2011 expedited removal proceeding deviated
from the ordered, sensible process we demand of those
who enforce the nation’s immigration laws. Indeed,
that is the Government’s view as well. And reasonable
minds may differ about precisely how the prosecution
should have reacted once those issues became
apparent. But where reasonable minds may differ,
and where the Government made objectively
reasonable and defensible choices throughout the
prosecution, there can be no Hyde Amendment
liability.
IV. CONCLUSION
For these reasons, we will reverse the District
Court’s orders awarding Reyes-Romero attorney’s fees
and costs under the Hyde Amendment.

54a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
UNITED STATES OF AMERICA,

)
)
) 2:17-cr-292
v.
)
)
MARIO NELSON REYES-ROMERO, )
)
Defendant.
)
OPINION
Mark R. Hornak, Chief United States District
Judge.
From time to time, a court is compelled to render a
decision that was completely avoidable by at least one
party and, in doing so, must place on the public record
conclusions as to the actions of that party that are both
disturbing and uncharacteristic of that party’s course
of conduct in other settings. This is just such a
decision, involving the exercise of the federal
government’s power to investigate, bring, and pursue
criminal prosecutions.
The Government, in its capacity as prosecutor, “may
prosecute with earnestness and vigor—indeed, [it]
should do so. But, while [it] may strike hard blows, [it]
is not at liberty to strike foul ones.” Berger v. United

55a
States, 295 U.S. 78, 88 (1935).1
This Opinion
addresses an award of attorney’s fees under the Hyde
Amendment, which is one avenue of relief available to
individuals after just such a prejudicial detour from
the fair administration of justice by the two Executive
Departments of the federal government involved here.
***
Mr. Mario Nelson Reyes-Romero (“Reyes-Romero”)
seeks an award of attorney’s fees and expenses
pursuant to the Hyde Amendment, 18 U.S.C. § 3006A
(statutory note), Pub. L. No. 105-119, § 617, 111 Stat.
2440, 2519 (1997), claiming that the Government’s2
criminal prosecution against him was vexatious,
frivolous, and/or in bad faith. Reyes-Romero filed the
pending Application for Award of Attorney’s Fees and
Litigation Costs (“Fee Application”) on August 7, 2018.
(Fee Application, ECF No. 94.) Both parties submitted
briefs (ECF Nos. 95, 105, 106), and the Court held an
Oral Argument.3 (ECF No. 111.) Reyes-Romero’s Fee
Application is granted to the extent that the Court will
“The prosecutor has more control over life, liberty, and
reputation than any other person in America. His discretion is
tremendous. . . . This authority has been granted by people who
really wanted the right thing done—wanted crime eliminated—
but also wanted the best in our American traditions preserved.”
Robert H. Jackson, Attorney General, Address to the Second
Annual Conference of United States Attorneys: The Federal
Prosecutor (Apr. 1, 1940).

1

Unless otherwise referenced with particularity, the term
“Government” and “DOJ” are used interchangeably to refer to the
United States Department of Justice.

2

The Government advised the Court at the Oral Argument on
the Fee Application that the Department of Homeland Security
(DHS) was given notice of Reyes-Romero’s Fee Application.

3

56a
award attorney’s fees and litigation costs to ReyesRomero, the final amount of which will be determined
in further proceedings.
I.

Factual Background

On October 24, 2017, Reyes-Romero was indicted in
this District on one (1) count of Reentry of Removed
Alien, 8 U.S.C. § 1326. (Indictment, ECF No. 1.) The
Indictment stated that Reyes-Romero had been
previously removed from the United States in 20114
pursuant to law (“2011 Removal”) and later knowingly
and unlawfully reentered the United States. (Id.)
On November 17, 2017, Reyes-Romero filed a
motion to dismiss the Indictment and asserted the
affirmative defense set out in § 1326(d),5 which allows
for a collateral attack on the validity of the underlying
removal order (in this case, the Removal Order
resulting from the 2011 Removal Proceedings).
(Reyes-Romero’s Mot. to Dismiss, ECF No. 14.) The
In 2011, DHS commenced an administrative removal
proceeding against Reyes-Romero pursuant to 8 U.S.C. § 1228,
which authorizes the expedited removal of aliens convicted of
“aggravated felonies” as that term is defined under federal law.
(Op., ECF No. 92, at 2.)

4

A defendant charged with reentry of removed alien under
§ 1326 may collaterally attack the underlying removal order if the
defendant establishes that:

5

(1) the defendant exhausted any administrative remedies
that may have been available;
(2) the deportation proceedings from which the underlying
removal order was issued improperly deprived the alien of
the opportunity to obtain judicial review; and
(3) the entry of the removal order was “fundamentally
unfair.”
8 U.S.C. § 1326(d); United States v. Charleswell, 456 F.3d 347,
351 (3d Cir. 2006).

57a
parties briefed the issues in Reyes-Romero’s motion to
dismiss extensively, and the Court conducted a twoday hearing and oral argument.6 The parties were
also permitted to file post-hearing briefs. (Order, ECF
No. 27.)
Then, on February 27, 2018, the Government filed
its own motion to dismiss the Indictment with
prejudice (Gov’t’s Mot. to Dismiss, ECF No. 46), but
also refused to consent to or to not oppose the bare
granting of Reyes-Romero’s motion to dismiss.
Ultimately, the Court issued an Opinion and
accompanying Order, dated July 2, 2018, granting
Reyes-Romero’s motion to dismiss, holding that the
underlying 2011 Removal Order was wholly contrary
to law, and ordering the dismissal of the Indictment
with prejudice. (Op., ECF No. 92, available at 327 F.
Supp. 3d 855 (W.D. Pa. 2018); Order, ECF No. 93.) In
the same Opinion, the Court denied the Government’s
motion to dismiss, concluding that the Government’s
motion to dismiss was “principally motivated” by a
desire to avoid an adjudication on the validity of
Reyes-Romero’s 2011 Removal so as to expedite
further proceedings against him, and that it was in the
interests of justice for the Court to adjudicate and
grant Reyes-Romero’s motion to dismiss to avoid
prosecutorial harassment of Reyes-Romero. (Op. at
51–62.) The Government did not appeal that July 2,
2018, Order, rendering the Court’s findings and
conclusions in that July 2, 2018, Opinion and Order
final.
The parties pre-hearing briefs are on the docket at ECF Nos.
14, 15, 16, 17, 19. The Court held the two-day proceeding on
January 3 and 4, 2018. (ECF Nos. 23, 26.)

6

58a
Reyes-Romero now seeks an award of attorney’s fees
and litigation costs, arguing that the position of the
United States in this criminal case was vexatious,
frivolous and/or in bad faith. Given the “scienter”
requirements squarely at issue here, the Court must,
regrettably, begin by again summarizing the record as
it relates to the evidence advanced and positions taken
by the United States in this criminal proceeding,
largely repeating its now-final findings and
conclusions from the July 2, 2018, Opinion, as to the
conduct of the Government in this case.7
A. The Indictment is Filed and Reyes-Romero
Files His Motion to Dismiss
A month after the Government filed its Indictment
charging Reyes-Romero with Reentry of Removed
Alien, Reyes-Romero filed his motion to dismiss
pursuant to § 1326(d). (ECF No. 14.) Reyes-Romero’s
motion to dismiss attacked the validity of the 2011
Removal Order on the basis that it was premised on
unintelligent waivers of his rights that he executed
during his 2011 Removal proceedings.8 To support
this argument that his alleged “waivers” were invalid,
Reyes­ Romero attached two black-and-white copies of
the DHS forms that were completed during his 2011
Unlike the background section in this Court’s July 2, 2018,
Opinion, the background section here lays out the series of events
in this case in the order in which they unfolded before the Court,
so the reader can better appreciate what happened.

7

Where the underlying removal proceeding “is so procedurally
flawed that it ‘effectively eliminated the right of the alien to
obtain judicial review,’ we may invalidate the criminal charges
stemming therefrom.” Charleswell, 456 F.3d at 352 (quoting
United States v. Mendoza-Lopez, 481 U.S. 828, 839 (1987)).
Congress codified this affirmative defense in § 1326(d).

8

59a
Removal Proceeding—DHS Form I-826 and DHS
Form I-851 (the “Forms”) as part of the appendix to his
brief in support of his motion to dismiss the
Indictment (“Appendix”). (Op., at 2; see also App. 22–
23, 106, ECF No. 16.)9
The first Form at issue, the I-826, is titled, “Notice
of Rights and Request for Disposition.” (Ex. A.) The
I-826 informed Reyes-Romero that he had a right to a
hearing before an Immigration Judge to determine
whether he may remain in the United States, and
provided three options: request a hearing, declare fear
of returning to the home country, or admit illegal
status and surrender rights to a hearing. (Id.) The
black-and-white copy of Reyes-Romero’s completed I826 shows that Reyes-Romero supposedly selected two
wholly irreconcilable options: he both requested a
hearing and surrendered his rights to a hearing. (Id.)
The I-826 indicates a date and time of service of June
23, 2011, 9:00. (Id.)
The second Form at issue, the I-851, is a two-page
document titled, “Notice of Intent to Issue a Final
Administrative Removal Order.” (Ex. B.) The first
A black-and-white copy of the completed I-826 is attached to
this Opinion as Exhibit A. A black­ and-white copy of the
completed I-851 is attached to this Opinion as Exhibit B. A color
copy of the completed I-826 is attached to this Opinion as Exhibit
C. A color copy of the completed I-851 is attached to this Opinion
as Exhibit D. As the Court did in its July 2, 2018, Opinion, the
Court has partially redacted the DHS Officers’ signatures from
the copies of the Forms attached to this Opinion because the
publication of complete signatures could pose an identity theft
issue to those involved. The appearance of those signatures is not
germane to the issues here. The Court has also redacted other
non-germane identifying information on the copies of the Forms,
including addresses and DHS internal identification numbers.

9

60a
page contains information about Reyes-Romero with a
charge indicating that Reyes-Romero is deportable
based on his conviction of an aggravated felony and
stating that DHS was serving such notice “without a
hearing before an Immigration Judge” but stating that
Reyes-Romero could rebut the charges stated on the
Form. At the bottom of the first page of the I-851,
there is a signature line for “Signature and Title of
Issuing Officer.” (Id.) That line contains a signature
by the “Issuing Officer” and bears a date and time
notation of June 23, 2011, at 10:00. (Id.)
The first section at the top of the second page of the
I-851 is the “Certificate of Service,” which displays
Reyes-Romero’s signature and a date and time
notation of June 23, 2011, 9:20. (Ex. B.) Thus, the
Form was signed by the Issuing Officer and “issued”
forty (40) minutes after receipt was purportedly
acknowledged by Reyes-Romero at 9:20 AM that day.
(Op. at 9.) The middle section of the second page,
where Reyes-Romero would have contested removal or
sought withholding of removal, is blank. (Ex. B.) The
final section has three boxes checked, corresponding
with the following selections: (1) expressing no desire
to contest and/or to request withholding of removal, (2)
admitting the allegations and charges contained in the
Form and acknowledging ineligibility for any form of
relief from removal, and (3) waiving the right to apply
for judicial review. (Id.) Below these three selections
is Reyes-Romero’s signature, with a date and time of
June 23, 2011, 9:00 written in that section, twenty (20)
minutes before the time noted next to Reyes-Romero’s
signature in the “Certificate of Service” section. (Id.)
It is “witnessed” by the interpreter and DHS “serving”

61a
Officer, Jose Alicea, with the very same date and time
notation. (Id.)
At the time that Reyes-Romero had filed his motion
to dismiss and attached the Forms, it was crystal clear
to anyone who looked at the black-and-white copies of
the I-826 and I-851 that the following events were
recorded as transpiring in the 2011 Removal
proceeding: Reyes-Romero supposedly waived his
rights to contest removal or apply for judicial review
on the I-851 twenty (20) minutes before he
acknowledged receipt of the I-851 and an hour before
it was ever “issued.” (Op. at 10–11.) He supposedly
waived those hearing rights (using check marks on the
I-851) at the exact moment that he was served with
the I-826, where he had also affirmatively indicated
his request for a hearing (using X marks). (Id.) With
respect to the different markings attributable to
Reyes-Romero, the markings switched from Form to
Form yet key ones (check marks) matched other
markings attributed to the Officers on each such
Form. (Id.; Exs. A, B.)
Despite the inherent inconsistency as to ReyesRomero’s desire for a hearing that was plain from the
face of the Forms, the Government responded to
Reyes-Romero’s motion to dismiss by arguing that he
“knowingly and intelligently waived his right to
contest the 2011 Immigration proceedings in the Form
I-851 waiver.” (ECF No. 17, at 7.) The Government
argued that the I-851 represented a valid and
completed waiver and that Reyes-Romero’s dualselection on the I-826 made the I-826 “internally
inconsistent at best” but still insufficient to show that
his waivers were not knowing and voluntary. (Id. at

62a
8.) As later events would demonstrate, that position of
the DOJ was unsupportable.
The Court scheduled a hearing and oral argument
on Reyes-Romero’s motion to dismiss. The first day of
that hearing, January 3, 2018, dealt exclusively with
the issue of whether Reyes­Romero had knowingly and
intelligently waived his rights to challenge his
removal when he signed the Forms. (See Tr. of
Proceedings on Jan. 3, 2018, ECF No. 30.) The
Government began its presentation by calling two
witnesses, the DHS Officers whose names and
signatures appear on the Forms, Officers Trushant
Darji and Jose Alicea. (Id.)
Both DHS Officers presented testimony that “was,
at key points, internally inconsistent, contradictory in
comparison with the content of the Forms, and simply
nonsensical.” (Op. at 11.) For example, Officer
Trushant Darji testified that if a detainee selects
multiple options as to requesting a hearing and
declining a hearing, a DHS Officer would “absolutely”
attempt to clarify the alien’s desires before other forms
were filled out, including by having the detainee initial
his “real” choice, even though he clearly did not do so
as to Reyes-Romero’s I-826. (Id. at 12.) Officer Darji
initially testified that he served all forms together at
the same time upon a detainee, only to then change his
testimony moments later claiming he normally serves
the “rights form” (the I-826) first, even though the time
stamps on Reyes-Romero’s Forms indicate he
supposedly was presented with them (and signed
them) at the exact same time. (Id.) Officer Darji also
flip-flopped his testimony with respect to when his
supervisor would sign off on the issuance of the I-851,
i.e. whether that was before the documents were to be

63a
served on a detainee or after they were served upon
and completed by the detainee, despite his explaining
that the I-851 states that the issuing signature
“authorize[s] you to approach the alien with this
document.” (Id. at 12–13.) After a recess, Officer Darji
reversed course on the purpose of the “issuing
signature” as well, in order to make it align with his
testimony that the issuing signature was to be
completed after the document was served. (Id. at 13.)
When the Court asked Officer Darji why he gave
opposite answers, Officer Darji responded that
“[t]hinking about it after I answered the first time, the
second answer was more appropriate.” (Id.) This
response required the Court to follow-up with,
“[w]hich answer was true?” (Id.)
Similar inconsistencies arose when Officer Darji
was asked to explain why the I-851’s certificate of
service would be completed only after a detainee
waived his rights, in which Officer Darji testified that
waivers were signed before there was a required
explanation and confirmation of understanding. (Id.
at 14.) At the end of both the Government’s and ReyesRomero’s examination of Officer Darji, the Court
asked the witness the following question:
THE COURT: Okay. But in the circumstance
where it is a form 851 that is going to be used,
in this specific circumstance, am I reading these
forms inaccurately — or actually am I reading
them accurately that within moments of 9
o’clock in the morning on June 23rd, 2011,
several things had occurred pretty much all at
once. This defendant was told he had a right to
request a hearing. He requested a hearing. He
said he didn’t want a hearing. And he was told

64a
he couldn’t have a hearing. Am I reading those
forms correctly, sir?
THE WITNESS: Yes.
THE COURT: Does that make any sense at all
to you, sir?
THE WITNESS: No, Your Honor.
(Op. at 22; see also ECF No. 30, at 61:21–62:14.) At
this point in the hearing, the Court recessed to allow
everyone to “reflect on what we have heard so far.”
(ECF No. 30, at 63:13–16.)
Following the recess, the Government pressed on,
calling its next witness. Officer Alicea’s testimony was
no better in terms of coherency or credibility. (See Op.
at 14–19.) He testified that he was commonly involved
in these types of removal proceedings, so he did not
have a specific recollection of Reyes-Romero’s removal
proceeding.
(Id. at 15.) In the same direct
examination, he testified these proceedings were
actually rare and he could not recall any other
administrative proceeding similar to Reyes-Romero’s.
(Id.) He testified that Officers are to serve one Form
at a time and then go on to the next, which, based on
identical time stamps on both Forms, did not happen
in Reyes-Romero’s case. (Id.; ECF No. 30, at 89:2–17.)
Officer Alicea testified that Reyes­Romero was read
his rights in Spanish (he does not speak English and
the Forms were printed in English only) only after he
purportedly waived his rights.10 (Op. at 15.)

Specifically, Officer Alicea was asked why the time stamp
associated with the waiver selection on the I-851 shows 9:00 AM
yet the “Certificate of Service” section on the very same I-851
page bears a time stamp of 9:20 AM. (ECF No. 30, at 90:21–91:6.)
10

65a
At the continuation of the hearing the following day,
Reyes-Romero asked the Court to make findings that
the waivers were invalid in order to narrow the issues
in dispute to solely the last prong of the § 1326(d) test,
prejudice. (Tr. of Proceedings on January 4, 2018,
ECF No. 31, at 20:21–21:14.) The Government
continued to advocate for a finding of a valid waiver.
It argued that the waiver inquiry should focus only on
the I-851 and the Court should simply ignore the I-826
even though that would make it a “legally pointless
document.” (Id. at 24:17–25.)
[Prosecutor]:
Mr. Alicea testified and I
believe Officer Darji testified as well that the
851 form is the form that matters for the
administrative removal —
THE COURT: You are saying the agents of the
United States Department of Homeland
Security required this defendant and everyone
Officer Alicea testified that the twenty minutes after ReyesRomero waived his right “to contest and/or request withholding
of removal” (Ex. B, at 2), “would have been about the time my
explanation was completed.” (ECF No. 30, at 91:7–8.) The
Government then confirmed that “during those twenty minutes
[after Reyes-Romero waived away his rights at the bottom of I851], according to your practice, you would have been reading the
document in Spanish to the alien?” (Id. at 91:9–11.) Officer Alicea
responded, “Yes, sir.” (Id. at 91:12.) Officer Alicea immediately
switched gears and stated that he read the document in Spanish
before a detainee made any selections (Id. at 91:13–19), which, of
course, then leaves the question of what happened in the twenty
minutes between Reyes-Romero waiving his rights on the I-851
and later acknowledging service of the I-851 unanswered.
This is but one of the inconsistencies, implausibilities, and
falsehoods in both Officers’ testimonies. For a more detailed
description, see the July 2, 2018, Opinion, at 11–15.

66a
else to go over and to sign a legally pointless
document, the 826?
[Prosecutor]: That’s my understanding of
their
testimony,
Your
Honor.
My
understanding is —
THE COURT: Do you think I should believe
that?
[Prosecutor]: That’s what the agents have
testified to, Your Honor.
THE COURT: I understand. I heard the
words. Do you think I should believe their
testimony under oath in that regard?
[Prosecutor]: I think you should, Your Honor.
(ECF No. 31, at 24:14–25:4.)
Next, in an effort to explain the testimony of the
Officers, the Government argued to the Court that its
own understanding of the Officers’ testimony was
actually that Reyes-Romero placed his signature on a
blank waiver section before selecting any waiver
option, seemingly akin to signing a blank check, but
that that did not invalidate the waiver. (Id. at 30:6–
25.) At this point, the Court asked the first of several
questions about the Government’s legal positions
taken with respect to the affirmative defense asserted
by Reyes-Romero:
[PROSECUTOR]:
Your
Honor,
my
understanding of that testimony was that the
bottom signature may have happened at 9 a.m.,
but that the checkmarks placed on the box by
Mr. Reyes-Romero would not have happened
until after the —

67a
THE COURT: Oh, oh, you are kidding. You
are absolutely kidding, [Prosecutor], if the
United States is arguing that a waiver is valid
as to boxes that are checked after it is signed by
the person making the waiver.
[PROSECUTOR]: Your Honor, there is a
second signature on the form toward the top for
Mr. Reyes, and that’s —
THE COURT: The signature at the bottom is
the waiver. You are telling me that before the
boxes are checked indicating the waiver, the
waiver section is signed? Is that what the
United States is arguing?
[PROSECUTOR]: That is my understanding
of the testimony of the officers, Your Honor.
THE COURT:
Well, that wasn’t my
understanding of the testimony because I might
have stopped the hearing right in its tracks if
they testified to that yesterday. I have got to
tell you, [Prosecutor], I find the position of the
United States of America and the Department
of Homeland Security at least intriguing, if not
stunning. We’ve had two agents of the United
States Department of Homeland Security come
in and say that they have this defendant waive
his rights before they were read to him. Waived
his rights as to a charging document before the
charging document was issued. And the United
States is now taking the position that it’s a valid
waiver when somebody signs the waiver before
the indicia of the waiver are marked, that is the
checkmarks, it’s like signing a blank check. Are
you sure that’s the argument of the United

68a
States Department of Justice? Justice. Are you
sure that’s the argument. . . ?
[PROSECUTOR]: Well, Your Honor, if that’s
— if your finding is that —
THE COURT: I am making no finding. I want
to know what the position of the Attorney
General of the United States represented by you
is. That it is a valid waiver of rights when
someone signs the form in blank before the
waiver checkmarks are placed on it; is that the
position of the Attorney General of the United
States?
[PROSECUTOR]: I would say in this case
because there is a second signature toward the
top that is dated after the checkmarks are
placed, that makes the form valid. That is the
position, Your Honor.
(ECF No. 31, at 29:6–30:25.)
The Court then, on January 4, 2018, made tentative
findings that there was no voluntary and intelligent
waiver by Reyes-Romero in the 2011 Removal
Proceeding and that Reyes-Romero would likely
prevail on the first two elements and the first prong of
the third element of the § 1326(d) affirmative defense,
which would leave only the second prong of the third
element11 at issue. (Id. at 51:9–52:10.)The remainder
11 The third element of § 1326(d) asks whether the entry of the
removal order was “fundamentally unfair.” Charleswell, 456 F.3d
at 359. In order to meet this element, the defendant must
establish both (a) that some fundamental error occurred and (b)
that as a result of that fundamental error, the defendant suffered
prejudice. Id. For the second prong, resulting prejudice,
defendant must establish (by a preponderance of the evidence) a

69a
of the January 4, 2018, hearing involved ReyesRomero’s witnesses, all family members, testifying
about their family’s fear of persecution and asylum
eligibility.
After this two-day hearing, the Court set an optional
post-hearing briefing schedule, that was later
extended through March 2018. (Order, ECF No. 27.)
However, before that expanded deadline arrived, on
February 27, 2018, the Government filed its own
motion to dismiss the Indictment (ECF No. 46).
B. The Government Files Its Own Motion to
Dismiss the Indictment
The Government filed its motion to dismiss
pursuant to Federal Rule of Criminal Procedure 48(a).
This Rule provides that “[t]he government may, with
leave of court, dismiss an indictment, information, or
complaint.” Fed. R. Crim. P. 48(a) (emphasis added).12
reasonable likelihood that the result would have been different if
the fundamental error in the removal proceeding had not
occurred. Id. at 361. As noted below, in an egregious case, such
prejudice may be presumed. Id. at 362 n.17. This Court applied
that presumption, in addition to concluding that the Defendant
satisfied both prongs of the traditional test, in issuing its nowfinal Order. (Op. at 51.) The litigation of the third element is
referred to throughout the case by the Court and the parties as
the “prejudice issue.”
A court is to grant a Rule 48(a) motion to dismiss unless such
dismissal is “clearly contrary to manifest public interest.” In re
Richards, 213 F.3d 773, 787 (3d Cir. 2000). “[R]efusal to dismiss
is appropriate only in the rarest of cases,” id. at 786, but a district
judge “has independent responsibilities” to protect certain rights,
interests, and duties. Id. at 788. The district court’s exercise of
its judgment in considering a Rule 48(a) motion, as set out in In
re Richards, takes two forms. First, it protects a defendant from
harassment such as repeated prosecution and also protects

12

70a
In its motion to dismiss, the Government articulated
that “based on evidence [introduced at the prior
hearings] and on additional factual information that
has come to the attention of the Government since the
hearing[s], the United States has determined that
dismissal of the indictment in the above­captioned
criminal case is in the interests of justice.” (Gov’t’s
Mot. to Dismiss, ECF No. 46, at 1.) Reyes-Romero filed
objections to the Government’s motion to dismiss,
articulating that a simple dismissal of this case, even
with prejudice, without a formal adjudication on the
merits of his affirmative defense would leave him
exposed to possible reinstatement of his 2011 Removal
Order in future immigration proceedings. (ECF No.
48.)
Given Reyes-Romero’s objections, the Court then
held a hearing and oral argument on the
Government’s motion to dismiss on March 1 and 2,
2018. (ECF Nos. 53, 54.) The Government argued
that a trial judge must grant a Government’s motion
to dismiss absent the existence of improper motives of
the prosecutor’s office. Given what had transpired at
the hearing on Reyes­Romero’s motion to dismiss, the
Court, once again, reiterated the egregious nature of
the conduct by the DHS Officers—both their conduct
in 2011 and their testimony during proceedings in this
criminal case—and referenced the relationship

judicial processes from abuse. Id.; see Rinaldi v. United States,
434 U.S. 22, 29 n.15 (1977) (per curiam). Second, “the public has
a generalized interest in the processes through which prosecutors
make decisions about whom to prosecute that a court can serve
by inquiring into the reasons for a requested dismissal.” In re
Richards, 213 F.3d at 789.

71a
between the U.S. Attorney’s Office and DHS in the
case:
I think what the testimony of those agents, the
portions of it that were true — because I have
concluded that parts of it were not true, they were
lies. But what was true demonstrated a level of
law enforcement outrageousness I have not seen
in any other case since I have been a federal
judge. . . . the choice your office has to make is
when you are going to decide that you can’t
continue to rely on that testimony, because under
Napue and a series of other US Supreme Court
cases, your office is not permitted to rely on
testimony that’s not true. . . . . Because I re-read
the testimony last night. It was the single mo[]st
troubling thing I have read not only in the time I
have been a district judge, but in the time I have
been a lawyer. . . . Your colleagues weren’t there.
But there does come a point where the United
States Department of Justice is adopting it.
(ECF No. 58, at 14:20–16:24.) The Government
acknowledged the Court’s observation but did not
disavow the DHS Officers’ testimony. (Id. at 17:2–6.)
After identifying that there was a plausible risk of
harassment to Reyes-Romero in future immigration
proceedings and that there was a legitimate public
interest in getting to the bottom of what happened in
the 2011 Removal Proceeding and then in this
proceeding (as articulated by our Court of Appeals in
In re Richards), the Court pressed the Government as
to its reasons for seeking dismissal in the manner in
which it had. Here is what the Court learned.

72a
First, under either the Government’s or ReyesRomero’s motion to dismiss, the end result for this
criminal prosecution would be exactly the same—a
dismissal of the Indictment with prejudice. Second,
despite the fact that the granting of either motion to
dismiss would have an identical impact on the DOJ’s
ability to criminally prosecute Reyes-Romero for this
offense in the future (e.g., end it), the prosecutor would
not consent to or agree to not oppose Reyes-Romero’s
motion to dismiss because it was “not prepared to
stipulate to the prejudice prong” of the § 1326(d) test.
(Tr. of Proceedings on March 1, 2018, ECF No. 57, at
30:5–10.) Importantly, neither the Defendant nor the
Court ever asked the Government to stipulate to
“prejudice,” but asked only whether it would “not
oppose” the granting of Reyes-Romero’s motion to
dismiss.
(Id. at 30:5–18.) Third, despite the
Government’s
refusal
to so stipulate,
the
Government’s stated reason for seeking dismissal of
the Indictment was to preserve litigation resources in
light of the Government’s recent “assessment of its
likelihood of success on that [§ 1326(d)] defense.” (Id.
at 36:13–21.) The Government indicated that its
“assessment” incorporated certain information
discovered in immigration files of Reyes-Romero’s
family members, which had yet to be turned over to
Reyes-Romero. (Id. at 32:6–37:14.)
At this juncture in the proceedings, the
Government’s desire to avoid an adjudication on the
merits but to also request a dismissal with prejudice
was peculiar, to say the least. Even more peculiarly,
despite citing a desire to preserve litigation resources,
the Government did not ask that the Court stay the
briefing of Reyes-Romero’s motion to dismiss

73a
(including briefing by the Government) while the
Court considered its motion to dismiss. Instead,
putting aside its admission that its “likelihood of
success” (based on its own assessment) on a § 1326(d)
disposition did not justify the further expense of its
litigation resources, if Reyes-Romero was to file
supplemental briefing on the prejudice issue with
respect to his motion to dismiss, the Government
wanted to plow ahead and submit its own
supplemental briefing. (Id. at 30:20–31:1.)
These irreconcilable positions advanced by the
Government led the Court to further inquire about
what became clear was the real difference between an
adjudication on the § 1326(d) affirmative defense and
a simple dismissal of the Indictment with prejudice on
the Government’s motion to dismiss: the effect of the
2011 Removal Order on Reyes-Romero’s future
immigration proceedings. What was obvious was that
a simple dismissal of the Indictment on the
Government’s motion to dismiss would leave the 2011
Removal Order intact,14 but if the Court concluded
that the 2011 Removal was contrary to law, DHS
likely could not rely upon in it in later proceedings.15

14 “That is important here because prior to the Defendant’s
Indictment in this case, on October 3, 2017, DHS issued a ‘Notice
of Intent/Decision to Reinstate Prior Order,’ which provided
notice of the Secretary of Homeland Security’s intent to reinstate
the 2011 Removal Order.” (Op. at 55.) “Pursuant to 8 U.S.C.
§ 1231(a)(5), when a prior order of removal is reinstated, the prior
order of removal is not ‘subject to being reopened or reviewed’ at
the administrative immigration level.” (Id. at 55 n.57.)

“While[§ 1231(a)(5)] prohibits relitigation of the merits of the
original order of removal, it does not prohibit an examination of
whether the original order was invalidated. . . .” (Op. at 55
15

74a
As this Court recognized, “[t]he long and the short of
it is that a determination as to the validity of the 2011
Removal may be a matter of substantial consequence
in regard to future proceedings involving the
Defendant.” (Op. at 55 n.57.)
Despite the constant and obvious collaboration
between DHS and DOJ observed by the Court up to
and including the current juncture in the case, at the
March 1, 2018, hearing, the Government was unable
to provide the Court with information about how DHS
would choose to proceed in this particular case in light
of the dichotomy noted above, ECF No. 57, 7:20–23,
8:10–16, notwithstanding that an ICE Officer was in
Court and seated at counsel table. (ECF No. 57, 2:6–
8.) Given the lack of answers to the Court’s questions
and the rarity of an opposed Rule 48(a) motion to
dismiss, the Court took the Government’s motion to
dismiss under advisement. Both parties continued to
brief the “cross” motions to dismiss, and the
Government finally turned over its immigration files
to Reyes-Romero on or about March 12, 2018.16 (ECF
Nos. 59–62.)
C. The Parties Receive the Color Copies of
the DHS Forms

(quoting Ponta-Garcia v. Attorney Gen. of US., 557 F.3d 158, 163
(3d Cir. 2009).)
After asking the Court for four (4) extensions in order to allow
DHS to produce the relevant documents and conduct necessary
redactions, the Government actually instructed DHS to cease
document production and redaction once it filed its own motion to
dismiss, despite its production obligation remaining in effect.
(Op. at 61.)
16

75a
On March 14, 2018, Reyes-Romero filed color copies
of the 2011 DHS Removal Forms, that were turned
over to his counsel by the Government, as attachments
to his brief opposing the Government’s motion to
dismiss. The color copies are attached to this Opinion
at Exhibits C and D. (ECF No. 63-1 to -6.)
At that point, the cat was conclusively out of the
bag. The color copy of I-826, which showed that ReyesRomero had selected two contradictory options with
respect to seeking a hearing, also showed that the
selection marks indicating a desire to waive the right
to a hearing was made partially in light blue ink, the
same light blue ink that marks Officer Darji’s
signature.17
The selection next to the option
requesting a hearing is entirely in black, the same
black that marks Reyes-Romero’s signature. The
Court noted in its prior Opinion that it “harbors
substantial doubt that Reyes-Romero personally made
the critical [waiver] notations.” (Op. 11 n.6.)
According to the Government, the color copies were
not a factor in its decision to move for dismissal of the
Indictment because the Government had reached that
decision prior to its review of the color copies. (ECF
No. 66, at 7.) It also asserts, without opposition, that
it had requested the color copies from ICE in early
March 2018, and prior to that time, both parties in this
case were operating with solely the black-and-white
versions. (ECF No. 105, at 18.) But that would not get
the United States off the hook, since the DHS Officers
The Court can best describe the “waiver” selection as a small
thin black X as well as a light blue slash (or what may better be
described as half of an X). On the other hand, the “hearing”
selection is best described as a boldened X, as if it was reinforced.
17

76a
knew full well what they did in 2011 and what the
color copies of the Forms would show. Dennis v. Sec’y,
Pa. Dep’t of Corr., 834 F.3d 263, 278 (3d Cir. 2016)
(“[F]avorable evidence in the police’s possession is
imputed to the prosecution.”).
About a week after the color copies of the Forms
were filed with the Court—eleven (11) weeks after the
DHS Officers testified and three (3) weeks after the
Court warned the Government that it must take a
position with respect to the veracity of its own
witnesses’ testimony—the Government, for the first
time, informed the Court that it “does not rely on or
adopt” the Officers’ testimony. (ECF No. 66, at 7.) It
also asserted that it would not “present argument” on
any § 1326(d) issue other than the prejudice issue.
(Id.) The Court then prodded the Government on its
position with respect to its own witnesses’ testimony.
At the March 22, 2018, hearing, the Court and the
Government had the following exchange:
[Prosecutor]: Your Honor, we are saying that
we will not rely on that testimony moving
forward in this case.
THE COURT: Why? Why won’t you rely on it?
[Prosecutor]: Your Honor, we don’t feel that
that testimony can support a verdict for the
Government on the first two prongs of the
Charleswell case.
THE COURT:
If believed, it’s
insufficient? Or I shouldn’t believe it?

legally

[Prosecutor]:
We understand that Your
Honor will make the final decision as to
whether that testimony could be believed or not.
We recognize that, Your Honor.

77a
THE COURT: Well, I understand that. I’m
asking the lawyer for the United States of
America, should I believe that testimony?
[Prosecutor]: Your Honor, you should give it
as much weight as you see fit.
(ECF No. 77, 27:7–22.)
In the Court’s estimation, this is a remarkable
position to be taken by the United States Department
of Justice—the agency entrusted by law and
constitutional custom with speaking in federal Court,
this federal Court, on behalf of the people of the United
States. To this day, DOJ tells the Court that it should
treat the only testimonial evidence the DOJ offered to
the Court—testimonial evidence from the federal
officers who were in “the room where it happened”18 —
as some type of evidentiary jump ball.
The United States did not then, and does not now,
have the luxury of punting on the credibility of its own
(and its only) witnesses in such a case as this, and this
indifferent approach to its central obligations to the
truth-seeking process in federal court adds substantial
support to the Fee Application here, as will be further
explained below.
For the remainder of the case, the Government
maintained a non-committal position with respect to
the Officers’ testimony. While it stopped affirmatively
relying on the testimony and did not present further
arguments on the first two elements of § 1326(d), the
Government never addressed whether the testimony
was credible or was reliable. The Government never
Leslie Odom, Jr., The Room Where It Happened, on Hamilton:
Original Broadway Cast Recording (Atl. Recording Corp. 2015).
18

78a
acknowledged that the purported waivers on the
Forms were what they facially demonstrated—
invalid—or that the DHS’s reliance on them in 2011
was contrary to law and due process. Instead, the
parties proceeded to battle over the second prong of the
last element of the § 1326(d) test—the prejudice
issue.19
D. The Government’s Position with Respect
to Its Authority to Speak for DUS
As the litigation of this criminal case continued, two
issues that were largely intertwined surfaced. First,
given Reyes-Romero’s request for release on bond, the
Court needed to sort through the interplay between an
Article III court potentially granting bond and
conditions of release and an ICE detainer. Second, in
order to appreciate the difference between the
Government’s motion to dismiss and Reyes-Romero’s
motion to dismiss, the Court needed to sort through
the impact of an adjudication of the § 1326(d)
affirmative defense and an outright dismissal of the
Indictment with no adjudication. For both issues, the
question returned to “what will DHS do next?”—be
that a reinstatement of the prior 2011 Removal Order
or initiation of new removal proceedings without any
reliance on the 2011 Removal and the involved Forms.
The Government, as at the prior hearing, was simply
unwilling to provide any insight into DHS’s position,
or apparently to lift a finger to figure it out.
At the March 22 hearing, which was scheduled as a
“bond hearing,” when asked whether ICE would
detain Reyes-Romero should the Court release him on
19

See note 11 supra.

79a
bond pending the resolution of this criminal matter,
the Government responded that it simply could not
“speak to what ICE would do,” even though the
interplay between detainers was the issue placed on
the table prior to the March 22 hearing. (ECF No. 77,
at 19:3–4.) Again, an ICE Officer was seated at the
Government’s counsel table. (Id. at 3:18–20.) The
Court asked why the prosecutor could not simply ask
the ICE Officer there and then. (Id. at 19:5–14.) The
prosecutor did not do so, articulating that the ICE
Officer present was simply a “line Officer,” and as an
Assistant United States Attorney, he himself had
limited delegated authority from the Attorney General
and could not speak for or bind ICE. (Id. at 19:15–
20:17.) The Court asked if the proceedings should be
paused so the Assistant U.S. Attorney could locate
someone with such authority from DHS.
The
Assistant U.S. Attorney declined the invitation. (Id.
at 20:15–21:22.) Notably, it also became clear at the
March 22 hearing that the Assistant U.S. Attorney
had been in contact with a DHS attorney and had
suggested that defense counsel speak with that DHS
lawyer on matters related to future immigration
proceedings brought against Reyes-Romero. (Id. at
39:20–40:10.) Apparently the DOJ could and did
actually communicate with DHS about matters of
interest to it, but elected to remain robustly ignorant
as to the matters specifically raised by the Court.
This,
combined
with
the
Government’s
contradicting articulations for dismissal of the
Indictment without adjudication on the merits of the
§ 1326(d) defense, led the Court to conclude at that
March 22 hearing that it had “a reasonable basis to
believe the Department of Homeland Security

80a
want[ed] the indictment dismissed so it can rely on
[the 2011 Removal Order],” in spite of the Court’s
tentative findings that such Removal Order was
contrary to law. (ECF No. 77, at 54.) The Government
did not dispute the Court’s observations, nor could it
after taking the position that it was simply not privy
(and would and could not become privy) to the
decision-making of DHS.
In the end, the parties completed briefing on the
cross motions to dismiss, which included extensive
briefing by both sides on the § 1326(d) prejudice issue.
The Court ultimately ruled for Reyes-Romero. (Order,
ECF No. 93.) It held that Reyes-Romero met his
burden to show all three elements of the § 1326(d)
affirmative defense and that the 2011 Removal order
was invalid. (Op., ECF No. 92; ECF No. 93.) In the
same Opinion and accompanying Order, the Court
denied the Government’s motion to dismiss,
concluding that the evasive (and at times affirmatively
deceptive) maneuvers in this case by the federal
government writ large demonstrated a real risk of
prosecutorial harassment against Reyes-Romero, in
the form of likely removal proceedings following the
dismissal of the Indictment in which DHS would rely
on the invalid 2011 Removal Order.20 (Op. at 54–55.)
II.

Legal Standard

The “Hyde Amendment” refers to the statutory
provision that gives district courts the authority to
award to a prevailing party, other than the United
States, a reasonable attorney’s fee and other litigation
Reye-Romero’s Motion for Release on Bond was dismissed as
moot in light of the dismissal of the Indictment. (July 2, 2018,
Order, ECF No. 93 ¶ 2.)
20

81a
expenses, where the court finds that the position of the
United States was vexatious, frivolous, or in bad faith.
The Hyde Amendment reads,
[T]he court, in any criminal case (other than a
case in which the defendant is represented by
assigned counsel paid for by the public) . . . may
award to a prevailing party, other than the
United States, a reasonable attorney’s fee and
other litigation expenses, where the court finds
that the position of the United States was
vexatious, frivolous, or in bad faith, unless the
court finds that special circumstances make such
an award unjust. Such awards shall be granted
pursuant to the procedures and limitations (but
not the burden of proof) provided for an award
under [the Equal Access to Justice Act (“EAJA”),
28 U.S.C. § 2412].
18 U.S.C. § 3006A (statutory note).
Our Court of Appeals discussed the Hyde
Amendment legal analysis in detail in United States v.
Manzo, 712 F.3d 805 (3d Cir. 2013). It explained:
[T]he Hyde Amendment places a daunting
obstacle before defendants who seek to obtain
attorney fees and costs from the government
following a successful defense of criminal charges.
In particular, a defendant must show that the
government’s position underlying the prosecution
amounts
to
prosecutorial
misconduct—a
prosecution brought vexatiously, in bad faith, or
so utterly without foundation in law or fact as to
be frivolous. The defendant bears the burden of
meeting any one of the three grounds under the
statute, and acquittal by itself does not suffice.

82a
That burden is made more difficult by the
approach courts take in assessing the
government’s litigation position. In determining
whether a position is vexatious, frivolous or in
bad faith, courts make only one finding, which
should be based on the case as an inclusive whole.
A count-by-count analysis is inconsistent with
this approach. In addition, when the legal issue
is one of first impression, a court should be wary
of awarding fees and costs so as not to chill the
ardor of prosecutors and prevent them from
prosecuting with earnestness and vigor.
Manzo, 712 F.3d at 810 (internal quotations and
citations omitted). Here is what Manzo teaches:


The position of the United States is vexatious
when it is both (1) “objectively deficient, in that
it lack[s] either legal merit or factual
foundation,” and (2) viewed objectively to be the
product of “maliciousness or an intent to harass
or annoy.” Id. (quoting United States v. Knott,
256 F.3d 20, 29 (1st Cir. 2001)).



The position of the United States is frivolous
when it is “groundless[,] with little prospect of
success.” Id. (quoting United States v. Gilbert,
198 F.3d 1293, 1299 (11th Cir. 1999)). A
frivolous position includes a position that is
foreclosed by binding precedent, obviously
wrong, lacking a reasonable basis, or lacking a
reasonable expectation of attaining sufficient
material evidence by the time of trial, but a
position is not frivolous merely because it lacks
precedent.
Id. at 810–11 (collecting cases
describing “frivolousness”).
“A ‘frivolous’

83a
position can be distinguished from a ‘vexatious’
one in that ‘the term vexatious embraces the
distinct concept of being brought for the purpose
of irritating, annoying, or tormenting the
opposing party.’” Id. at 811 (quoting United
States v. Heavrin, 330 F.3d 723, 729 (6th Cir.
2003)).


The position of the United States demonstrates
bad faith when there is an implication of
conscious wrongdoing. It is an objective inquiry
that focuses on whether the Government acted
upon “a state of mind affirmatively operating
with furtive design or ill will.” Id. (quoting
Gilbert, 198 F.3d at 1299).

Under the Hyde Amendment, “[w]hen assessing
whether the ‘position of the United States was
vexatious, frivolous, or in bad faith,’ the district court
should therefore make only one finding, which should
be based on the ‘case as an inclusive whole.”’ Heavrin,
330 F.3d at 730 (quoting Comm’r, INS v. Jean, 496
U.S. 154, 162 (1990)); see also Manzo, 712 F.3d at 810–
11 (quoting Heavrin).
Evaluating a case as an inclusive whole is not
susceptible to a precise litmus test. The fact that
only one count among many is frivolous or not
frivolous is not determinative as to whether a
movant should receive an award under the Hyde
Amendment.
Even if the district court
determines that part of the government’s case has
merit, the movant might still be entitled to a
Hyde Amendment award if the court finds that
the government’s “position” as a whole was
vexatious, frivolous, or in bad faith. By the same

84a
token, a determination that part of the
government’s case is frivolous does not
automatically entitle the movant to a Hyde
Amendment award if the court finds that the
government’s “position” as a whole was not
vexatious, frivolous, or in bad faith. The district
court, in other words, must not fail to see the
forest for the trees.
Heavrin, 330 F.3d at 730. Again, the district court
must “inquire into the merits of the entire case,”
assessing it as an “inclusive whole.” Id. at 731.
In addition to requiring that the Government’s
position be vexatious, frivolous, or in bad faith,
recovery under the Hyde Amendment is subject to
additional restrictions and procedures set forth in the
EAJA, 28 U.S.C. § 2412(d), none of which are
contested here.21 United States v. Claro, 579 F.3d 452,
457 (5th Cir. 2009) joining consensus among circuits
that the Hyde Amendment incorporates only those
procedures and limitations in subpart (d) of 28 U.S.C.
§ 2412 and collecting cases); United States v.
Adkinson, 247 F.3d 1289, 1291 n.1 (11th Cir. 2001).

21 The Government made no objections related to ReyesRomero’s § 2412(d) qualifications, so the Court will not address
the application of those provisions here. See Scarborough v.
Principi, 541 U.S. 401, 414 (2004) (EAJA’s § 2412(d)(1)(B)
requirements do not concern a federal court’s subject-matter
jurisdiction); Vasquez v. Barnhart, 459 F. Supp. 2d 835, 836 (N.D.
Iowa 2006) (“Because the [Supreme] Court has clarified that the
requirements of section 2412(d)(1)(B) are not jurisdictional, but
are ancillary to the court’s judgment, the . . . requirements can be
waived by the Government, as it is the Government whose
interests are protected by the section’s requirements.”).

85a
III.

Discussion

The central question put before this Court is
whether the position of the United States in the
prosecution of Reyes-Romero was vexatious, frivolous,
or in bad faith. Upon review of the record before the
Court, viewing this case “as an inclusive whole,” the
Court finds and concludes that the position of the
United States was both frivolous and in bad faith.
Manzo, 712 F.3d at 810.
A. The Position of the United States Includes
Reference to DHS
When reviewing “the position of the United States,”
the Court examines the litigation position of the DOJ
through this District’s U.S. Attorney’s Office and the
actions taken (or not taken) by the federal agency upon
which the criminal case is based.22 See United States
v. Holland, 34 F. Supp. 2d 346, 360 n.25 (E.D. Va.
1999) (examining conduct of FDIC for purposes of
determining Hyde Amendment petition);23 United
The Hyde Amendment explicitly incorporates the procedures
and limitations (except the burden of proof) provided for an award
under 28 U.S.C. § 2412(d). See Claro, 579 F.3d at 457. That
subsection specifically defines the “position of the United States”
as two-fold: “the position taken by the United States in the civil
action [and] the action or failure to act by the agency upon which
the civil action is based.” 28 U.S.C. § 2412(d)(2)(D). “Accordingly,
our decisions ‘have consistently defined ‘position of the United
States’ as ‘not only the litigation position . . . but also the agency
position [that] made the lawsuit necessary.’” Taylor v. Heckler,
835 F.2d 1037, 1040 (3d Cir. 1987) (quoting Lee v. Johnson, 801
F.2d 115, 116 (3d Cir. 1986) (Becker, J., dissenting from denial of
petition for rehearing in banc)).
22

In Holland, the court granted the Hyde Amendment petition
and initially assessed a portion of the attorney’s fees and
expenses against the FDIC, but the court vacated its assessment
23

86a
States v. Gardner, 23 F. Supp. 2d 1283, 1294–95 (N.D.
Okla. 1998) (same with respect to IRS). Therefore, the
Court’s examination of the Government’s position in
this case must also incorporate record evidence of the
actions and lack of actions by DHS in relation to the
criminal prosecution.
The Court must also delineate what actions by DHS
are deemed to be in relation to this criminal case.
“[T]he scope of the record in any Hyde Amendment
case must be determined by a review of all the facts
and circumstances.” Gardner, 23 F. Supp. 2d at 1295.
The EAJA, incorporated into the Hyde Amendment,
“specifically contemplates that the court will consider
actions and events prior to the initiation of litigation.”
Id. In this case, the actions of DHS Officers in 2011
are part and parcel with the DOJ’s 2017 criminal
indictment. The 2011 Removal Order was a necessary
element to the criminal charge, and the Government
relied on that Removal Order (and the conduct
therein) for a significant amount of time until it was
forced to begrudgingly retreat from its position.24
of damages against the FDIC because it recognized that the
defendant’s amended petition for an award was only brought
against the DOJ and/or the U.S. Attorney’s Office and the FDIC
was not properly before the Court.
The Holland Court
acknowledged that a petition against “the United States” could
be interpreted broadly enough to include other agencies of the
United States Government, but in that particular case, “it
appear[ed] that the Hollands purposefully did not seek relief
against the FDIC . . . in their amended petition.” 48 F. Supp. 2d
571, 580 (E.D. Va. 1999). Here, DHS has been given notice of the
Fee Application by the Government and the Court interprets the
Fee Application to include consideration of the conduct of DHS.
When faced with a challenge to the validity of the 2011
Removal Order, the Government defended the series of events,
24

87a
Even though the Government backed away from (but
did not affirmatively disavow) those events later in the
criminal prosecution, the Court concludes that the
evidence in the record related to the conduct of DHS
Officers in the 2011 Removal Proceedings is properly
included in the scope of the record to be considered in
the Court’s examination of the position “of the United
States” in this criminal case.25
Although the
Government argued against including the conduct of
federal officers in 2011 in the Government’s “position”
for purposes of evaluating the Fee Application, it
offered no legal support for why the events that it
necessarily relied on to satisfy an element of the
offense charged against Reyes-Romero should not also
be included in the record here.
B. The Position of the United States Was
Frivolous and in Bad Faith
The Court finds by a preponderance of the
evidence26 that the position of the United States was
devoting an entire day’s hearing to providing the Court with
testimonial accounts of “what happened” in 2011 with the live
testimony by the very DHS Officers involved.
However, as explained below, the ultimate finding that the
position of the United States was both frivolous and in bad faith
would not be altered if the scope of the record excluded the
conduct of DHS Officers in 2011, as the record evidence of the
conduct by DHS from 2017 to present alone meets the standard
for such a finding as it pertains to the agency prong of the
“position of the United States.”
25

“[A] party moving for an award of attorney’s fees under the
Hyde Amendment must establish by a preponderance of the
evidence that the government’s position was vexatious, frivolous,
or in bad faith.” United States v. Velardi, No. 06-cv-00659, 2008
U.S. Dist. LEXIS 62257, at *4–5 (E.D. Pa. Aug. 14, 2008) (quoting
United States v. Truesdale, 211 F.3d 898, 908 (5th Cir. 2000)).
26

88a
both frivolous and in bad faith. The United States
need not make a wrong turn at every corner to justify
the imposition of a Hyde Amendment award, Heavrin,
330 F.3d at 730, but the misconduct of the United
States at multiple key points before and during the
criminal prosecution and on multiple key issues in this
litigation was completely divorced from fact and law
and demonstrated conscious wrongdoing.
The federal government plainly railroaded ReyesRomero out of the country in 2011. The Court has
already found and concluded that the Forms,
completed in 2011, were “internally and inherently
contradictory” to the point of being indiscernible as to
any actual waiver of rights by Reyes-Romero. (Op. at
16.) The Court was able to reach this conclusion by
examining the facial defects on the Forms. (Id. at 16–
17.) With respect to the I-851, “[t]he Defendant signed
the ‘waiver’ section before it was entirely explained to
him in his native language, he signed the waiver
section before it was served on him, and it was served
on him before it was issued. In short, he supposedly
signed away his rights before he was charged and
before those rights were read to him in Spanish.” (Id.
at 17.) “[T]he involved Officers elect[ed] to run
roughshod over not only what they testified were the
standard and required DHS procedures, but also over
any semblance of due process.” (Id. at 19.) As
extensively explained in this Court’s July 2, 2018,
Opinion and again here, the conduct by the DHS
Officers in 2011 had no basis in law and easily meets
the definition of “frivolous.” It was contrary to what
the DHS Officers stated was DHS policy, was
foreclosed by binding authority (i.e. the due process
clause of the Constitution), and was lacking in any

89a
reasonable factual or legal basis. Manzo, 712 F.3d at
811.
Even if the scope of the Court’s review did not
extend to the DHS Officers’ conduct in 2011, the 2018
testimony by those same DHS Officers about “what
happened” in 2011 and their description and
explanation about what the Forms “showed”
demonstrates clear bad faith. The Court’s conclusions
in its July 2, 2018, Opinion that the Officers lied and
were motivated to lie in a weak attempt to sell to the
Court the nonsense they generated in 2011 plainly
evidences “conscious doing of wrong.” Id. This is not
a case where law enforcement’s misconduct “could just
as well rested on an honest mistake of fact or
misapprehension of the authority they had been
granted.” Knott, 256 F.3d at 31 (reversing district
court’s grant of Hyde Amendment award). Based on
the Court’s review of the record, its own examination
of the witnesses, and its personal observations relative
to the testimony in open Court, the Court confidently
concludes that the DHS Officers were affirmatively
acting with “furtive design.” Manzo, 712 F.3d at 811.27
In Knott, the district court based its finding of
vexatiousness on its “determination that there was
‘credible evidence”’ of altered sampling results that led
to the EPA obtaining a federal search warrant,
specifically that the final recorded measurement
appeared to be written over a different measurement.
256 F.3d at 24, 31. The First Circuit, reversing the
Because those Officers well knew that they had cooked up
Reyes-Romero’s 2011 Removal, they too were bound by Brady to
disclose what they had done and the documentary and
testimonial evidence of their conduct. Dennis, 834 F.3d at 288.
27

90a
district court, concluded that this determination by
itself was insufficient to establish a vexatious
prosecution because the record showed that other
properly recorded samples also showed EPA violations
and the district court made no findings as to why
annotations had been altered, “just that there was
‘credible evidence’ that they may have been.” Id. at 32.
The First Circuit hypothesized that the alteration
could have been for any number of reasons, “some as
benign as the correction of a mistake.” Id. “Since the
existence of the purported alterations is equally open
to benign and malign interpretations on the present
record, it hardly provides sufficient evidence of
vexatious conduct.” Id.
Here, unlike Knott, the Court has already found
that the DHS Officers’ false testimony was given in an
effort to “explain away prior testimony” of the Officers’
misconduct during the 2011 Removal Proceedings.
(Op. at 15.) The Court has also already found that the
misconduct during the 2011 Removal Proceedings
“[ran] roughshod over . . . the standard and required
DHS procedures, but also over any semblance of due
process.” (Id.) Even though this Court in its previous
Opinion only went so far as to state that it had
“substantial doubt” that Reyes-Romero personally
made the critical waiver notations, when viewing the
specific facts of the case there simply is no “benign”
explanation for a DHS Officer selecting a key waiver
provision on behalf of a detainee who is plainly capable
of marking and signing a document himself, especially
when the testimony was that Reyes-Romero “held the
pen.” (Id. at 11 n.6.) Of course, this is just one “flaw”
of many evidenced on the face of the Forms. There is
no plausible “benign” explanation for the manner (and

91a
order) in which the Forms were completed.28 Both the
2018 false testimony and the 2011 conduct by the DHS
Officers provide strong evidence of frivolousness and
bad faith.29
The other prong of the “position of the United
States,” the position of the DOJ, was also frivolous and
in bad faith. First, the DOJ relied upon the facially
invalid waivers to indict and seek to prove the
necessary element that Reyes-Romero “had been
previously deported and removed from the United
States pursuant to law.”
(ECF No. 1.)
The
Government’s reliance on the black­and-white copies
of the Forms was obviously flawed. The Forms facially
demonstrate that there was no valid waiver due to
their patent inconsistency, so the Government’s
position “lack[ed] a reasonable expectation of
attaining sufficient material evidence by the time of
trial.” Manzo, 712 F.3d at 811. There is no better
evidence of this than the fact that when the
Government put on witnesses (who it purports to have
interviewed prior to putting them on the stand) to
explain the facial defects, things inexorably went from
bad to worse as their testimony shifted from
28 The simplest explanation could have been that the times on
the Forms were rounded or that different clocks were used to note
different times. Both of these explanations were ruled out by the
Officers’ own testimony. (See Op. at 10 n.5, 14.)
29 So that there is no doubt, in light of the specific analysis the
Court is now required to make in the Hyde Amendment context,
the Court finds, based on the Court’s examination of the color
copies and its consideration of the testimonial record, that ReyesRomero did not place the blue markings on the I-826 where he
purported to waive a hearing. Rather, one of the DHS Officers
made that notation.

92a
essentially incoherent to false. Cf. United States v.
Capener, 608 F.3d 392, 401–02 (9th Cir. 2010)
(Government’s position was not frivolous when there
was no evidence that the Government had any
affirmative reason to believe its theory was wrong.).
While the Government’s position with respect to the
Forms was certainly and woefully mistaken at the
time of Indictment and likely up to the first hearing,
its position following the testimony of its witnesses
transitioned from mistake to misconduct (as a term of
art used in the Hyde Amendment context) as there
were ample “affirmative reason[s] for the
[G]overnment to know such reliance [was] misplaced.”
Id. at 402. The Government continued to advocate
that the 2011 Removal Proceedings were conducted
pursuant to law, long after the DHS Officers presented
testimony that was rife with internal and inherent
contradictions and long after the Court found and
stated that material portions of that testimony were
lies.30 The Government stuck to this position even
after one DHS Officer admitted on the stand that his
testimony (given just moments before) was, in fact,
nonsense,31 and even after the Court gave the
Government an opportunity to “stop and think” before
the Government pressed on. Even after it filed its own
motion to dismiss the Indictment with prejudice, the
Government did not back away from its litigation
position as to the validity of the waivers. Only after
The Court will revisit the Government’s treatment of the
Officers’ testimony later in this Opinion.
30

He confirmed that his testimony did not “make any sense.”
(Op. at 22.) The absence of a statement making sense is
commonly referred to as “nonsense.”
31

93a
the Court reminded the Government (two months
later) at the March 2, 2018, hearing that it could not
play dodgeball with the Court and would have to take
a position on the truthfulness of its own witnesses’
testimony did the Government back away from its
“valid waiver” arguments.
And even then, the
Government only ceased “present[ing] argument” on
the elements, refusing to simply concede the first two
elements of § 1326(d). (ECF No. 67, at 7.) This fits
comfortably within Manzo’s definition of a frivolous
position. Manzo, 712 F.3d at 810–11.
The Government argues that its ultimate decision
to move on from its valid waiver argument is enough
to absolve it of its earlier conduct. The Court does not
agree. It took the Government over two months, filled
with extensive litigation and multiple opportunities,
to “see the light.” Cf. United States v. Lain, 640 F.3d
1134, 1139 (10th Cir. 2011) (When the Government
acts “promptly to correct its error,” it is less likely that
its conduct is vexatious, frivolous, or in bad faith.) To
the extent that the Government had an opportunity
(months later) to negate evidence of its frivolousness
by sufficiently correcting its earlier position, it lost
that opportunity because it did not, in fact, correct that
misconduct. The Government simply ignored it.
The Government’s position with respect to its “valid
waiver” argument demonstrates frivolousness, as did
its position with respect to its witnesses’ testimony.
DHS Officers (admittedly) testified nonsensically on
the stand and did so in an effort to shield their
misconduct in 2011, and the Government stood by
what the Court expressly found was false and
incredible testimony.

94a
The Court criticized this approach in its prior
Opinion, stating that such a noncommittal position
with respect to the credibility of the Government’s own
witnesses is contrary to law, citing United States v.
Harris, 498 F.2d 1164, 1169 (3d Cir. 1974). (Op. at 60.)
The Government argues that its conduct in this
prosecution is not of the egregious type admonished in
Harris, where the Government had remained silent
while a witness disclaimed a fact known to the
Government to be true. 498 F.2d at 1168. The
Government here asserts that because this Court
never made a finding that the Government knew that
the DHS Officers testified to a fact that was false (or
disclaimed a fact that the Government knew to be
true), the Government’s shift from affirmatively
advancing the testimony to a not-adopt-but-notdisavow position conforms with its obligations under
Harris.
That is “slicing the baloney mighty thin.” Sessions
v. Dimaya, 138 S. Ct. 1204, 1215 (2018).
Within moments of hearing one DHS Officer’s
testimony, the Court asked the Officer if his own
testimony made any sense to him (to which the Officer
answered that it did not), and then the Court
immediately recessed proceedings to explicitly give the
parties (really, just the Government) time to process
that testimony. The fact that the Court concluded that
the Government did not knowingly present false
testimony32 does not mean that once the Government
There is insufficient evidence in the record from which the
Court would conclude, here and now, that the Government
knowingly presented false testimony, and Reyes-Romero chose
not to seek to develop or introduce evidence related to the
Government’s pre-hearing interviews of its witnesses. (See ECF
32

95a
heard from its own witnesses what was plainly selfserving prevarication which contradicted the Forms
on which the Government had relied, it had “the
luxury of taking a position of ambivalence.” (Op. at 19
n.12.) See also Banks v. Dretke, 540 U.S. 668, 672,
675–76 (2004) (admonishing the government for
allowing false testimony to stand uncorrected and
holding that when law enforcement conceals
“significant exculpatory or impeaching material,” the
government has a duty to “set the record straight”).
Furthermore, the Court is confident that had it not
repeatedly inquired into the Government’s noncommittal position as to its own witnesses’ testimony,
the Government would not have even considered
whether to reconsider its position of affirmatively
advancing that testimony.
The conduct of the United States in this litigation,
considered as a whole, was groundless in law and in
fact. See Adkinson, 247 F.3d at 1293 (When the
government’s prosecutorial position is groundless in
law “not only when the [G]overnment brought the
indictment, but also throughout the presentation of its
case-in-chief,” it is an abuse of discretion to deny a
Hyde Amendment award.).
This case closely
resembles United States v. Braunstein, in which the
No. 105, at 14 n.3 (Government produced notes of those
interviews to defense counsel on January 2, 2018).) However, it
is difficult to discern what the factual account from those
witnesses could possibly have been during those interviews that
would have explained away the facial defects on the Forms so as
to persuade the Government to put on the testimony, and if the
pre-hearing witness interviews matched the testimony actually
presented, it is difficult to imagine why the Government thought
calling those witnesses was either appropriate or even legitimate.

96a
Ninth Circuit reversed the district court’s denial of a
Hyde Amendment award. 281 F.3d 982, 996 (9th Cir.
2002). The Ninth Circuit concluded that the DOJ had
acted frivolously when they brought a prosecution for
fraud despite having substantial information that the
alleged victim of the fraud could not have been
deceived by the alleged fraudulent acts. Id. The welldocumented evidence showed that the Government’s
theory of the case “was so obviously wrong as to be
frivolous.”
Id.
The same is true here.
The
Government’s position that Reyes-Romero was
previously removed from this country pursuant to law
based on his waiver of rights is “so obviously wrong as
to be frivolous.” Id. Like in Braunstein, the fact that
the Government eventually moved to dismiss the
Indictment is insufficient to overcome its frivolous
position. Id. at 991 (After the district court denied the
motion for a continuance of the trial date, the
Government moved to dismiss Braunstein’s
indictment.)
This is not a case where there was “simply [] a
witness whose testimony directly inculpate[d] the
defendant [was] arguably not credible,” which the
Second Circuit has held is alone insufficient to support
a Hyde Amendment award. United States v. Bove, 888
F.3d 606, 611 (2d Cir. 2018). For starters, the evidence
of the 2011 Removal Proceeding via the Forms
demonstrated serious holes in the Government’s
theory of the case before a single witness testified,
obliterating any hope of success on two of the three
§ 1326(d) elements. In any event, the Government’s
witnesses did not merely present “not credible”
testimony. Id. The witnesses’ testimony in this case
was self-described as nonsensical, and its facial

97a
inconsistency and incoherence demonstrated that at
least material parts of it were false. The black-andwhite copies of the Forms facially demonstrated that
the Government’s “waiver of rights” position did not
ever hold water, and the color copies of the Forms
removed all doubt. There was no evidence presented
that lent a scintilla of support for the Government’s
contention that the 2011 Removal Proceeding was
conducted pursuant to law. Cf. Bove, 888 F.3d at 611
n.29 (Government submitted an affidavit that it had
another witness and other evidence to support its
theory of the case).
The conduct described thus far sufficiently tainted
the entire criminal prosecution with frivolousness and
bad faith such that the position of the United States
as a whole would meet the standard for an award
under the Hyde Amendment. However, there is
additional evidence of bad faith in the record for the
Court to consider.
The Government’s attempted maneuvers to shield
the 2011 Removal Order from an adjudication of
invalidity demonstrates at best a position lacking any
reasonable basis and at worst a course of conscious
impropriety. As this Court held in its prior Opinion:
The Government was willing to dismiss its own
Indictment with prejudice, but it would not
consent to the Court’s granting of the Defendant’s
Motion to Dismiss. (Tr. of Proceedings, ECF No.
57, 6:18–24, 30:5–7.) The difference between the
“cross” Motions to Dismiss Indictment is that the
Defendant’s Motion to Dismiss, now granted,
attacks the validity of the underlying 2011
Removal Proceeding. The ultimate effect of

98a
granting the Defendant’s Motion to Dismiss on its
merits on any future removal proceedings against
the Defendant is uncertain, as that issue in the
first instance is for an immigration court (and
perhaps ultimately the Court of Appeals). But
without an adjudication of the Defendant’s
Motion (or the Government’s concession to it), the
conduct and result of the 2011 Removal
Proceeding would be shielded from public
examination,
notwithstanding
that
the
Government relied on that very Removal
Proceeding
in
seeking
the
Defendant’s
Indictment. This is important since, as the
Government conceded at the hearings in this
case, the United States could (and may well)
simply now seek to rely on the 2011 Removal
Process, the fatally flawed Forms, and the
resulting 2011 Removal Order in this case in
future removal proceedings. (ECF No. 77, 37:23–
38:12.)
(Op. at 52.)
Furthermore, the United States
“steadfastly refused to provide any assurance that the
Forms, and the 2011 Removal Proceeding, will not be
relied upon in future proceedings against the
Defendant.” (Id. at 52.) To justify its drawn veil over
DHS actions, the Government invoked what this
Court has termed, “a bureaucratic wall within the
Executive Branch,” in which the DOJ brought a
motion to dismiss a criminal indictment, but then
asserted that any future immigration proceedings,
where “liberty itself may be at stake,” are solely within
the purview of the DHS. (Id. at 55–56 (quoting Young
v. United States, 481 U.S. 787, 810 (1987)).) As this
Court previously explained,

99a
“While the Department of Justice has decided
that it will seemingly not pursue the Defendant
further on this criminal charge in this Court, its
lawyers, lawyers for the United States, have
declined to affirmatively disclaim that the federal
Executive Branch won’t continue to fully rely on
the Forms or the 2011 Removal in any upcoming
Removal (or other) proceedings as to the
Defendant—Forms and a process which the Court
has described as ‘wholly unlawful.’”
(Op. at 56.)
The Government defends DOJ’s isolationist
position, pointing to cases describing the limits of a
U.S. Attorney’s authority to bind other executive
departments. See, e.g., United States v. Igbonwa, 120
F.3d 437, 444 (3d Cir. 1997) (“[A] promise made by the
United States Attorney’s Office relating to deportation
does not bind the INS without explicit authority from
the INS.” (emphasis added)). The Court agrees with
the Government that the U.S. Attorney’s Office may
perforce not have blanket authority to bind other parts
of the Executive Branch, but in light of the
intertwining activity of DHS and DOJ in this case,
Igbonwa also begs the question here: did the United
States Attorney’s Office not seek such authority from
DHS or did DHS not give that authority? Either way,
it became clear in this case that the federal
government was attempting to manipulate the system
to have it both ways. This is an abuse of both the
administrative and judicial process that is profound
evidence of bad faith for Hyde Amendment purposes.
At the time the DOJ filed its motion to dismiss, it
had adopted the position that the DOJ is “some sort of

100a
stranger to the important work of formulating federal
immigration policy and leading its enforcement.” (Op.
at 57.) But one need not look further than this case for
an example of the interdepartmental cooperation
between the DHS and the DOJ with respect to
immigration matters. The underlying administrative
proceeding, the 2011 Removal (completed entirely by
DHS), “play[s] a critical role in the subsequent
imposition of [the] criminal sanction.” MendozaLopez, 481 U.S. at 837–38. Reyes-Romero was then
arrested by “a fugitive operations team” comprised of
DHS’s enforcement officers. (Gov’t Br., ECF No. 17, at
2; Tr. of Proceedings on Jan. 4, 2018, ECF No. 31, at
125:15–19.) Of course, at this point, the federal
government had a choice as to whether to proceed only
with new administrative removal proceedings or to
“invite[] judicial scrutiny of the underlying removal
order by instigating a criminal prosecution under
§ 1326.” Villa-Anguiano v. Holder, 727 F.3d 873, 880
(9th Cir. 2013).33 In this case, the DOJ pursued a
criminal prosecution.

The Government cites to Villa-Anguiano for the premise that
“judicial invalidation of a prior order of removal does not
categorically bar reinstatement of the same order by ICE.” (ECF
No. 105, at 30.) Villa-Anguiano held that “when, as a result of
[invited judicial] scrutiny, a district court finds constitutional
infirmities in the prior removal proceedings that invalidate the
prior removal for purposes of criminal prosecution, the agency
cannot simply rely on a pre-prosecution determination to
reinstate the prior removal order.” 727 F.3d at 880 (emphasis
added). Instead, if an agency wishes to reinstate an invalidated
removal order, it must follow regulatory requirements that
provide the alien with an opportunity to be heard and that
mandate the agency to “independently reassess whether to rely
on the order . . . or instead to instigate full removal proceedings.”
33

101a
Then, at every hearing except one, the DOJ had a
DHS Officer at counsel table.34 The DOJ relied upon
(1) the fugitive operations efforts of DHS to arrest
Reyes-Romero, (2) the actions of DHS both in regard
to the 2011 Removal and at the time of indictment to
bring this criminal prosecution against Reyes-Romero,
(3) testimony from DHS agents to defend its
prosecution against Reyes-Romero’s affirmative
defense, and (4) DHS Officers were seated at counsel
table throughout the case. But when the possible
future actions of DHS were placed front and center by
the Government’s own motion to dismiss, the
“Government” took the position that it could not speak
for or on behalf of DHS. Even when the Court offered
to pause the proceedings so the DOJ could confer with
DHS or reach out to someone from DHS who had
authority to speak on its behalf and answer the Court’s
questions, the DOJ declined, even though when ReyesRomero asked (outside the presence of the Court)
questions about immigration proceedings, the DOJ
put him in touch with counsel from DHS.
Id. This certainly affords an alien more due process protections
than the scenario in which the prior removal order is not
invalidated by an Article III court.
34 A DHS Agent was present at counsel table on both the January
3 and March 22, 2018, hearings and oral arguments. (ECF No.
30, at 2:6–8; ECF No. 77, at 3:18–20.) A different DHS Agent was
present at counsel table on both the March 1 and 2, 2018,
hearings and oral arguments. (ECF No. 57, at 2:6–8; ECF No. 58,
at 2:8–10.) The transcript of proceedings on January 4, 2018, did
not establish one way or another whether anyone else was seated
at counsel table with the Assistant U.S. Attorney. (ECF No. 26.)
For a discussion of the DOJ’s response on the Court’s request to
involve DHS in the case to resolve questions that the DOJ
purported it could not answer, see supra Part I.D.

102a
The Government invoked DHS as a sword against
Reyes-Romero when such a tactic benefitted its
prosecution.
Yet it obstructed the Court’s
“independent responsibilities to protect certain rights,
interests, and duties” necessary to grant the
Government leave of Court to dismiss the indictment
by suddenly invoking the bureaucratic wall it itself
had erected between the DOJ and DHS. (Op. at 55
(citing In re Richards, 213 F.3d 773, 788 (3d Cir.
2000)).) When the Court combines this with the
confusing (and often contradictory) reasons asserted
by the Government for seeking dismissal of the
Indictment, the Court is left with the conclusion that
the position of the United States in this case was the
product of the DOJ’s conscious abuse of the judicial
process resulting from and in furtherance of interagency cooperation between the DOJ and DHS.
Here is why that is the case. First, the Government
claimed it wanted to dismiss the Indictment to save
litigation resources, yet when its motion was taken
under advisement, the Government then expended
substantial resources on continuing to oppose ReyesRomero’s motion to dismiss. Second, the outcome for
the DOJ under both motions to dismiss was the same:
a bar from bringing a subsequent indictment against
Reyes-Romero for reentry of removed alien based on
these facts. Despite this, the DOJ did press on,
expending resources and time to oppose any
adjudication that would render the 2011 Removal
invalid—an adjudication that would only impact and
affect DHS. The Court concluded in its Opinion that
this conduct was “taint[ed] with impropriety,” Op. at
55–56, and stems from the Government’s “principal
motivation” to avoid “an adjudication relative to the

103a
validity of the process used to engineer the 2011
Removal.” (Op. at 55.)
Whether the endgame of all this was to enable DHS
to simply recycle Reyes-Romero’s 2011 Removal Forms
with no impediments arising from its own misconduct
in later removal proceedings or to cover up DHS’s
egregious constitutional violations (or both) is
unknown. Either way, the DOJ (if it truly was
divorced from DHS’s interests and actions) should
have been wholly ambivalent as to how the Indictment
was dismissed, as the impact of dismissal via either its
motion or Reyes-Romero’s motion would have been the
same vis-à-vis the DOJ. The only agency it could have
made any difference to was DHS. Given that reality,
the Court is compelled to conclude that the DOJ’s
representations to the Court that its actions were not
being driven by the interests of DHS were simply
baseless.
Finally, there is the lingering issue of the latearriving color copies of the Forms. Reyes­Romero has
not disputed the Government’s assertion that the DOJ
was unaware of the vivid amplification of the content
of the black-and-white versions of the Forms via the
color copies. But DHS obviously did possess the color
copies at the commencement of this prosecution
(evidenced by the reality that it had originally created
the documents and, upon specific request, produced
the color copies). There is a clear implication of
conscious wrongdoing when the color copy of the I-826
shows a crucial marking attributed to Reyes-Romero
in the identical color of the pen used by the DHS
Officer (and not the pen used by Reyes-Romero) and
yet only a black-and-white copy was submitted to the
U.S. Attorney’s Office when the Forms were placed

104a
into controversy.35 The Court need not conclude, for
purposes of deciding the pending Fee Application, that
DHS’s failure to timely disclose the color copies until
specifically asked by the U.S. Attorney’s Office
constitutes a Brady violation, because it is enough for
the Court to conclude that their failure to do so
sufficiently shows Hyde Amendment bad faith.
The Government’s remaining arguments in
opposition to the Fee Application are unpersuasive. It
argues that a granting of a Hyde Award in this case
would conflict with the Eighth Circuit’s decision in
United States v. Monson, where the Eighth Circuit
affirmed the district court’s denial of Hyde
Amendment award. 636 F.3d 435, 439–40 (8th Cir.
2011). In Monson, the district court made a Franks
ruling in favor of the defendant, which “constitutes a
finding that law enforcement deliberately lied or
recklessly disregarded the truth when they included
information in an affidavit used to obtain a warrant.”
Id. at 439 (citing Franks v. Delaware, 438 U.S. 154
(1978)). The Eighth Circuit held that “[a] Franks
ruling does not necessarily mean that government
prosecutors (assuming they did not participate in the
preparation of the affidavit) deliberately lied or acted
with a reckless disregard for the truth.” Id. Instead
of “automatically concluding” that the position of the
United States was frivolous or vexatious for purposes
of a Hyde Amendment award, the district court must
“consider the individual facts of the case.” Id. In

Of course, this issue is completely separate from the argument
advanced by the Government that the I-826 was actually a
pointless document completed for no reason whatsoever. That
argument was plainly frivolous.
35

105a
evaluating whether the position of the prosecutors was
frivolous, the Eighth Circuit examined the
Government’s arguments on whether there was a
Franks violation. Id. at 440. The Eighth Circuit
concluded that each argument that the Government
made with respect to the Franks motion was nonfrivolous. Id. at 440–41. This Court has followed
Monson, first identifying the dishonest conduct of the
DHS Officers and then analyzing the position of the
Government based on the specific facts of the case.
The Court has determined that the Government here
made frivolous arguments both stemming from, and
also completely independent from, the misconduct of
its witnesses. This significantly distinguishes this
case from Monson.36
Lastly, the Government argues that because this
Court must view the case as a whole, its lack of
misconduct with respect to other litigation events and
arguments outweighs the evidence of Hyde

Also, the court of appeals in Monson was reviewing the district
court’s denial of a Hyde Amendment award under the abuse of
discretion standard, the same standard applied in this circuit.
Manzo, 712 F.3d at 809. Interestingly, the Monson dissent
concluded that the district court made a legal error and reviewed
the record to determine whether that error was harmless. In this
less deferential review, the dissent noted that “there [were]
material facts in the record from which a reasonable trier of fact
could hold ‘the position of the United States’ was ‘in bad faith.’”
636 F.3d at 443–44 (Riley, C.J., dissenting) (quoting Pub. L. No.
105-119). “The United States typically is responsible for the
knowledge and actions of state law enforcement officers acting on
its behalf. Evidence exists that the prosecutor knew, or should
have known, of the law enforcement officers’ material falsehoods
and omissions yet pursued an indictment against Monson.” Id.
at 445 (internal citation omitted).

36

106a
Amendment misconduct. The Court does not agree
that this “good” (or at least, lack of misconduct)
sufficiently outweighs the “bad” in this case. Heavrin,
330 F.3d at 730 (“Even if the district court determines
that part of the government’s case has merit, the
movant might still be entitled to a Hyde Amendment
award if the court finds that the government’s
“position” as a whole was vexatious, frivolous, or in
bad faith.”).
The Government’s legal arguments as to the
prejudice issue (e.g., whether Reyes-Romero would
have been eligible for asylum, Convention Against
Torture protection, or withholding of removal),
although completely unsuccessful, did not brush up
against any prosecutorial misconduct.
Its legal
arguments on these matters were largely reasonable
and based in law, and this Court devoted a large
portion of the July 2, 2018, Opinion to navigating the
merits of each argument as argued by both parties.
But, as the timeline of the case demonstrates, the
prejudice issue was one that was almost entirely
litigated on the papers, with the exception of some
testimony by Reyes-Romero’s family members at the
January 4, 2018, proceeding. The prejudice issue was
an issue that could have and should have been
addressed
immediately
and
swiftly
after
Reyes­Romero filed his motion to dismiss. Rather, this
case was overwhelmingly and unnecessarily drawn
out by the various litigation tactics taken by the
Government and described above as to the waiver and
form of dismissal issues.
Furthermore,
the
Government’s
argument
completely ignores Charleswell’s “presumption of
prejudice” rule, which this Court actually applied in

107a
its July 2, 2018, Opinion and Order. Charleswell
provided that where procedural defects are “so central
or core to a proceeding’s legitimacy,” prejudice may be
presumed.
456 F.3d at 362 n.17.
The Court
determined that the presumption of prejudice applied
in this case,37 not just because of what happened in
2011, but also because of the DHS Officers’ testimony
and the DOJ’s unwillingness to “set the record
straight” on what happened in 2011. As this Court
stated in its July 2, 2018, Opinion, “any actual
understanding and exercise of his rights by the
Defendant was stopped dead in its tracks by the DHS
Officers who steered the Defendant to waive away his
rights (or did it for him) before providing an
explanation of such rights to the Defendant.” (Op. at
50.) But most relevant to the Court’s analysis here,
“the dissembling and convoluted testimony of the DHS
Officers clouded any opportunity for this Court to get
an accurate idea of what actually happened in the
2011 Removal Proceeding.” (Id.) Of course, that was
exacerbated by the DOJ’s motion to dismiss asking the
Court to not rule on the validity of the 2011 Removal
Order.
The Government argues now that it should not “be
held liable under the Hyde Amendment for positions
it never took on issue that were never litigated.” (ECF
No. 105, at 24 n.12.) It is entirely disingenuous for it
to argue that this point was “never litigated.”
Charleswell was the seminal case addressing § 1326

That the Court did not simply stop with that conclusion but,
out of completeness, ruled on every “prejudice” argument
advanced by any party is in this Court’s judgment of no moment
for the Hyde Amendment analysis in this case.
37

108a
and driving both parties’ arguments from the
beginning of the case to the end of the prosecution. As
professors lecture law students, the reader disregards
footnotes in judicial opinions (especially those from
our own Court of Appeals) at her own peril.38
The Government’s lack of response on the issue of
presumed prejudice is not inculpatory evidence of bad
faith or frivolousness, but it is not exculpatory either.
Rather, it undercuts the United States’ reasoning that
its conduct during the prejudice portion of the case
excuses its misconduct elsewhere in the case. The
prejudice issue was but one tree in the forest, and, in
this case, is not an arboreal life raft. See Heavrin, 330
F.3d at 730. The Government’s ability to not commit
misconduct during that one segment of this case does
not override the multiple episodes of established
misconduct, considering the proceeding as one
inclusive whole.
Based on all of the circumstances of this case and
viewing this case as a whole, the Court finds by a
preponderance of the evidence and concludes as a legal
matter that the position of the United States was
frivolous and in bad faith. The Hyde Amendment
ensures that the financial burden of withstanding
such a prosecution does not fall on the acquitted
defendant, and Reyes­Romero will be awarded
attorney’s fees and litigation costs incurred in
defending this case.
“[T]o one digging into the bowels of the law, a fat footnote is a
mother lode, a vein of purest gold.” Edward Becker, In Praise of
Footnotes, 74 Wash. U. L. Q. 1, 6 (1996) (quoting Stanley H. Fuld,
A Judge Looks at the Law Review, 28 N.Y.U. L. Rev. 915, 919
(1953)).
38

109a
C. Amount of Award
To support a Hyde Amendment award, “the
prevailing party is required, inter alia, to ‘submit to
the court an application for fees and other expenses . . .
[showing] the amount sought, including an itemized
statement from any attorney . . . representing or
appearing in behalf of the party stating the actual time
expended and the rate at which fees and other
expenses were computed.”’ Claro, 579 F.3d at 457
(quoting 28 U.S.C. § 2412(d)(1)(B)). Reyes-Romero
attached to his brief in support of the Fee Application
a declaration from his counsel that included the
counsel’s resume and a statement of his billings in this
case. (See ECF No. 96, amended at ECF No. 107.)39 In
its brief in opposition to the Fee Application, the
Government requested that, in the event the Court
concludes that Reyes-Romero is entitled to a Hyde
Amendment award, it be given an opportunity to
submit “supplemental briefing regarding ‘whether an
increase in the cost of living or a special factor justifies
an award above the fee cap.
28 U.S.C.
§ 2412(d)(2)(A).”’ (ECF No. 105, at 33.) While the
Court does not ordinarily endorse piecemeal
responsive briefing, the Court will defer its decision on
the amount of the award pending further briefing and
hearings, as needed, on that point. The Government
did not object to, or request further briefing as to, the
“actual time expended” by Reyes-Romero’s counsel or
the recoverability of any incurred expenses.

Counsel for Reyes-Romero updated his statement of billings to
include attorney’s fees for this Application for Fees. (See ECF
107-2.)

39

110a
Therefore, those matters are now closed. The only
issue to be resolved is the appropriate hourly rate.
IV.

Conclusion

Reyes-Romero is entitled to a Hyde Amendment
award. He shall receive $1,007 in expenses plus 242.5
hours’ worth of attorney’s fees, the rate at which those
fees will be calculated to be determined by this Court
in further proceedings.
An appropriate Order will issue.
/s/ Mark R. Hornak
Mark R. Hornak
Chief United States District
Judge
Dated: March 6, 2019
cc: All counsel of record

111a

Exhibit
A

112a

113a

Exhibit
B

114a

115a

116a

Exhibit
C

117a

118a

Exhibit
D

119a

120a

121a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
UNITED STATES OF AMERICA,
v.
MARIO NELSON REYES-ROMERO,
Defendant.

)
)
) 2:17-cr-292
)
)
)

OPINION
Mark R. Hornak, United States District Judge.
The Defendant Mario Nelson Reyes-Romero
(“Defendant”) was administratively removed from the
United States in 2011, and he was discovered back in
the United States in 2017 without permission from the
necessary officials of the federal government, resulting
in his indictment for one count of Reentry of Removed
Alien, 8 U.S.C. § 1326. (Indictment, ECF No. 1.) Three
motions are now pending in this criminal case before
the Court.
First, the Defendant seeks dismissal of the
Indictment, claiming that the Removal of the
Defendant in 2011 was contrary to law.
The
Defendant’s Motion to Dismiss Indictment, ECF No.
14, asserts that the Defendant fulfills all of the
elements of the affirmative defense set out in § 1326(d)
as a matter of law. The Court agrees, and for the
reasons set forth at length in this Opinion, the Court
grants the Defendant’s Motion to Dismiss Indictment.

122a
In so ruling, the Court reaches no conclusion as to
whether the Defendant can, should, or will now be
removed from the United States in a manner
consistent with federal law. But the Court does
conclude that the process used to remove him in 2011
was contrary to law and that the Defendant has
successfully challenged the 2011 Removal Order
under § 1326(d), thus rendering it invalid.
Second, the Defendant’s Motion for Bond, ECF No.
36, requests that the Defendant be released on bond
subject to reasonable conditions. The Motion for Bond
is moot in light of the Court’s granting of the
Defendant’s Motion to Dismiss Indictment.
Third, the Government’s Motion to Dismiss
Indictment, ECF No. 46, requests that the Court
dismiss this case with prejudice without reaching the
merits of Defendant’s Motion to Dismiss. For the
reasons set out at length below, the Government’s
Motion to Dismiss Indictment, ECF No. 46, is denied.
I. Factual Background
According to the Government, the Defendant, a
citizen of El Salvador, entered the United States
unlawfully at some point prior to November 2008.
(Gov’t’s Br. in Opp’n, ECF No. 17, at 3.) In 2009, he
was convicted in New Jersey state court for the state
law crime of second degree aggravated assault.1 (Id.)
In 2011, the Department of Homeland Security (DHS)
commenced an administrative removal proceeding
(“2011 Removal Proceeding”) against the Defendant
pursuant to 8 U.S.C. § 1228, which authorizes the
expedited removal of aliens convicted of “aggravated
1

In violation of N.J. Stat. Ann. 2C:12-1b(1) (2009).

123a
felonies” as that term is defined under federal law.
(Id.)
As part of that 2011 Removal Proceeding, the
Defendant completed and signed two DHS forms:
DHS Form I-826 and DHS Form I-851 (the “Forms”),
which are described in detail below.
A Final
Administrative Removal Order was served on the
Defendant on June 23, 2011. (App. to Br. in Supp. of
Def.’s Mot. to Dismiss (“Def.’s App.”) 21, ECF No. 16
(“2011 Removal Order”).)
The Defendant was
deported and removed to El Salvador in August 2011.
(Def.’s App. 11.) The Government alleges that the
Defendant was discovered in the Western District of
Pennsylvania on October 3, 2017, but he had allegedly
not gone through any administrative or judicial
channels to obtain lawful re-admittance to the United
States. (ECF No. 17, at 5–6.)
On October 24, 2017, the Defendant was indicted in
this District on one (1) count of Reentry of Removed
Alien, 8 U.S.C. § 1326. (ECF No. 1.) The Defendant
filed his Motion to Dismiss Indictment on November
17, 2017. (ECF No. 14.) The Court held hearings on
January 3 and 4, 2018, and the Court authorized
supplemental briefing. (ECF Nos. 23, 26, 27.) Due to
the time it took for the Government to produce various
immigration files, the deadlines for those
supplemental briefs were extended considerably. (See
ECF Nos. 28, 32, 34, 38, 51.) Meanwhile, on February
15, 2018, the Defendant filed his Motion for Bond, and
on February 27, 2018, the Government filed its own
Motion to Dismiss Indictment. (ECF Nos. 36, 46.) The
Court held further hearings on March 1, 2, and 22,
2018. (ECF Nos. 53, 54, 73.) All supplemental briefs

124a
have been submitted, and all three Motions are ripe
for decision.
II. Defendant’s Motion to Dismiss
The Defendant brings his Motion to Dismiss
asserting the affirmative defense to the charge of
reentry of removed alien, as set out in 8 U.S.C.
§ 1326(d). That provision provides an opportunity for
the Defendant to collaterally attack the underlying
removal order (here, the 2011 Removal Order), which,
if successful, defeats a necessary element of the
reentry of removed alien offense and requires
dismissal of the Indictment. The Defendant argues
that his removal from the United States pursuant to
the 2011 Removal Order cannot function as a basis for
a § 1326 prosecution now because the 2011 Removal
Order was premised on illegitimate and ineffective
waivers of his rights contained in the two involved
Forms (I-826 and I-851). (Def.’s Br. in Supp., ECF No.
15.)
A. Legal Framework
“The Fifth Amendment guarantees aliens due
process in all phases of deportation proceedings.”
Bonilla v. Sessions, 891 F.3d 87, 91 (3d Cir. 2018).
“Fundamental precepts of due process provide an alien
subject to illegal re-entry prosecution under 8 U.S.C.
§ 1326 with the opportunity to challenge the
underlying
removal
order
under
certain
circumstances.” United States v. Charleswell, 456
F.3d 347, 351 (3d Cir. 2006). Where the underlying
removal proceeding “is so procedurally flawed that it
‘effectively eliminated the right of the alien to obtain
judicial review,’ we may invalidate the criminal
charges stemming therefrom.” Id. at 352 (quoting

125a
United States v. Mendoza-Lopez, 481 U.S. 828, 839
(1987)). A defendant charged with reentry of removed
alien under § 1326 may collaterally attack the
underlying removal order if the defendant establishes
that:
(1) the defendant exhausted any administrative
remedies that may have been available;
(2) the deportation proceedings from which the
underlying removal order was issued improperly
deprived the alien of the opportunity to obtain
judicial review; and
(3) the entry of the
“fundamentally unfair.”

removal

order

was

8 U.S.C. § 1326(d); Charleswell, 456 F.3d at 351.
If the collateral attack on the underlying removal
order is premised on an alleged invalid waiver of rights
associated with a deportation proceeding, the
Government has the initial burden to produce the
written waiver signed by the defendant. Richardson
v. United States, 558 F.3d 216, 222 (3d Cir. 2009). The
burden then shifts to the Defendant to show by a
preponderance of the evidence that the waiver is
invalid. Id. at 219, 222 n.5. A waiver is invalid if it is
not entered into voluntarily and intelligently. Id. at
219–20. If the waiver is found to be invalid, the
Defendant is excused from showing an exhaustion of
administrative remedies. Id. at 220 (quoting United
States v. Muro-Inclan, 249 F.3d 1180, 1183 (9th Cir.
2001), for the conclusion that § 1326(d)’s exhaustion
requirement “cannot bar collateral review of a
deportation proceeding when the waiver of right to an
administrative appeal did not comport with due
process”).

126a
Along the same lines, an invalid waiver of the
opportunity for judicial review constitutes a
deprivation of judicial review, and, in such a case, the
Defendant will also be deemed to meet the second
element. Mendoza-Lopez, 481 U.S. at 840 (when a
waiver of rights related to one’s right to judicial review
is not entered into intelligently, there is a deprivation
of the opportunity for judicial review).
In order to meet the third element, a showing that
the
underlying
removal
proceeding
was
“fundamentally unfair,” the Defendant must establish
both (a) that some fundamental error occurred and (b)
that as a result of that fundamental error, the
defendant suffered prejudice. A fundamental error
may take the form of a proceeding that “deprives an
alien of some substantive liberty or property right
such that due process is violated,” Charleswell, 456
F.3d at 359, or “where an agency has violated
procedural protections such that the proceeding is
rendered fundamentally unfair.” Id. at 360. Resulting
prejudice requires the Defendant to establish (by a
preponderance of the evidence) a reasonable likelihood
that the result would have been different if the
fundamental error in the removal proceeding had not
occurred.2 Id. at 361. Our Court of Appeals has noted
that the answer to whether there was prejudice
requires the district court to determine whether there
is a “reasonable probability” that the Defendant
This is a higher standard than the “plausible ground for relief
from deportation” standard used in the Ninth Circuit.
Charleswell, 456 F.3d at 361. Our Court of Appeals reiterated
that the “reasonable likelihood” standard is “analogous to the
standard required of a defendant to prove an ineffective
assistance of counsel claim.” Id.

2

127a
“would have obtained relief had he not been denied the
opportunity for direct judicial review of his [removal]
order.” Id. at 362. However, the Charleswell Court
also noted that “some procedural defects may be so
central or core to a proceeding’s legitimacy, that to
require an alien to establish even a ‘reasonable
likelihood’ that he would have obtained a different
result establishes too high a burden.” Id. at 362 n.17.
B. Discussion
Whether the purported waivers within the Forms
are valid impacts this Court’s analysis of the first two
§ 1326(d) elements.
Thus, the Court begins its
discussion with an analysis of the purported waivers,
initially describing both what the Forms themselves
show and what the DHS Officers who completed the
Forms with the Defendant testified to about them.
The Court finds and concludes that the purported
waivers in the Forms are invalid both facially and as
explained by the Government’s witnesses. With this,
the Court concludes that the first two elements of the
§ 1326(d) affirmative defense have been met. Then,
the Court analyzes the third element, addressing both
fundamental error and prejudice. The Court finds and
concludes that the entry of the 2011 Removal Order
was the result of “fundamental error” and caused
actual prejudice to the Defendant. And beyond that,
due to the egregious nature of the fundamental error,
the Court also finds and concludes that the 2011
Removal Order was inherently and presumptively
prejudicial to the Defendant.
Thus, the Court concludes that the Defendant has
met his burden to show that all of the elements of his
§ 1326(d) affirmative defense are met, and the

128a
Defendant’s Motion to Dismiss the Indictment is
granted.
1. The Purported Waivers
Third Circuit law as stated in Richardson and
Supreme Court precedent as discussed in MendozaLopez say that an alien validly waives his rights
associated with a removal proceeding only if he does
so voluntarily and intelligently. The “waivers” at issue
here are located within the two Forms that were
presented to the Defendant during his 2011 Removal
Proceeding, at the same time, 9:00 AM on June 23,
2011. “In cases where there is a written waiver, this
issue frequently comes down to an issue of credibility.”
United States v. Meza-Magallon, No. 17-cr-379, 2017
U.S. Dist. LEXIS 190970, at *14 (E.D. Pa. Nov. 16,
2017). Credibility certainly plays a large role in this
case, but what the Forms show on their face is itself
rather astounding. The Court first summarizes what
the Forms themselves demonstrate. Then, the Court
provides an account of what the Government’s
witnesses testified to with respect to the Forms.
Finally, the Court makes its findings and conclusions
that the Forms do not evidence valid waivers.
i. Form I-826
The first Form at issue here, the I-826, is titled,
“Notice of Rights and Request for Disposition.” (Def.’s
App. 106; Ex. H, ECF No. 63-1 (color copy).) The color
copy is attached to this Opinion as Exhibit A.3 The top
of the first page of the I-826 reads:
The Court has partially redacted the DHS Officers’ signatures
from the copies of the Forms appended to this Opinion because
the publication of complete signatures could pose an identity
theft issue to those involved. The appearance of those signatures

3

129a
You have been arrested because immigration
officers believe that you are illegally in the United
States. You have the right to a hearing
before the Immigration Court to determine
whether you may remain in the United
States. If you request a hearing, you may be
detained in custody or you may be eligible to be
released on bond, until your hearing date. In the
alternative, you may request to return to your
country as soon as possible, without a hearing.
(Id. (emphasis added).) After the remainder of its
“Notice of Rights” section, there is a section entitled,
“Request for Disposition.” There are three options
from which the subject (here, the Defendant) may
select and initial:
____ o I request a hearing before the Immigration
Court to determine whether or not I may
remain in the United States.
____ o I believe I face harm if I return to my country.
My case will be referred to the Immigration
Court for a hearing.
____ o I admit that I am in the United States
illegally, and I believe that I do not face harm
if I return to my country. I give up my right
to a hearing before the Immigration Court. I
wish to return to my country as soon as
arrangements can be made to effect my
is not germane to the issues here. The Court has also redacted
other non-germane identifying information on the copies of the
Forms, including addresses and DHS internal identification
numbers. The Defendant’s signature is partially redacted as to
his surname, but otherwise provided because its appearance is
germane to the issues before the Court, as set out below.

130a
departure. I understand that I may be held in
detention until my departure.
(Id.) On the Defendant’s completed I-826, two boxes
are marked with an “X”: the first box, indicating a
request for a hearing, and the third box, waiving his
right to a hearing. None of the boxes are initialed.
What is more striking than those plainly contradictory
choices is the manner in which these boxes were
selected. The first selected option, requesting a
hearing, is marked with a large bold X in black ink,
appearing as if the X was reinforced with an additional
black X over it. The other selected option, waiving the
“right to a hearing,” contains a small thin black X as
well as a light blue slash (or what may better be
described as half of an X). The Defendant’s signature
under the selections appears in black ink. The
signature by DHS Deportation Officer Trushant Darji
in the third and final section of the I-826, entitled
“Certification of Service,” appears in light blue ink
identical in appearance to the marking on the selected
option of “no hearing.” Under “Date and Time of
Service,” markings indicating June 23, 2011, and 9:00
also appear in that same light blue ink. (Id.) Notably,
the I-826 reflects that the Defendant had the I-826
read to him in Spanish, but also that the Defendant
read it himself in English, a language he does not
speak. (ECF No. 16, at 106.)
ii. Form I-851
The second Form at issue here, the I-851, is a twopage document titled, “Notice of Intent to Issue a Final
Administrative Removal Order.” (Def.’s App. 22–23;
Ex. J, ECF No. 63-3 (color copy).) It is attached to this

131a
Opinion as Exhibit B.4 The first page contains
information about the Defendant with a charge
indicating that the Defendant is “deportable under
section 237(a)(2)(A)(iii) of the Act, 8 U.S.C.
1227(a)(2)(A)(iii), as amended, because you have been
convicted of an aggravated felony as defined in section
101(a)(43)(F) of the Act, 8 U.S.C. 1101(a)(43)(F).”
(Def.’s App. 22.) The Charge informs the individual
that DHS is serving such notice “without a hearing
before an Immigration Judge.” (Id.)
Below that is a section called “Your Rights and
Responsibilities,” and it indicates that the alien (here,
the Defendant) may request withholding of removal
under 8 U.S.C. § 1231(b)(3) if he fears persecution in
any specific country and that the Defendant may rebut
the charges stated on the Form. At the bottom of the
first page of the I-851, there is a signature line for
“Signature and Title of Issuing Officer.” That line
contains a signature by the “Issuing Officer” and bears
a date and time notation of June 23, 2011, at 10:00.
(Id.)
The first section at the top of the second page of the
I-851 is the “Certificate of Service.” (Def.’s App. 23.)
Below the signature of the serving officer indicating
the Notice of Intent was served (Officer Jose Alicea) is
a checked box that states “I explained and/or served
this Notice of Intent to the alien in the Spanish
language.” The name of the interpreter, also Jose
Alicea, is printed, followed by his signature.
Immediately below that line is an acknowledgement of
receipt with the Defendant’s signature and a date and
time notation of June 23, 2011, 9:20 (presumably,
4

See supra note 3.

132a
A.M.). (Id.) Thus, the plain reading of this Form is
that it was signed by the Issuing Officer and “issued”
forty (40) minutes after receipt was purportedly
acknowledged by the Defendant at 9:20 AM that day.
The middle section of the second page of the I-851
provides options for contesting removal or seeking
withholding of removal, and it is left blank. (Id.)
The final section of the second page of the I-851 has
three boxes also checked. The first corresponds with
the selection, “I do not wish to contest and/or to
request withholding of removal.” The second checked
box corresponds with the selection admitting the
allegations and charges contained in the form,
acknowledging ineligibility for any form of relief from
removal, and expressing a wish to be removed to El
Salvador. The third checked box corresponds with the
selection “I understand that I have the right to remain
in the United States for 14 calendar days in order to
apply for judicial review.
I do not wish this
opportunity. I waive this right.” (Id.) The Defendant
then signed the corresponding signature block, with a
date and time of June 23, 2011, 9:00 written in that
section. It is “witnessed” by the interpreter and DHS
serving officer, Jose Alicea, with the very same date
and time notation. (Id.)
Thus, based on the time notations on the face of the
I-851 alone,5 the Defendant supposedly waived his
rights to contest removal or apply for judicial review
twenty (20) minutes before he acknowledged receipt of
the Form I-851 and an hour before it was ever “issued.”
Officer Alicea testified that all times on both Forms were taken
from the very same clock in the DHS office. (ECF No. 30, 89:13–
17.)
5

133a
(Def.’s App. 22–23.) When read in conjunction with
the I-826, the Defendant supposedly waived all his
rights (including to judicial review) on the I-851 at the
exact moment that he was served with the I-826,
where he had affirmatively indicated his request for a
hearing.
Importantly, a check mark was used by Officer
Alicea when he signed the “Certificate of Service”
section at the top of the I-851’s second page, and check
marks also appear in the “I do not wish to contest”
portion at the bottom of that page, even though all of
the markings on the boxes of the I-826, those next to
Defendant’s signature and those next to Officer Darji’s
signature, were “X” marks. Thus, while different
notations were made in the selection boxes as between
the I-826 and the I-851, the markings in each case
attributed to the Defendant switched from Form to
Form yet matched the markings attributed to the
Officers on each such Form.6
iii. The Government Witnesses’
Testimony
In an effort to explain the Forms and place them
into the context of the 2011 Removal Proceeding, the
Government called two witnesses, both of whom were
the DHS Officers whose names and signatures appear
on the Forms: Officers Trushant Darji and Jose
Officer Darji testified that the Defendant “held the pen” when
the Forms were completed. (ECF No. 30, 22:1–8.) Based on its
examination of the color copies of the Forms, the ink colors of the
various signatures, the switching between check marks and “X”
marks, and the fluid nature of the Officers’ testimony, the Court
harbors substantial doubt that the Defendant personally made
the critical notations.

6

134a
Alicea. Based on the Court’s consideration of all the
evidence before it, its own examination of the
witnesses, and its personal observations relative to
that testimony in open Court, the Court finds and
concludes that this testimony was, at key points,
internally inconsistent, contradictory in comparison
with the content of the Forms, and simply nonsensical.
The Court stated just that at several points during the
various hearings in this case, and the Government has
not contradicted those tentative conclusions. (See, e.g.,
ECF No. 31, 51:9–54:20; ECF No. 57,11:1–11 & 47:4–
48:1; ECF No. 58, 14:17–17:1; ECF No. 77, 22:18–
26:5.) The Court also made tentative findings during
the hearings that certain material portions of the
Officers’ testimony were false.7 To explain these
conclusions, the Court recounts the following excerpts
from the evidentiary hearings.8
Officer Trushant Darji testified that Form I-826 is
served in every removal case to ensure that the
presiding DHS officer has an understanding of the
alien’s intentions and to provide the alien with notice
of certain rights. (Tr. of Proceedings, ECF No. 30,
25:20–30:23.) He testified that DHS officers would
advise the alien what the Form was, read everything
See, e.g., ECF No. 77, 22:21–25 (“[T]he Court is more convinced
than ever that the testimony that was offered at the first hearing
by the two ICE agents under oath were a combination of nonsense
. . . and material portions of the balance of it were lies.”); id. at
25:5–10.

7

As detailed below, the Government has informed this Court
that is does not rely on or adopt the testimony of the Officers that
it called to the stand at the first hearing as to these matters.
(Gov’t’s Resp. Br. in Supp. of Gov’t’s Mot. to Dismiss, ECF No. 66,
at 7.)

8

135a
on the Form to the alien, and explain all of the options
for the alien to select from. If the alien selects multiple
options as to requesting a hearing or asking for no
hearing, a DHS officer would “absolutely” attempt to
clarify the alien’s desires before other forms were filled
out, including by having the alien initial his “real”
choice. (Id. at 29:10–14.) It is plain that this
“standard” process was not followed here, and that the
Officers elected to go forward with the notation that
the Defendant did not want a hearing, even though
they offered no basis to exclude the equally chosen and
marked choice that he did seek a hearing. (ECF No.
30, 61:11–62:14 & 72:14–18.) Officer Darji then
testified that both Forms would be served together at
the same time upon the detainee. (ECF No. 30, 32:12–
15.) He later changed his testimony to say that he
normally serves the “rights form” (the I-826) first.
(ECF No. 30, 33:15–17.) When confronted with the
time notations on the Defendant’s I-826 and his I-851,
Officer Darji acknowledged that it appeared as if all
the waivers (and the alleged explanations that would
have come along with providing those Forms)
happened simultaneously, that is, literally at the same
moment in time. (ECF No. 30, 62:2–11.)
Discerning the purpose of the first-page “issuing”
signature on the I-851, or where and exactly when the
I-851 indicates it was authorized to be served on the
detainee, was obfuscated by Officer Darji’s convoluted
testimony. He first testified that in his general
practice (because he had no specific recollection of this
particular removal proceeding),9 charging documents
The Government nonetheless proffered both Officers to testify
as to their interpretation of the Forms based on their experience

9

136a
in a removal proceeding would be “signed off’ by the
DHS officer’s supervisor, then signed off by agency
attorneys and more supervisors, and then and only
then the documents would be served upon the
detainee. (ECF No. 30, 20:17–23 & 22:24–23:3.)
However, in an attempt to explain why this I-851
shows service (and waivers of rights) signatures
occurring before the issuing signature of a DHS
supervisor, Officer Darji testified that it was not
unusual to complete the “issuing signature” on the
face of the I-851 after service on the alien because the
issuing supervisor “wants to make sure we serve the
documents on [the detainee, and] there are no
problems with the notice of intent to issue the final
order,” implying that the “issuing” by a DHS
supervising officer actually occurs after the Defendant
signed an “un-issued” charging form. (ECF No. 30,
38:2–4.) Immediately thereafter, Officer Darji instead
stated that the issuing signature “authorize[s] you to
approach the alien with this document.” (ECF No. 30,
38:5–7.)
But later, perhaps recognizing that such “issuing”
authorization was signed at least forty (40) minutes
after presentation of the I-851 to the Defendant,
Officer Darji changed his testimony again to say that
the “issuing signature’s” purpose was to show “that the
document was served on the alien,” even though the I851 itself says no such thing on its first page and there
is a separate section for certification of service on its
second page. (ECF No. 30, 40:6–9.) After a short
recess and on re-direct, Officer Darji reversed course
generally with such Forms and/or as lay opinion witnesses. (Tr.
of Proceedings, ECF No. 30, 42:3–17.)

137a
again and said that it actually was standard practice
to complete the “issuing signature” on the first page
after the document had been served. (ECF No. 30,
64:6–16.) When the Court asked the Officer why he
initially gave opposite answers, Officer Darji
responded that “[t]hinking about it after I answered
the first time, the second answer was more
appropriate.” (ECF No. 30, 73:12–15.) This response
required the Court to follow-up with, “[w]hich answer
was true?” To which the Officer responded that the
Form would be “signed by the supervisor after we
serve them.” (Id. at 73:19–21.) In terms of this
Officer’s explanation of the I-851 in this case, the
Court finds and concludes that his testimony was at
odds with the text and facially stated purposes of the
various provisions of the I-851.
Based on the Court’s consideration of all of the
testimony presented and its observations of his
demeanor on the witness stand, his testimony in those
regards was false, likely given in an effort to explain
away the reality that the Defendant was confronted
with and induced to sign the I-851 before it was even
“issued” or, as demonstrated below, fully explained to
him.
Officer Darji testified that an I-851 would be
presented to the detainee and an Officer would go
through the first page, top to bottom, and then the
second page, top to bottom, explaining everything.
(ECF No. 30, 33:23–35:5.) The certificate of service
would be completed at the top of the second page, and
then the alien would check off what option he wanted,
e.g., to contest or not contest removal. (Id.) Despite
that standard operating procedure, Officer Darji
immediately followed that explanation with testimony

138a
that it was not unusual for the detainee to waive his
rights before the certificate of service was signed
“[b]ecause basically the form was signed by the alien
down below after he is explained everything, then the
administrative order was actually served and
acknowledged and explained to him by the native
speaker . . . .” (ECF No. 30, 36:16–23 (emphasis
added).) When asked what occurred in the time after
the detainee actually waived his rights and before the
certificate of service is completed, Officer Darji
testified that “we would make sure the alien
understood everything.” (ECF No. 30, 37:3–5.) This,
of course, would facially obviate any waiver, as it
would have been “made” before the required
explanation and confirmation of understanding.
The Government’s next witness, Officer Jose Alicea,
testified that when serving multiple forms, the Officer
would serve one Form and then go on to the next Form
upon completing the service of the first one. When the
Court asked why an Officer would list the same time
on the Forms for multiple serial events, Officer Alicea
responded that the respective time notations are based
on whatever the clock in the room read when it was
time to sign. (ECF No. 30, 88:24–89:17.)
When Officer Alicea was asked why his signature on
the I-851 was time-noted twenty (20) minutes after the
Defendant signed the waiver, he testified that the time
gap “would have been about the time my explanation
was completed.” (ECF No. 30, 91:5–8.) In response to
a question from the prosecution, Officer Alicea
confirmed that those twenty (20) minutes after the
purported waiving of rights were used to “read the
document in Spanish to the alien.” (ECF No. 30, 91:9–
12.)
This of course means that the Defendant

139a
supposedly waived his rights by his signature before
they were read to him in Spanish.10 Immediately
thereafter, perhaps sensing the impact of his prior
(and then re-confirmed) contrary testimony, Officer
Alicea switched gears and testified that he would have
read the document to the alien in Spanish before the
alien made any selection on the I-851. (ECF No. 30,
91:13–15.) The Court concludes that given the times
on the Forms, the balance of their content, the overall
tenor and content of Officer Alicea’s testimony, and his
demeanor on the witness stand as observed by the
Court, this later statement was false, likely presented
by Officer Alicea in an effort to explain away his prior
testimony.
Officer Alicea also testified on direct examination
that administrative removal proceedings in New
Jersey were something that he was commonly
involved in (ECF No. 30, 82:7–11), and he did not have
a specific recollection of serving the specific Forms at
issue in this case. (ECF No. 30, 85:17–19.) Then, in
that same direct examination, Officer Alicea also
testified that administrative Removal Proceedings
were rare in New Jersey, and this specific Removal
Proceeding with the Defendant was the only
administrative removal proceeding that he could
recall being involved with at the New Jersey office.
(ECF No. 30, 91:20–92:17.) When the Court asked him
about this contradiction, Officer Alicea testified the
Defendant’s I-851 was the only I-851 he could recall
doing. (ECF No. 30, 92:18–24.)
Now that the Court has summarized the content of
the Forms and the testimony of the DHS Officers who
10

Both Forms are printed only in English.

140a
signed and served those Forms on the Defendant, the
Court analyzes the effect of these Forms and that
testimony on the issue of waiver.
iv. The Waivers Are Invalid
The Court concludes that the waivers in the Forms,
both in the I-826 and I-851, are facially invalid. The
Government has not met its initial burden to produce
a facially valid written waiver signed by the
Defendant. This I-826 is internally and inherently
contradictory on its face. It is impossible to discern
whether the Defendant actually waived his rights
(including to a hearing), because the Defendant’s
signature corresponds to a selection both waiving and
not waiving his rights to a hearing, a hearing the I-826
affirmatively said that he could request. Therefore,
the Court cannot conclude that the I-826 presented by
the Government is actually what the Government
asserts it to be: a waiver.
At one point, the Government posited that the I-826
was actually irrelevant to the case and should be
disregarded because the I-851 was the controlling
document:
THE COURT: You are saying the agents of the
United States Department of Homeland Security
required this defendant and everyone else to go
over and to sign a legally pointless document, the
826?
MR. HALLOWELL: That’s my understanding of
[the Officers’] testimony, Your Honor.
(Tr. of Proceedings, ECF No. 31, 17–22.) Even if that
is the actual relationship between the I-851 and the I826, the Court has to take the case as it is, and the
Defendant was given both Forms at the same time, one

141a
of which told him he had a right to a hearing. This
reason alone shows that any sense of what the
Defendant’s hearing rights and other rights actually
were had become practically indecipherable, and
waivers stemming from such transaction could not
have been entered into intelligently. As our Court of
Appeals acknowledged in Charleswell:
The presence of an affirmative statement
concerning an avenue of relief [ ] immediately
followed by a negative command concerning what
the alien may not do, creates the impression that
“these are the options.” Absent any affirmative
notice to the contrary, and combined with the
velocity of the [immigration] process, it is simply
unrealistic to expect an alien to recognize,
understand and pursue his statutory right [under
applicable laws] to direct judicial review in the
appropriate court of appeals.
Charleswell, 456 F.3d at 357.
The I-851 also suffers from facial defects preventing
it from constituting an actual written waiver. The
Defendant signed the “waiver” section before it was
entirely explained to him in his native language, he
signed the waiver section before it was served on him,
and it was served on him before it was issued. In
short, he supposedly signed away his rights before he
was charged and before those rights were read to him
in Spanish. The waivers are facially invalid.
But there is more. Even if the Government had met
its burden by merely producing a piece of paper
purporting to be a waiver and containing the
Defendant’s signature, the Defendant has met his
burden to show by a preponderance of the evidence

142a
that the waivers are invalid, because it is plain that
the waivers were not entered into voluntarily or
intelligently. Viewed independently, both Forms
facially show either an unintelligent or an involuntary
waiver of rights, or in the case of the wholly
contradictory statements on the I-826 as to requesting
a hearing, no waiver at all. When the Forms
themselves are considered in conjunction with the
testimony of the DHS Officers, the Court finds and
concludes that the option giving up the right to a
hearing on the I-826, given that this “selection” was
partially made with the same ink color that the DHS
Officer used to sign the form, was not made voluntarily
or likely even made by the Defendant.11 The fact that
11 The record also includes a two sets of documents, each titled
“Record of Sworn Statement in Affidavit Form,” supposedly made
and signed by the Defendant. With these documents, the
Government attempts to show inconsistencies as to the
Defendant’s asserted fear of persecution. (Gov’t’s Resp. in Opp’n,
ECF No. 17, at 13 n.7.) The first page is left blank with respect
to the Defendant acknowledging receipt or being informed of the
nature of the document. (Def.’s App. 116.) It is left blank as to
what language was used with the Defendant or whether there
was an interpreter. (Id.) The “Initials of the Subject” change
throughout the document, yet none match the name of the
Defendant. (Id. at 116, 117, 119.) The signature of the “alien” on
the last page does not match the Defendant’s name or signature
on other Forms. (Id.) The initials at the bottom of the first page
corresponding to the agent of U.S. Immigration & Customs
Enforcement do not appear to match the initials used on the top
of that page designating the agent or the signature of the agent
on the last page. (Id. at 116, 119.) The witness signature on the
last page is left blank. (Id. at 119.) The second “Record of Sworn
Statement” is of the same ilk. (Def.’s App. 124–28.) The name of
the person giving the “sworn statement” is left blank. (Id. at 124.)
Despite the document indicating it was made before a specified
Agent in the Spanish language, the name of the interpreter is

143a
both options on the I-826 were selected demonstrates
that the Defendant did not intelligently (or actually)
waive any rights that were described to him through
the I-826. The order in which the sections of the I-851
were completed and the manner in which those
sections were purportedly completed (based on the
portions of testimony that the Court believed to be
credible) demonstrates that any waivers in the I-851
were made unintelligently, as the Defendant
purportedly waived his rights before the I-851 was
fully explained to him or served on him.
These conclusions are further corroborated when
the time notations on the Forms are read in
conjunction with one another, showing the
impossibility that the Forms were properly served,
explained and translated, and then completed in
accordance with all of the time notations. Finally, the
very nature of the contradictory explanation of rights
on the separate Forms supports the determination

blank. (Id.) The line for the Defendant to write in his own name
indicating acknowledgement of receipt is left blank. (Id.) While
the initials at the bottom of each page bear the letters “MR,” the
handwriting that appears on these documents bears no
resemblance to the handwriting attributed to the Defendant on
the Forms. (Id.) The “signature of alien” on the last page says
“Mario Reyes” but also carries starkly different penmanship from
the signatures attributed to the Defendant on the Forms. (Id. at
128.) See United States v. Clifford, 704 F.2d 86, 90 n.5 (3d Cir.
1983) (The fact finder “can compare a known handwriting sample
with another sample to determine if the handwriting in the latter
sample is genuine”) (citing Fed. R. Evid. 901(b)(3)). This last
page, bearing the signature, is attached to this Opinion as
Exhibit C. In the Court’s estimation, these documents cast
further, substantial doubt on the validity of the Forms and their
completion.

144a
that the waivers were not entered into voluntarily and
intelligently.
Mendoza-Lopez, 481 U.S. at 840;
Charleswell, 456 F.3d at 357.12
These two Forms are shams,13 and the result of the
involved Officers electing to run roughshod over not
only what they testified were the standard and
required DHS procedures, but also over any semblance
of due process. To be sure, these assessments are
blunt and direct, but in the Court’s estimation are
The Government has not conceded that the Forms were
completed and executed improperly, nor that the Forms facially
demonstrate that the Defendant never actually and knowingly
waived his right to a hearing. Rather, it takes the position that
it will cease offering evidence or argument on that matter and put
all of its chips on the prejudice marker. As the Court previously
noted on the record in open court, the Court does not believe or
conclude that the Government knowingly presented false
testimony from the Officers when those Officers testified, and it
in fact attempted (unsuccessfully) to rehabilitate their testimony
while they were on the stand. But, as the Court explains below,
the Government also does not have the luxury of taking a position
of ambivalence as to the testimony it presents from federal
agents. See infra pp.60–61 (discussing United States v. Harris,
498 F.2d 1164, 1169 (3d Cir. 1974)).
12

The Government has not offered any explanation of the
Officers’ testimony and/or the Forms that would generate a
benign interpretation of their contents or the Officers’ testimony.
The Government has stated that both the witnesses and the U.S.
Attorney’s Office had not inspected the originals (or color copies)
of the Forms prior to the January 3, 2018, hearing. (Gov’t’s Resp.
Br. in Supp. of Gov’t’s Mot. to Dismiss, ECF No. 66, at 3.) Indeed,
the Court was unaware of the existence of the color copies until
they were filed on the docket on March 14, 2018. (ECF No. 63.)
Regardless, the blue versus black ink differences as seen on the
color copies are only one slice of the pie, and serve to affirm the
inconsistencies and contradictions already evident in the prior
hearings.
13

145a
compelled by the record. The Forms, and the 2011
Removal reliant on them, are invalid and the Officers’
testimony proves it.
2. Exhaustion
The Defendant is excused from showing that he
exhausted his administrative remedies in light of the
invalid waivers. Richardson, 558 F.3d at 220 (quoting
Muro-Inclan, 249 F.3d at 1183, for the conclusion that
§ 1326(d)’s exhaustion requirement “cannot bar
collateral review of a deportation proceeding when the
waiver of right to an administrative appeal did not
comport with due process”); see also United States v.
Sosa, 387 F.3d 131, 136 (2d Cir. 2004) (“[T]he
exhaustion requirement must be excused where an
alien’s failure to exhaust results from an invalid
waiver of the right to an administrative appeal.”).
Accordingly,
the
first
Charleswell
element
(§ 1326(d)(1)) is satisfied.
3. No Opportunity for Judicial Review
By his establishing that the waivers for judicial
review were invalid, the Defendant has shown that he
has been deprived of judicial review. Mendoza-Lopez,
481 U.S. at 840 (“Because the waivers of their rights
to appeal were not considered or intelligent,
respondents were deprived of judicial review of their
deportation proceeding. The Government may not,
therefore, rely on those orders as reliable proof of an
element of a criminal offense.”).
The second
Charleswell element (§ 1326(d)(2)) is satisfied.
4. Fundamental Unfairness
Even though Defendant has met the first two
elements, to prevail on his Motion to Dismiss, the
Defendant must also show that the underlying

146a
removal proceeding was “fundamentally unfair.” This
last element has two sub-parts. First, the Defendant
must establish that some fundamental error occurred.
Second, the Defendant must show that as a result of
that fundamental error he suffered prejudice. To show
prejudice, the Defendant must show based on a
preponderance of the evidence that there is a
“reasonable probability”14 that the Defendant “would
have obtained relief had he not been denied the
opportunity for direct judicial review of his [removal]
order.” Charleswell, 456 F.3d at 362. The Defendant
is able to meet both such prongs and therefore satisfies
the third element.
i. Fundamental Error Occurred15
As set out above, the Forms that were intended to
lay out the Defendant’s rights and his elections
regarding their exercise were completed in a manner
that deprived the Defendant of any meaningful due
process.
First, based on the I-826, at best, the Defendant
simultaneously made two contradictory choices as to a
request for a hearing and the DHS Officers failed to
take any measure to properly address that
contradiction, to clarify the Defendant’s intentions by
asking him to complete a new Form (or initial his
selection on the existing Form), or to provide the
Defendant with the hearing he had requested (and
that the I-826 informed him that he had a right to).
This despite the Officers’ own testimony that when
The Court in Charleswell uses “reasonable likelihood” and
“reasonable probability” interchangeably.
14

The Government elected not to present any evidence on this
prong. (Gov’t’s Suppl. Resp. in Opp’n, ECF No. 79, at 3 n.1).
15

147a
faced with such inherently contradictory choices, the
standard and required procedure was to stop and
definitely and definitively confirm the alien’s true
choice. (Tr. of Proceedings, ECF No. 30, 29:5–21.) At
worst, a DHS Officer forged the Defendant’s selection
on the Defendant’s I-826 in an effort to obstruct any
rights to a hearing that the I-826 itself purported to
offer.
Second, based on the I-851, the Defendant was
handed an un-issued Notice of Intent where he was
asked to waive further rights to contest removal or to
request withholding of removal, twenty (20) minutes
before the I-851 says it was received by and/or
explained to the Defendant.
Third, all the waivers on both Forms supposedly
occurred at the exact same minute, and the Officers
testified (and the documents support) that the
supposed waivers in reality actually occurred before
the Forms were explained to the Defendant.
In an effort to confirm (or not) that facial reading of
the Forms, the Court asked DHS Officer Darji the
following while Officer Darji testified under oath:
THE COURT: So within a few minutes somebody
in your position would tell somebody that they
have the right to a hearing. That person would
have both requested a hearing and said they don’t
want a hearing. And then they would be told they
don’t get a hearing. Is that your testimony, sir?
DHS OFFICER DARJI: This is a generic form,
yes.
THE COURT: Okay. But in the circumstance
where it is a form 851 that is going to be used, in
this specific circumstance, am I reading these

148a
forms inaccurately — or actually am I reading
them accurately that within moments of 9 o’clock
in the morning on June 23rd, 2011, several things
had occurred pretty much all at once. This
defendant was told he had a right to request a
hearing. He requested a hearing. He said he
didn’t want a hearing. And he was told he
couldn’t have a hearing. Am I reading those
forms correctly, sir?
DHS OFFICER DARJI: Yes.
THE COURT: Does that make any sense at
all to you, sir?
DHS OFFICER DARJI: No, Your Honor.
(Tr. of Proceedings, ECF No. 30, 61:21–62:14
(emphasis added).)
The Court concludes that the Defendant has shown
by a preponderance of the evidence that DHS violated
required and material procedural protections and due
process regarding the removal process such that the
2011
Removal
Proceeding
was
rendered
fundamentally unfair. See Charleswell, 456 F.3d at
360. Not only was the Defendant deprived an
opportunity for review by an immigration judge (“IJ”)
based on the I-826, likely because the I-826 was
manipulated by the DHS Officers, but he also was not
given sufficient opportunity to understand or review
his rights (including to judicial review) on the I-851
before signing them away.
“No society is free where government makes one
person’s liberty depend upon the arbitrary will of
another.” Hahn v. Burke, 430 F.2d 100, 105 (7th Cir.
1970) (quoting Shaughnessy v. United States ex rel.
Mezei, 345 U.S. 206, 217 (1953) (Black, J., dissenting)).

149a
In effectuating the administrative removal of the
Defendant in 2011, the involved DHS Officers acted
with fundamental disregard of their obligations under
federal law and the Due Process Clause, and that
Removal process was contrary to law.
ii. Fundamental Error Caused
Prejudice to the Defendant
The second prong of the third element requires the
Defendant to show prejudice. This Court must
determine whether there is a reasonable likelihood
that the Defendant would have obtained relief had he
not suffered from the fundamental errors identified
above. Charleswell, 456 F.3d at 362. In extreme cases,
where the procedural defects are “so central or core to
a proceeding’s legitimacy,” the reasonable likelihood
standard becomes too high a burden. Id. at 362 n.17.
In such an extreme case, prejudice may be presumed.
Id. (citing United States v. Luna, 436 F.3d 312, 321
(1st Cir. 2006)).
The Defendant argues that had the 2011 Removal
Proceeding been conducted properly, and his request
for a hearing so offered and so selected on the I-826
been honored, the Defendant could have then asserted
a claim for asylum, withholding of removal, or
Convention Against Torture (CAT) protection, and
there is a reasonable likelihood that at least one of
those claims would have been successful.
The
Government argues that the Defendant suffered no
prejudice because he was not eligible for asylum or
withholding of removal and he could not have asserted
a successful CAT protection claim in 2011; therefore,
the Defendant would have been deported regardless of

150a
any error with the Forms or the 2011 Removal
Process.
“[R]esolution of the prejudice issue in the
§ 1326(d)(3) context is somewhat akin to a trial within
a trial. . . .” Charleswell, 456 F.3d at 362 (internal
quotations omitted). After placing itself in the shoes
of an IJ around the time of the 2011 Removal
Proceeding,16 the Court concludes that the Defendant
had a reasonable likelihood of success on a claim for
asylum, a claim for CAT protection, and a claim for
withholding pursuant to § 1231(b)(3)(A) had his 2011
Removal Proceeding been conducted without
fundamental error. However, beyond that, the Court
also concludes that the flaws in the 2011 Removal
Proceeding were so central to any notion of a
legitimate removal proceeding that prejudice can and
must be presumed in this case. Therefore, the
Defendant satisfies the prejudice prong of the third
element.
a. Asylum
First, the Government argues that even if the Forms
had been executed properly, the Defendant would not
have had the opportunity to seek asylum because he is
an “aggravated felon”17 as a result of his New Jersey

16 Of course, the necessity of this Court’s considering these issues
now by looking in the rearview mirror is solely and completely
the result of the actions of the DHS Officers in 2011. If they had
followed the law, and what they themselves said they should have
done when presented with conflicting elections by the Defendant,
there likely would be no need to delve into these issues now, as
they would have been addressed one way or the other back then.

As that term is defined at § 101(a)(43)(F) of the Immigration
Act, 8 U.S.C. § 1101(a)(43)(F).
17

151a
state conviction for aggravated assault. This status is
important, asserts the Government, because
aggravated felon status has serious implications in
removal proceedings: in the Defendant’s case, not only
did his aggravated felon status enable DHS to initiate
expedited administrative removal proceedings against
him,18 his aggravated felon status also made him per
se ineligible for asylum.
Thus, argues the
Government, the Defendant’s expedited deportation
was unavoidable. The Defendant argues that if he had
been properly informed of his rights, he would have
challenged his aggravated felon status, likely been
successful, and could have made a likely successful
claim for asylum.
1. The Defendant was eligible for asylum
because he was not an aggravated felon.
The Government is correct that aggravated felons
are ineligible for asylum,19 so whether the Defendant
could have had even a possibility of gaining asylum
Pursuant to 8 U.S.C. § 1227(a)(2)(A)(iii) (“Any alien who is
convicted of an aggravated felony at any time after admission is
deportable.”) and § 1228 (authorizing “expedited” removal of
aliens convicted of committing aggravated felonies).
18

“But the noncitizen who is not an aggravated felon may seek
discretionary relief from removal, such as asylum, provided he
satisfies the other eligibility criteria.” Johnson v. Attorney Gen.
of U.S., 596 F. App’x 117, 123 (3d Cir. 2014). The asylum statute,
8 U.S.C. § 1158, states that “an alien who has been convicted of
an aggravated felony shall be considered to have been convicted
of a particularly serious crime.” § 1158 (b)(2)(B)(i). In turn, an
alien who has “been convicted by a final judgment of a
particularly serious crime” is not eligible for asylum.
§ 1158(b)(2)(A)(ii). For further discussion on the definition of a
“particularly serious crime,” in regard to the issues in this case,
see infra note 38.
19

152a
during his 2011 Removal Proceeding depends on
whether the Defendant was properly charged by DHS
as an aggravated felon.20
In the immigration context, an “aggravated felony”
includes any “crime of violence [defined in 18 U.S.C.
§ 16 but excluding purely political offenses] for which
the term of imprisonment [is] at least one year.” 8
U.S.C. § 1101(a)(43)(F). The Defendant’s term of
imprisonment in New Jersey exceeded one year. A
“crime of violence,” 18 U.S.C. § 16, has two alternative
definitions:
(a) an offense that has as an element the use,

attempted use, or threatened use of physical
force against the person or property of
another, or
(b) any other offense that is a felony and that, by

its nature, involves a substantial risk that
physical force against the person or property
of another may be used in the course of
committing the offense.
Id. Thus, the Court must determine whether the
Defendant’s New Jersey aggravated assault conviction
qualifies as a “crime of violence” under either prong.
If it does, the Defendant is (and was) an aggravated

The Government also argues that the Defendant could have
been charged by DHS as having been convicted of a crime of moral
turpitude pursuant to 8 U.S.C. § 1227(a)(2)(A)(i). (See Gov’t’s
Resp. to Def.’s Mot., ECF No. 17, at 11 n.5.) However, the DHS
did not charge the Defendant under that subsection in the 2011
Removal Proceeding, instead electing to charge him under
§ 1227(a)(2)(A)(iii). See Form I-851, at 1, Ex. B. Thus, the
Government’s argument is beyond the scope of this collateral
attack on this underlying removal order.

20

153a
felon for immigration purposes and could not have
successfully claimed asylum in 2011.
If it is
reasonably likely that the Defendant could have
successfully challenged his conviction being labeled as
a “crime of violence,” then he would have been eligible
to present an asylum claim, as he would not have been
labeled an aggravated felon.
i. Section 16(a)
Although courts typically employ the categorical
approach to determine whether a state offense meets
a federal definition,21 Moncrieffe v. Holder, 569 U.S.
184, 191 (2013), if the state offense lists elements in
the alternative (e.g., acting knowingly or recklessly)
and only some of those alternatives fit the federal
definition, the court must apply the “modified
categorical approach.” Johnson, 596 F. App’x at 120.
Both parties agree that the aggravated assault offense
lists elements in the alternative, so the Court must
utilize the modified categorical approach when

“Under this approach, [courts] look ‘not to the facts of the
particular prior case,’ but instead to whether ‘the state statute
defining the crime of conviction’ categorically fits within the
‘generic’ federal definition of a corresponding aggravated felony.
Moncrieffe v. Holder, 569 U.S. 184, 190 (2013) (quoting Gonzales
v. Duenas-Alvarez, 549 U.S. 183, 186 (2007)).
21

154a
comparing N.J. Stat. Ann. § 2C:12-1(b)(1) (2009)22 to
the definitions in 18 U.S.C. § 16(a) and (b).23
Under this modified categorical approach, the Court
must “consult a limited class of documents . . . to
determine which alternative formed the basis of the
defendant’s prior conviction” and then determine if
that basis meets the definition of a crime of violence.
Descamps v. United States, 570 U.S. 254, 257 (2013).
A court applying the modified categorical approach
determines the basis of the conviction based on “the
statutory definition, charging document, written plea
agreement, transcript of plea colloquy, and any
explicit factual finding by the trial judge to which the
defendant assented.” Shepard v. United States, 544
U.S. 13, 16 (2005).
Here is what the Court knows from the Shepard
materials in this case. First, the statute at issue
reads: “A person is guilty of aggravated assault if he:
(1) Attempts to cause serious bodily injury to another,
or causes such injury purposely or knowingly or under
circumstances manifesting extreme indifference to the
value of human life recklessly causes such injury.”
N.J. Stat. Ann. § 2C:12-1(b)(1) (emphasis added). The
New Jersey indictment charged that the Defendant
“purposely did attempt to cause serious bodily injury.”
(Def.’s App. 114, “State Indictment.”) The New Jersey
22 The Defendant was convicted of aggravated assault on
December 11, 2009, under N.J. Stat. Ann. § 2C:12-1(b)(1). (J. of
Conviction and Order for Commitment, Def.’s App. 112.) This
statute has been updated since the Defendant’s conviction, but
for the purposes of this Opinion, the Court relies on the statute
as it read on the date of conviction.

Gov’t’s Suppl. Resp., ECF No. 79, at 6; Def.’s Reply, ECF No.
82, at 7.

23

155a
Judgment of Conviction and Order for Commitment
does not indicate which alternative scienter element
served as the basis for conviction. (Def.’s App. 112.)
The Defendant pled guilty, and a video and audio
recording of his plea colloquy was submitted into the
record along with a transcript of the recording. (Def.’s
Ex. Q; 2d Suppl. App. to Def.’s Reply to Gov’t’s Suppl.
Resp. (“Def.’s 2d Suppl. App.”) 9–11, ECF No. 82.)
With the aid of an interpreter, the Defendant
answered the following questions during his state
court plea colloquy:
DEFENSE ATTORNEY:
assault.

It’s an aggravated

THE COURT: Yeah, but did he attempt — did he
attempt to create serious bodily injury?
Significant bodily injury, right?
PROSECUTOR #2: Yeah, serious.
THE COURT: Serious bodily —
(There was a discussion among counsel and
interpreter.)
INTERPRETER: I’m sorry, maybe I interpreted
incorrectly the question. I apologize. I apologize.
The intent—
THE COURT: Okay. Did you intend to commit
serious bodily injury when you stabbed the
individual?
INTERPRETER [on behalf of the Defendant]: No.
PROSECUTOR #1: But you knew about using a
knife to stab somebody in a fight, you could have
caused serious bodily injury?
INTERPRETER [on behalf of the Defendant]:
Yes.

156a
(Def.’s Ex. Q; Def.’s 2d Suppl. App. 9–11.)
While it is clear from the State Indictment that New
Jersey charged the Defendant with an attempt to
cause serious bodily injury,24 the plea colloquy shows
that the Defendant did not admit to intending to
commit serious bodily injury.25 After consulting the
Shepard documents, the Court concludes that the
Defendant admitted to recklessly causing serious
bodily injury under circumstances manifesting
extreme indifference to the value of human life, and
that admission of recklessness was the basis for his
conviction. To be clear, this is not simply a conclusion
that it would be reasonably likely that an IJ would
reach this conclusion; it is a conclusion that as a
matter of law, the Defendant pled to a reckless level of
scienter.
New Jersey defines “recklessly” as:
consciously disregard[ing] a substantial and
unjustifiable risk that the material element exists

“[W]here a subsection of the Code defines an offense as an
attempt to cause and also as causing serious bodily injury or
bodily injury, the attempt is a separate offense.” New Jersey v.
McAllister, 511 A.2d 1216, 1221 (N.J. Super. Ct. App. Div. 1986).
“A defendant may be convicted of an offense included in an
offense charged whether or not the included offense is an
indictable offense. An offense is so included when: . . . (3) It differs
from the offense charged only in the respect that a . . . lesser kind
of culpability suffices to establish its commission.” N.J. Stat.
§ 2C:1-8(d).
24

It is well established that attempt cannot be proven without a
mental state of specific intent. Singh v. Gonzales, 432 F.3d 533,
539 (3d Cir. 2006); Knapik v. Ashcroft, 384 F.3d 84, 91 (3d Cir.
2004) (“[T]he concept of an attempted recklessness crime is
nonsensical.”).
25

157a
or will result from his conduct. The risk must be
of such a nature and degree that, considering the
nature and purpose of the actor’s conduct and the
circumstances known to him, its disregard
involves a gross deviation from the standard of
conduct that a reasonable person would observe
in the actor’s situation.
N.J. Stat. § 2C:2-2(b)(3). The Defendant did not plead
to the higher level of culpability, which is to act
“knowingly,” because “[a] person acts knowingly with
respect to a result of his conduct if he is aware that it
is practically certain that his conduct will cause such
a result.” N.J. Stat. § 2C:2-2(b)(2). The nature of the
admitted statement, “you knew about using a knife to
stab somebody in a fight you could have caused serious
bodily injury,” is insufficient to establish that the
Defendant was aware that it was practically certain
that his conduct would cause serious bodily injury.
(Def.’s 2d Suppl. App. 11 (emphasis added).)
Neither the state trial judge nor the state prosecutor
followed up with more specific questions in the
colloquy to determine if the level of culpability rose to
the level of “knowingly,” and there is no evidence in
the record that the trial judge made any factual
findings as to which level of culpability the Defendant
was guilty of. Without more, the Court is left with the
admission in the colloquy, which only establishes a
recklessness level of culpability.
The question now becomes whether reckless
aggravated assault is the type of offense captured by
§ 16(a). If it is, then the Defendant committed a crime
of violence, as defined by 18 U.S.C. § 16(a), and the
offense qualified as an aggravated felony under

158a
immigration law in 2011, as defined in 8 U.S.C. § 1101
(a)(43)(F). If it is not, the Defendant did not commit a
crime of violence and would not have been an
aggravated felon in 2011.
Contrary to the Government’s assertion,26 the
Supreme Court has specifically left unresolved the
issue of whether reckless assault crimes qualify as a
crime of violence under § 16. Voisine v. United States,
136 S. Ct. 2272, 2280 n.4 (2016) (“[O]ur decision today
concerning § 921(a)(33)(A)’s scope does not resolve
whether § 16 includes reckless behavior.”). Noting the
open question, our Court of Appeals also declined to
answer this question with respect to § 16(b) in Baptiste
v. Attorney Gen. of U.S., 841 F.3d 601, 607 n.5 (3d Cir.
20 1 6).27 Baptiste also offered no guidance on § 16(a).
Id. at 606 n.4 (“BIA28 did not address [§ 16(a)] and so
we similarly do not address it here.”).
The Defendant argues that our Court of Appeal’s
2005 ruling in Popal v. Gonzales remains controlling
law in the Third Circuit on this point. 416 F.3d 249
(3d Cir. 2005). Popal made plain that, for purposes of
§ 16(a),29 “crimes with a mens rea of recklessness do

26

ECF No. 79 at 7, n.6.

27 “Since we conclude Baptiste’s 2009 Conviction falls within our
more-circumscribed interpretation of § 16(b), we need not
examine to what extent the reasoning of Voisine applies in the
§ 16(b) context to broaden our existing interpretation of the
provision. We leave that question for another day.” Baptiste, 841
F.3d at 607 n.5.
28

Board of Immigration Appeals

The Court of Appeals narrowed the Popal holding in Victor
Jair Aguilar v. Attorney Gen. of U.S. to only apply to § 16(a) and
not § 16(b). 663 F.3d 692 (3d Cir. 2011) (“[C]rimes carrying a
29

159a
not constitute crimes of violence.” Id. at 251. District
courts in our Circuit continue to follow Popal. In 2017,
the Eastern District of Pennsylvania concluded that a
defendant’s
Pennsylvania
aggravated
assault
conviction, 18 Pa. Cons. Stat. § 2702(a), was not a
“crime of violence” under § 4B 1.2(a) of the Sentencing
Guidelines30 because the defendant’s mens rea did not
rise above recklessness.31 United States v. Haines, No.
11-cr-706, 2017 U.S. Dist. LEXIS 180613, at *17 (E.D.
Pa. Oct. 30, 2017); see also Nelson v. United States, No.
16-cv-3409, 2017 U.S. Dist. LEXIS 5116, at *16 (D.N.J.
Jan. 12, 2017) (concluding that New Jersey’s assault
statute could be satisfied by recklessness alone and
“under the elements clauses of the Sentencing
mens rea of recklessness may qualify as crimes of violence under
§ 16(b).”).
Section 4B1.2(a) of the Sentencing Guidelines is virtually
identical to the language of 18 U.S.C. § 16(a), with the exception
that § 16(a) “includes the use of force ‘against the person or
property of another,’ while U.S.S.G. § 4B1.2(a)(1) is limited to the
use of force ‘against the person of another.’” United States v.
Haines, No. 11-706, 2017 U.S. Dist. LEXIS 180613, at *12 n.29
(E.D. Pa. Oct. 30, 2017). As explained in United States v. Dates,
“the definition of ‘crime of violence’ in Section 4B1.2(a)(1) mirrors
that in Section 16(a), and thus authority interpreting one is
generally applied to the other, unless pertinent distinctions—
none of which are present here—are present.” No. 6-cr-83, 2016
WL 5852016, at *3 (W.D. Pa. Oct. 6, 2016).

30

31 In Haines, any Shepard documents related to the defendant’s
aggravated assault conviction were lost, so neither party could
establish which mens rea element served as the basis of
conviction since the statute in question gave alternative levels of
culpability:
intentionally, knowingly, or recklessness with
extreme indifference, and simple recklessness. 2017 U.S. Dist.
LEXIS 180613, at *7 (discussing Pennsylvania’s aggravated
assault statute, 18 Pa. Cons. Stat. § 2702(a)).

160a
Guidelines, § 16(a), and the virtually identical
language in the ACCA,32 a crime requiring only
recklessness as to the ‘use’ of force will not qualify as
a crime of violence”). In 2016, this Court declined to
presume that a guilty plea that failed to specify mens
rea qualified as a crime of violence when the divisible
statute was not categorically a crime of violence, even
though it was “exceedingly unlikely[ ] that his plea
arrangement implicated something other than” one of
the qualifying mens rea. United States v. Dates, No.
6-cr-83, 2016 WL 5852016, at *3 (W.D. Pa. Oct. 6,
2016).33
Thus, the Defendant’s underlying conviction cannot
as a matter of law qualify as a crime of violence under
18 U.S.C. § 16(a) and is insufficient to support
aggravated felon status under 8 U.S.C. § 1101
(a)(43)(F).
ii. Section 16(b)
Our Court of Appeals has held that § 16(b) is
unconstitutionally vague in the immigration context
and therefore invalid. Baptiste, 841 F.3d at 615–21.
Just recently, the Supreme Court reached the same
holding in Sessions v. Dimaya, 138 S. Ct. 1204 (2018).
Even though the Baptiste and Dimaya holdings
occurred well after the Defendant’s 2011 Removal
32

Armed Career Criminal Act, 18 U.S.C. § 924.

33 As this Court noted in Dates, “[t]he Supreme Court has
generated a ‘demand for certainty’ when determining whether a
defendant was convicted of a qualifying offense. Shepard, 544
U.S. at 21. In other words, a court must be certain about ‘what
matters,’ which ‘is the mens rea to which [a defendant] actually
pled guilty.’” 2016 WL 5852016, at *3 (citing United States v.
Johnson, 587 F.3d 203, 212–13 (3d Cir. 2009)).

161a
Proceeding, the Court concludes that there is a
reasonable likelihood that had the Defendant not been
deprived of his ability to challenge the
constitutionality of § 16(b) beginning at that time, he
would have ultimately been successful.
Had the Defendant gotten the ball rolling by using
the available mechanisms to challenge his removal at
that time, he would have likely ultimately had a
successful result. Given that the arguments that were
being asserted around that time in these regards in
other cases have actually proven successful, the Court
concludes that that is enough for the Defendant to
carry his burden here.34
And this approach is
consistent with the question at the core of the analysis
and holding in Charleswell, that is whether there is a
reasonable likelihood that the “result” would have
been different if the error in the removal proceeding
had not occurred. Charleswell, 456 F.3d at 362. And
contrary to the contention of the Government that this
Court is constrained to consider only the state of the
law to be applied by the IJ at the initial administrative
hearing, ECF No. 79, at 12–14, the Charleswell Court
expressly focused on the “result” in the context of the
alien advocating his position on direct appeal. 456
F.3d at 362. Since a “fundamental defect” or error that
renders a removal proceeding “fundamentally unfair”
for purposes of § 1326(d) includes the denial of a
statutory right to appeal, this Court is obligated to
consider not simply the likely “result” of the
Defendant’s hypothetical initial hearing before an IJ,
but also the “result” of the Defendant’s use of all of the
See United States v. Gonzalez Segundo, No. 4:10-cr-0397, 2010
WL 4791280, at *10 n.8 (S.D. Tex. Nov. 16, 2010).
34

162a
legal processes that would have been available to him.
Id.35
The argument that § 16(b) was unconstitutionally
vague was indeed successful at our Court of Appeals
in Baptiste. Baptiste’s removal proceedings were
instituted only nineteen months after the Defendant’s,
and the underlying “aggravated felony” involved there
also arose under New Jersey’s aggravated assault
statute. Baptiste, 841 F.3d at 604.
But the constitutionality of § 16(b) was a hot topic
in Circuits beyond, and indeed prior to, the Third
Circuit’s decision in Baptiste. For instance, the Tenth
Circuit held § 16(b) unconstitutionally vague with
respect to an immigration removal proceeding that
began in 2012. Golicov v. Lynch, 837 F.3d 1065, 1067
(10th Cir. 2016). In Golicov, the Defendant was
charged as an aggravated felon by DHS in 2012, and
he moved to terminate the removal proceedings. Id.
The Tenth Circuit ultimately vacated the order of
That also makes this case fundamentally different than the
situation in United States v. Torres, 383 F.3d 92 (3d Cir. 2004).
In Torres, it was conceded that the defendant was provided with
a full and fair process, so our Court of Appeals concluded that the
IJ’s application of then-existing law (later changed) was not a due
process violation. Id. at 104. Torres does not address the
situation present here where the process for an IJ hearing and
judicial review was stopped dead in its tracks by the actions of
the DHS Officers. The question in Torres “was whether an error
of law denying an alien discretionary relief to which he may have
been entitled rendered an otherwise procedurally fair proceeding
unfair.” Charleswell, 456 F.3d at 359. The Torres Court “did not
address the meaning of ‘fundamental unfairness’ in the context
of a defendant who was challenging some procedural defect in the
underlying proceeding,” such as the deprivation of the right to
administrative remedies and judicial review by DHS officers. Id.
35

163a
removal and remanded the case to the BIA. Id. Prior
to Golicov decision, the Court of Appeals for the
Seventh Circuit held § 16(b) unconstitutionally vague,
vacating a defendant’s sentence. United States v.
Vivas-Ceja, 808 F.3d 719, 720 (7th Cir. 2015).
These Court of Appeals decisions were largely
anchored in the Supreme Court’s 2015 Johnson v.
United States opinion, which declared the parallel
ACCA residual clause unconstitutionally vague. See
135 S. Ct. 2551. But, earlier Supreme Court dissents
and concurrences had questioned the validity of such
a residual clause prior to the decision in Johnson and
the Defendant’s 2011 Removal Proceeding. Id. at
2562–63; Sykes v. United States, 564 U.S. 1, 28 (2011)
(Scalia, J., dissenting) (“We should admit that ACCA’s
residual provision is a drafting failure and declare it
void for vagueness.”); Chambers v. United States, 555
U.S. 122, 134 (2009) (Alito, J., concurring) (“[E]ach
new application of the residual clause seems to lead us
further and further away from the statutory text.”).
The argument that § 16(b), which parallels the
ACCA’s residual clause,36 is unconstitutionally vague
was an argument ripe for the taking at the time that
the Defendant could have (but for the invalid waivers)
invoked it at the appropriate proceeding in order to
36 The Supreme Court’s respective analyses of the ACCA’s
residual clause and § 16(b) have “perfectly mirrored” one another.
Jimenez-Gonzalez v. Mukasey, 548 F.3d 557, 562 (7th Cir. 2008)
(comparing Begay v. United States, 553 U.S. 137 (2008), and
Leocal v. Ashcroft, 543 U.S. 1 (2004)). In fact, the Solicitor
General stated in his supplemental brief in Johnson that § 16(b)
“is equally susceptible” to the vagueness issue facing the ACCA
residual clause. Gov’t’s Suppl. Br. at 22, Johnson, 135 S. Ct. 2551
(No. 13-7120), 2015 WL 1284964, at *22.

164a
challenge his administrative removal.
Indeed,
defendants were making the vagueness challenge with
respect to the ACCA’s parallel residual clause at the
time of the Defendant’s Removal Proceeding. See, e.g.,
United States v. Hammons, No. 07-cr-1164, 2012 U.S.
Dist. LEXIS 4739, at *46 (D.N.M. Jan. 12, 2012).
By the time that such an argument would have
worked its way through the appellate structure of the
immigration courts to our Court of Appeals, the matter
likely would have already been resolved—in the
Defendant’s favor.
After all, similarly situated
defendant, James Garcia Dimaya, who was placed in
removal proceedings in 2010, prevailed on his § 16(b)
argument at the Supreme Court (after prevailing in
the Ninth Circuit) nearly eight years later. See
Resp’t’s Br. at 5–6, Sessions v. Dimaya, 138 S. Ct. 1204
(2018). Thus, it is reasonably likely that nearidentical inputs here would have resulted in a nearidentical output.37 Therefore, it is reasonably likely
that the Defendant could have successfully challenged
his conviction being labeled as a “crime of violence”
under § 16(b) had he been given the opportunity to
challenge that label beginning during his 2011
Removal Proceedings.
After analyzing both prongs of § 16, the Court
concludes it is reasonably likely that had the
Defendant challenged his aggravated felon status
when he was removed, he would have ultimately
succeeded. Therefore, he would have been eligible to

Thus, contrary to the Government’s assertion (ECF No. 79, at
14), there is a reasonable likelihood that the Defendant “would
have been” Johnson or Baptiste or Dimaya.
37

165a
present an asylum claim.38 The next question is
whether the Defendant had a reasonably likely chance
of success on the merits of that asylum claim.
The Government also contends that regardless of the
aggravated felony issue, the Defendant would have been
ineligible for asylum on the basis that his conviction still qualified
as a “particularly serious crime” as that term is used in the
asylum statute, 8 U.S.C. § 1158(b)(2)(A)(ii). Subsection (b)(2)(B)
provides that a “particularly serious crime” encapsulates
aggravated felonies and any offense that has been so designated
by the Attorney General through regulations.
8 U.S.C.
§ 1158(b)(2)(B)(i)–(ii). The Government does not argue that the
New Jersey conviction at issue here is one that is specifically so
designated in any regulation. Instead, the Government appears
to argue that case-by-case adjudication could result in an offense
that is not an aggravated felony being classified by the
immigration courts as a particularly serious crime. (Gov’t’s
Suppl. Resp. in Opp’n, ECF No. 79, at 10.) Our Court of Appeals
may have arrived at the conclusion that § 1231(b)(3)(B) permits
case-by-case adjudication by the BIA, see Denis v. Attorney Gen.
of U.S., 633 F.3d 201, 214 (3d Cir. 2011), but our Court of Appeals
has also held in the withholding of removal context that “to be
eligible for classification as a ‘particularly serious crime,’ an
offense must be an aggravated felony as defined in the INA at 8
U.S.C. 8 1101 (a)(43).” Alaka v. Attorney General of U.S., 456 F.3d
88, 104 (3d Cir. 2006).
38

Alaka addressed a claim for withholding of removal.
Nonetheless, this Court sees no persuasive reason why Alaka’s
statutory construction of a “particularly serious crime” would not
equally apply to that same term as it is used in the asylum
provision within the same Act. See Johnson v. Attorney Gen. of
U.S., 605 F. App’x 138, 144 (3d Cir. 2015) (declining to “decide
whether Alaka applies in the asylum context or reevaluate that
decision because the issue was neither briefed by the parties nor
is necessary to resolve this case”). The Court is not persuaded by
the Government’s argument that although Alaka remains valid
Circuit law, this Court should disregard it in light of the BlA’s
later interpretation of the statute, In re N-A-M-, 24 I. & N. Dec.
336, 338 (BIA 2007). This Court is bound to follow our Court of

166a
2. It

is reasonably likely that the
Defendant’s asylum claim in 2011
would have been successful

Multiple members of the Defendant’s family have
applied for, and in some cases been granted, asylum.
Because the Defendant avers he would assert asylum
on the basis of the same events from which his family
has asserted asylum claims, the Court begins with a
summary of those other asylum applications.
First, the Defendant’s sister (“Sister”), who
purportedly came to the United States in March 2012,
sought asylum, and her application remains active.
(App. to Def.’s Suppl. Br. Regarding Prejudice (“Def.’s
Suppl. App.”) 337, ECF No. 69-1; Tr. of Proceedings,
ECF No. 31, 94:11–20.) DHS made a finding that
there was a “significant possibility” that her claim
would be found credible in a full asylum hearing and
that she had established a credible fear of persecution.
(Def.’s Suppl. App. 349, ECF No. 69-1.) Her hearing
has not yet occurred. (ECF No. 31, 94:11–20.)
According to Sister’s testimony in this case, her
application for asylum is based on her history of
suffering abuse and rape in El Salvador, which led to
Sister testifying against her rapist and the rapist
being convicted and sentenced for that crime. (Def.’s
Suppl. App. 356.) As a result, her rapist and his
comrades made threats that they “wanted to murder
Appeals’ precedential decisions, and when such a decision
remains good law, this Court is not in a position to deviate from
that foundational principle on the basis that the BIA (or even
other Circuits) disagree. The long and the short of it is that this
Court is obligated to recognize that Alaka has not been
overturned, and remains Circuit precedent. See Aguilar v.
Attorney Gen. of U.S., 665 F. App’x 184, 188 n.4 (3d Cir. 2016).

167a
me and my family.” (Id. (emphasis added).) In fact,
Sister was involved in subsequent court proceedings
against the rapist in 2008. (ECF No. 31, 58:20–23,
60:3–10, 109:10–23.)
The Defendant’s mother (“Mother”) also had an
asylum application with the United States. (ECF No.
31, 106:21–23.) The basis for her application is the
situation with Sister (her daughter) because “they
were threatening us that they were going to kill us and
that they were going to bum down our house.” (ECF
No. 31, 107:18–108:7.) The threats began in 2008 and
continued through 2011, after Mother testified in the
trial of Sister’s rapist “sometime after September
2010.” (ECF No. 31, 108:20–109:23; Def.’s Suppl. App.
356.) According to a 2015 letter from the Department
of Justice, the case had not been designated as pending
by DHS, so the asylum application was rejected.
(Def.’s 2d Suppl. App. 3–4.)
The Defendant’s brother (“Brother”) was granted
asylum on September 9, 2015. (Def.’s Suppl. App. 67–
75.) Brother testified that his application was based
on his fear of gangs in El Salvador because the gangs
threated him and his family after he refused to join
them. According to the Department of Justice’s
summary of Brother’s testimony, the threats began in
November 2011 and increased until his departure
from El Salvador in June 2013. (Id.)
According to DHS paperwork, the Defendant’s
cousin (“Cousin”) applied for asylum and withholding
of removal in November 2012 after entering the
United States in March 2012. According to Cousin’s
application, he testified in a rape trial in Honduras
and the alleged rapist’s father threatened Cousin and

168a
his family. That father sent two hit men to kill Cousin
and Cousin’s brother, and the hit men successfully
killed Cousin’s brother on February 11, 2011. (Def.’s
Suppl. App. 5.) Then, on April 27, 2011, the father
sent four hit men to bomb the home of Cousin and his
family, but Cousin and Cousin’s mother (“Aunt”)
managed to escape. (Id. at 5–6.) Cousin’s application
also states that Cousin and his family tried to hide
with their family in El Salvador in 2011, but they were
discovered (by people associated with the rapist’s
father), and they decided to come to the United States.
(Id. at 7.) This matched the Defendant’s testimony
that when he was removed to El Salvador at the end
of 2011 as a result of the Removal Order, he was
reunited with his Aunt and returned to the United
States with her because “the man was paying good
money to have her found.” (Tr. of Proceedings, ECF
No. 31, 127:7–12.) The current status of Cousin’s
asylum claim is unknown to the Court.
The Defendant’s aunt (“Aunt”) also has a pending
asylum application because her son was murdered.
(ECF No. 31, 111 :9–11.) DHS issued “credible fear”
findings that Aunt had established a credible fear of
persecution. (Def.’s Suppl. App. 57.) The current
status of Aunt’s asylum claim is unknown to the Court.
Our Court of Appeals summarized the elements of
an asylum claim in Garcia v. Attorney Gen. of U.S.:
[A]n application for asylum must establish only
that the applicant is unable or unwilling to return
to, and is unable or unwilling to avail himself or
herself of the protection of, that country because
of past persecution or a well-founded fear of
future persecution on account of race, religion,

169a
nationality, membership in a particular social
group,
or
political
opinion,
8
U.S.C.
§§ 1101(a)(42)(A), 1158(b)(1)(B)(i); 8 C.F.R.
§ 1208.13(b)(1). An applicant has a well-founded
fear of persecution if there is a reasonable
possibility that she will suffer it, 8 C.F.R.
§ 1208.13(b)(2)(i), and a showing of past
persecution creates a rebuttable presumption of
such a well-founded fear, 8 C.F.R. § 1208.13(b)(1).
The persecution must be committed by the
government or forces the government is either
unable or unwilling to control.
665 F.3d 496, 503 (3d Cir. 2011) (internal quotations
and citation omitted). While there is no evidence in
the record that the Defendant personally suffered past
persecution of any kind, a person need not have
suffered personal past persecution to qualify for
asylum so long as he or she has a well-founded fear of
future persecution.
To prove a well-founded fear of persecution, an
applicant must meet a two-pronged test. First,
the applicant must demonstrate a subjective fear
of persecution “through credible testimony that
[his] fear is genuine.” Second, the applicant must
show that “a reasonable person in the alien’s
circumstances would fear persecution if returned
to the country in question.”
Pavlov v. Attorney Gen. of U.S., 614 F. App’x 55, 62 (3d
Cir. 2015) (quoting Lie v. Ashcroft, 396 F.3d 530, 536
(3d Cir. 2005)). “Nonetheless, an applicant’s fear may
be well-founded even if there is only a slight, though
discernible, chance of persecution.” Karangwa v.
Attorney Gen. of U.S., 649 F. App’x 149, 153 (3d Cir.

170a
2016); see also INS v. Cardoza-Fonseca, 480 U.S.
421,431 (1987) (noting that a ten percent (10%) chance
of being shot, tortured, or persecuted does not preclude
“well-founded fear”). This Court also bears in mind
the standard it is to apply here: a reasonable
likelihood of success of such a claim. In essence, the
Court must ask if there is a reasonable likelihood that
the Defendant could show a “well-founded fear of
future persecution” on the basis of the Defendant’s
membership in a particular social group, and that the
Salvadoran government is unable or unwilling to
control that persecution.
The Court concludes that the Defendant meets that
burden. First, the Court concludes that he would have
demonstrated a sufficiently genuine subjective fear of
persecution. The Defendant’s testimony in this case is
credible and was corroborated by both other testifying
(family member) witnesses and the documents
produced by the Government. (See Tr. of Proceedings,
ECF No. 31, 56:4–127:13.) Second, the Defendant
satisfies his burden to show that “a reasonable person
in the alien’s circumstances would fear persecution if
returned to the country in question.” Pavlov, 614 F.
App’x at 62. The Defendant is clearly at risk of further
persecution on account of membership in a particular
social group, his family in which members testified
against rapists.39
39 This is also why the Government’s argument that a one-year
time limit for raising asylum claims necessarily bars any claim
by the Defendant fails. A major exception to that one-year period
is available when changed circumstances exist that materially
affect eligibility for asylum. 8 U.S.C. § 1158(a)(2)(B) & (D); 8
C.F.R. § 208.4(a)(4). The record reflects that Sister entered the
United States in March 2012, and Mother testified that the

171a
“[A]n applicant for asylum or withholding of
removal seeking relief based on ‘membership in a
particular social group’ must establish that the group
is (1) composed of members who share a common
immutable
characteristic,
(2)
defined
with
particularity, and (3) socially distinct within the
society in question.” Matter of M- E- V- G-, 26 I. & N.
Dec. 227, 237 (BIA Feb. 7, 2014). “Social groups based
on innate characteristics such as sex or family
relationship are generally easily recognizable and
understood by others to constitute social groups.”
Valdiviezo-Galdamez v. Attorney Gen. of U.S., 663
F.3d 582, 599 (3d Cir. 2011) (quoting In re C-A, 23 I. &
N. Dec. 951, 959 (BIA 2006), aff’d sub nom. Castillo-

threats to the family occurred in 2011, driving Sister to
eventually flee the following March. In addition, the events with
Cousin and the murder of the Defendant’s other cousin occurred
within just a few months of the 2011 Removal Proceedings, and
the threats against cousin were also directed at Cousin’s family.
(Def.’s Suppl. App. 5–7.) It is clear from the record that the
violence against this family had escalated in 2011 beyond what
that family could safely tolerate. See Singh v. Holder, 656 F.3d
1047, 1053 (9th Cir. 2011) (remanding case to BIA to consider
changed circumstance related to wife’s recent attacks in India
while husband was in the United States); Fakhry v. Mukasey, 524
F.3d 1057, 1063–64 (9th Cir. 2008) (petitioner might qualify for
changed circumstances exception when relevant circumstances
simply provide further evidence of the type of persecution already
suffered rather than a new basis for persecution); Vahora v.
Holder, 641 F.3d 1038, 1043 (9th Cir. 2011) (concluding IJ plainly
erred in its finding that there was no change in conditions when
petitioner’s family became seriously impacted by renewed unrest
in the country including his family’s house being burned down
and petitioner’s brother’s disappearance).

172a
Arias v. Attorney Gen. of U.S., 446 F.3d 1190 (11th Cir.
2006)).40
Despite that concise language, the definition of a
“particular social group” is a term that has resulted in
varied holdings and applications, including around the
On June 11, 2018, the Attorney General issued his Opinion in
Matter of A-B-, 27 I. & N. Dec. 316 (A.G. 2018), in which the
Attorney General clarified various several aspects of the legal
standard he directed be applied by immigration judges for asylum
eligibility, instructing immigration judges to apply the standard
for defining a cognizable “particular social group” as was set out
in Matter of M- E- V- G-, which was on remand from our Court of
Appeals. 26 I. & N. Dec. 227. Although the Attorney General
questioned in Matter of A-B- whether, as to a specific case, “a
nuclear family can comprise a particular social group,” 27 I. & N.
Dec. at 333 n.8, Matter of A-B- did not resolve that issue as a
general matter, instead clarifying that immigration courts are to
apply a more rigorous framework on a case-by-case basis to test
the alleged status of a particular social group. What can be said
here is that the “particular social group” involved in this “case
within a case” is defined by an immutable characteristic, one that
is specific, particular, and distinct, namely prosecution witnesses
in rape trials and their family members. The Defendant’s
membership in such specific, particular “social group” is a central
reason for the persecution alleged. Matter of A-B-, 27 I. & N. Dec.
at 317. To be sure, this is not a group or claim defined by a
generalized (but real) social ill, such as domestic violence broadly
defined, a general societal vulnerability (such as a general risk of
gang violence), nor a vague assertion of generally ineffective
policing in the country of origin. See id. at 320, 331, 335. Further,
it is a particular social group that exists independently of the
asserted harm. Consequently, even if Matter of A-B- would be
applicable to asylum proceedings that would have begun seven
years ago, this Court concludes that on the facts presented here,
Matter of A-B- does not alter the Court’s conclusion that the
Defendant likely would have been successful in presenting an
asylum petition had he been given the proper opportunity to do
so.
40

173a
time the Defendant was in Removal Proceedings.41
Applying the law as it was around the time the
Defendant would have been asserting his claim for
asylum but for the fundamental error is a difficult task
given the passage of time and the evolution of events.
But in doing so, the Court may and should consider
cases in that time frame with facts similar to those in
the record in this case.
One case in particular, from the Fourth Circuit in
2011, is notably on point. Crespin-Valladares v.
Holder, 632 F.3d 117, 120 (4th Cir. 2011). The
Crespins, Salvadoran citizens, sought asylum based
on events arising from the murder of a cousin in El
Salvador. Id. Following the murder, Mr. Crespin and
his uncle gave descriptions of the murderers to the
police and agreed to testify against the murderers,
leading to convictions. Around the time of the trial,
Crespin and his uncle received death threats. Id.
Although the uncle received some police protection, all
protection ceased when the trial was over. Id.
Crespin, his wife, and their children entered the
United States and applied for asylum based on
“membership in a social group consisting of family
members of those who actively opposed gangs in El
Salvador by agreeing to be prosecutorial witnesses.”
Id. at 121–22. The IJ granted the asylum application
for the family, but the BIA vacated, stating “those who
actively oppose gangs in El Salvador by agreeing to be
prosecutorial witnesses’ does not qualify as a
particular social group.” The Court of Appeals for the
Fourth Circuit concluded that the BIA committed
legal error because it misunderstood the claimed social
41

Matter of A-B-, 27 I. & N. Dec. 316, 331 (A.G. 2018).

174a
group. The Crespin-Valladares Court thoroughly
analyzed whether family members of prosecutorial
witnesses constituted such a particular social group,
and it concluded that it does. Id. at 124–26.
This Court concludes that the reasoning of CrespinValladares persuasively demonstrates the reasonable
likelihood that had the Defendant been in a position to
move apace with an asylum effort beginning in 2011,
he would have been able to establish membership in
such a particular social group, as the analysis and
outcome in Crespin-Valladares demonstrates.42
The Defendant has also met his burden to show such
persecution would be either committed by the
Salvadoran government or by forces the Salvadoran
government is either unable or unwilling to control.
See Garcia, 665 F.3d at 503. In processing Sister’s
asylum application, an asylum officer of DHS made a
finding that the source of the threats had access to
“financial wherewithal and societal influence to
accomplish his objective of killing [Sister], possibly
with the help of police.
Current [El Salvador]
conditions appear to generally support [Sister’s] fear
the police might kill her on his behalf.” (Def.’s Suppl.

42 While it is certainly theoretically possible that the outcome in
Crespin-Valladares may have been different had it been decided
today in light of the recent Matter of A-B- Opinion, the Court
concludes that it is substantially more likely that it would not
have been different at all, as the analysis in Crespin-Valladares
does not vary from the framework clarified in Matter of A-B-, 27
I. & N. Dec. 316 (A.G. 2018). Simply stated, Matter of A-B- does
not appear to the Court to call into question the validity of
Crespin-Valladares.

175a
App. 359.)43 Similarly, Cousin had fled to El Salvador
but that country was unable to protect him from the
same dangerous men.
Furthermore, although it is true that the
Salvadoran authorities were helpful and effective in
prosecuting Sister’s rapist, that assistance occurred
before the threats began and is not enough to
overcome this evidence of the very real possibility (one
recognized by DHS as credible) that the Salvadoran
police would acquiesce to revenge killing in this case.
See De La Rosa v. Holder, 598 F.3d 103, 110 (2d Cir.
2010)44
The Defendant’s own cousin was murdered because
the perpetrators were unable to kill the brother, a
clear example of revenge upon family members
(especially a sibling in retaliation for testifying in rape
These findings stem from a “credible fear interview” in the
course of an asylum application. A credible fear interview has a
different purpose than the actual asylum hearing, but the Court
finds DHS’s (albeit, preliminary) assessment of these events in El
Salvador persuasive when it is being asked to make predictions
about the outcome of these very processes. (See Joint Stip., ECF
No. 87.) The Court also concludes that these findings are
corroborated by the testimony of the Defendant’s family
members.
43

In De La Rosa, the Court of Appeals for the Second Circuit
remanded a BIA final decision and order that had denied the
petitioner’s CAT claim. The BIA concluded that the petitioner
failed to meet the public official requirement because there was
evidence that some persons within the Dominican government
had taken steps to prevent his torture by investigating the
petitioner’s complaints and making arrests. The court disclaimed
the BIA’s assumption that the activity of these officials overcame
the other public officials’ complicity, the governmental
corruption, and the general ineffectiveness of the government to
prevent unlawful killings. De La Rosa, 598 F.3d at 110.

44

176a
trials). This reality combined with the fact that
threats made to Sister also directly referenced her
family leads the Court to conclude that it is more than
reasonably likely that the credible findings made in
Sister’s asylum application would have also been made
in the Defendant’s asylum application in 2011.
Combined with all the factors discussed above, the
Defendant would have had a reasonable likelihood of
success on an asylum claim.
b. CAT protection

Article 3 of the Convention Against Torture (CAT)
provides, without exception, that “[n]o State Party
shall expel, return (‘refouler’) or extradite a person to
another State where there are substantial grounds for
believing that he would be in danger of being subjected
to torture.” Sen. Treaty Doc. No. 100-20 (1988), 1465
U.N.T.S. 85; Khouzam v. Attorney Gen. of U.S., 549
F.3d 235, 242 (3d Cir. 2008). In order to receive CAT
protection from removal from the United States, the
alien must show “that it is more likely than not that
he or she would be tortured if removed to the proposed
country of removal.” 8 C.F.R. § 1208.16(c)(2)–(3).
Thus, a claim for CAT protection carries a stricter
burden of proof than a claim for asylum. “Torture,” for
purposes of a CAT claim, must be “inflicted by or at
the instigation of or with the consent or acquiescence
of a public official or other person acting in an official
capacity.” 8 C.F.R. § 1208.18(a)(1) (2011). “[O]ne way
a petitioner can show that a government acquiesces in
torture is if it is ‘willfully blind’ to such activities.”
Torres-Escalantes v. Attorney Gen. of U.S., 632 F.
App’x 66, 68 (3d Cir. 2015).

177a
The Defendant argues that he likely would have
made a successful claim for CAT protection based on
the violence inflicted on his family by gangs, by
Cousin’s attackers in Honduras, and by Sister’s rapist
in El Salvador. The Government argues that the
evidence in the record of the circumstances that the
Defendant faced in El Salvador at the time of his 2011
Removal Proceedings does not meet the definition of
torture because the circumstances do not meet the
“public official” requirement.
First, the Government is correct that the evidence
in the record related to gang violence (and their failed
attempt at recruiting Brother) occurred after the 2011
Removal Proceeding since Brother testified that the
threats began in November 2011 and continued into
2013. (Def.’s Suppl. App. 259.) But it is unclear that
the events related to Brother categorically would not
have factored into the Defendant’s CAT claim because
the events are only a few months after the date of the
Removal Proceeding on June 23, 2011, and even a
cursory review of immigration cases demonstrates the
slow pace at which they unfold. While it is also
unclear how quickly the threats escalated against
Brother and Brother’s family (i.e., the Defendant), it is
also noteworthy that Brother was granted asylum.
Second, the Government argues that any violence
that Cousin and other family members faced in
Honduras should also be disregarded as the Defendant
must show risk of torture in the proposed country of
removal, El Salvador. In response to that geographic
distinction argument, the Defendant argues that the
violence his family faced in Honduras supports his
claim for CAT protection from removal to El Salvador
because those family members, who initially sought

178a
refuge in El Salvador, also had to flee El Salvador out
of fear that their assailants from Honduras would
come to El Salvador to attack them. (Def.’s Suppl.
App. 5–7.) The Defendant himself testified that the
dangerous men who hunted Cousin and his family had
found the family while they were in hiding in El
Salvador. (Tr. of Proceedings, ECF No. 31, 127:7–12.)
Although the attacks on Cousin and the murder of
Cousin’s brother occurred in Honduras, the record
shows the threats the family faced from dangerous and
determined people did not stop at the border and
evidenced serious danger. (Tr. of Proceedings, ECF
No. 31, 127:7–12.) To be clear, the Defendant’s family
straddles both sides of the El Salvador-Honduras
border. Mother lived thirty minutes from that border,
and the family would visit one another across the
border for holidays and birthdays. (ECF No. 31,
84:17–85:11; 122:23–123:1.) If the El Salvadoran
authorities are “willfully blind” to this violence spilling
over into El Salvador, then the events that began in
Honduras matter.
For a CAT claim, the Defendant would have to show
that he more likely than not faced torture if he was
returned home in 2011—a higher standard than an
asylum claim—and the evidence with respect to the
threats against Cousin, the threats against Cousin’s
family, and the murder of the Defendant’s other cousin
is insufficient, alone, to show a reasonable likelihood
of success on this claim. While anyone in the
Defendant’s shoes might well be in fear of possible
persecution (indeed likely sufficient fear to warrant
asylum protection), there is insufficient evidence to
show that those threats alone spilled over to create a
“more likely than not” threat of torture against the

179a
Defendant. However, the events occurred pre-2011
Removal Order, and the Defendant could have
included them in any application or claim.45
But there is more in the record. The death threats
directed specifically at Sister and Sister’s family,
combined with the series of events surrounding
Cousin and the Defendant’s other family members,
constitute sufficient evidence to show a reasonable
likelihood of success on a claim that the Defendant
more likely than not would have faced torture had he
returned to El Salvador around the time of the 2011
Removal Proceeding.
With respect to events surrounding Sister and
Sister’s rapist, the Government claims there is
insufficient evidence in the record of Salvadoran
government acquiescence. Again, according to family
members’ testimony, death threats stemming from
Sister’s rapist began in 2008 and those threats
continued through 2011. (ECF No. 31, 108:2–109:23,
116:22–23.)
The Government argues that the
Salvadoran authorities successfully prosecuted
Sister’s rapist and there was insufficient evidence that
the threats facing Sister in El Salvador would also
apply to the Defendant. But, DHS’s credible fear
findings report in Sister’s asylum application, as
discussed above, sufficiently rebut the Government’s

The credible testimony of the Defendant’s witnesses and the
documents in the Defendant’s Supplemental Appendix establish
that the Defendant’s deceased cousin was killed in early 2011 and
Cousin had an attempt on his life and his family members’ lives
who were in his house with him just prior to that time. (Def.’s
Suppl. App. 47, 57, 61; see also supra Part II.B.4.ii.a,2.)
45

180a
argument that the Defendant would not have been
able to meet the “public official” requirement.
This leaves the Government’s argument that the
threats against Sister do not translate to a substantial
risk of torture against the Defendant sufficient for a
successful CAT claim. The testimony in the record
demonstrates that the threats were often expressed
against the family. (ECF No. 31, 94:11–20, 107:18–
108:7.) This is where the events with Cousin and
Cousin’s deceased brother are quite relevant to the
Defendant’s CAT claim because the Defendant’s own
family had suffered the death of an individual because
that individual’s sibling testified in a rape trial.
Members of the Defendant’s own family were being
gunned down because their sibling testified against
someone, specifically for rape. When this evidence is
combined with DHS’s own findings in its credible fear
report for Sister’s asylum application that rape and
power are often intertwined46 and Sister’s rapist had
the power to effectuate revenge killing with the help of
state actors,47 the Court concludes that there is a
reasonable likelihood that the Defendant would have
succeeded on a claim for CAT protection. (Def.’s Suppl.
App. 357–59.)
c. Withholding of removal

The second form of relief from removal at issue in
this case is “withholding of removal.” The withholding
statute, 8 U.S.C. § 1231(b)(3)(A), states that the
Attorney General “may not remove an alien to a

Id. (“[T]he rapist’s motivation is usually not sex, but power . .
. .”).
46

47

Id.

181a
country if the Attorney General decides that the
alien’s life or freedom would be threatened in that
country,” but “such withholding is unavailable ‘if the
Attorney General decides that . . . the alien, having
been convicted by a final judgment of a particularly
serious crime is a danger to the community of the
United States,’ § 1231 (b)(3)(B)(ii).” Denis v. Attorney
Gen. of U.S., 633 F.3d 201, 213 (3d Cir. 2011). The
Government argues that the Defendant’s New Jersey
conviction for aggravated assault would have been
deemed a particularly serious crime, so he would not
have been eligible for withholding.
The Court again confronts the term, “particularly
serious crime.” In the withholding context, an alien
convicted of an aggravated felony and sentenced to an
aggregate term of imprisonment of at least five (5)
years is deemed to have committed a particularly
serious crime. 8 C.F.R. § 1208.16(d)(3). But with
lesser sentences, the Attorney General has the
discretion to make such a determination. Id.; Denis,
633 F.3d at 213–14. In those cases, whether the alien
committed a particularly serious crime is based on a
case-by-case analysis of the particular facts and the
nature of the crime. Denis, 633 F.3d at 214. Once
again, however, this Court should not engage in such
an analysis here, given Circuit precedent: “to be
eligible for classification as a ‘particularly serious
crime,’ an offense must be an aggravated felony as
defined in the INA at 8 U.S.C. § 1101(a)(43).” Alaka,
456 F.3d at 104 (addressing “particularly serious” as
that term is used in the withholding of removal
statute, 8 U.S.C. § 1231(b)(3)(B)).
Because the
Defendant does not carry a conviction for an
aggravated felony as that term is defined in the INA,

182a
see supra Part II.B.4.ii.a.1, his conviction could not
qualify under Third Circuit law as a “particularly
serious crime” for purposes of the withholding of
removal statute.
In an effort to circumvent this Circuit’s rule in
Alaka,48 the Government points to case law involving
a conviction under the same New Jersey criminal
statute, arguing that there is a high probability that
the Defendant would have been found to have
committed a particularly serious crime. See Aguilar v.
Attorney Gen. of U.S., 665 F. App’x 184, 189 (3d Cir.
2016) (IJ determined the defendant’s conviction of
New Jersey’s aggravated assault statute, N.J. Stat.
Ann. § 2C:12-1(b)(1), for which he was sentenced to
four (4) years’ imprisonment, was a particularly
serious crime rendering the defendant ineligible for
withholding of removal). Aguilar referenced Alaka
head-on in a footnote, noting that whether Aguilar’s
New Jersey aggravated assault conviction was an
aggravated felony was not addressed by the
underlying immigration decision, and neither party
raised or briefed the aggravated felony issue on
appeal. 665 F. App’x at 188 n.4. Our Court of Appeals,
therefore, “declined to address or reevaluate Alaka.”
Without controlling Circuit or Supreme Court
authority overruling or abrogating the precedential
holding in Alaka, this Court declines the
Government’s invitation to sidestep Alaka’s rule that
“an offense must be an aggravated felony in order to
be classified as a ‘particularly serious crime.’” 456
F.3d at 105.
See supra note 38 (declining to adopt the Government’s
argument that this Court should disregard Alaka).
48

183a
In order to qualify for withholding of removal, the
Defendant must establish that it is more likely than
not that his “life or freedom would be threatened in
th[e] country [of removal] because of the alien’s race,
religion, nationality, membership in a particular
social group, or political opinion.” Churilov v. Attorney
Gen. of U.S., 366 F. App’x 407, 409 (3d Cir. 2010); 8
U.S.C. § 1231(b)(3)(A). The Court need not revisit its
findings and conclusions that the Defendant would
have been able to show a membership to a protected
social group. 49 “As with asylum, [the applicant] must
show that any persecution is on account of a protected
ground, but in addition, she must show that such
persecution is ‘more likely than not’ to occur.” GomezZuluaga v. Attorney Gen. of U.S., 527 F.3d 330, 348 (3d
Cir. 2008). The standard for establishing a claim of
withholding of removal is higher than the standard for
asylum. Id. But it is less stringent than the standard
for a claim under CAT. The focus in a withholding
analysis is the risk of persecution, and “[t]he burden of
establishing a risk of future torture is more stringent
than is the burden of establishing a risk of future
persecution.”50 Gelaneh v. Ashcroft, 153 F. App’x 881,
888 (3d Cir. 2005).
Our Court of Appeals has stated that it is “hardly
likely” that one could meet the standard for CAT
removal yet fail to meet the standard for withholding
49

See supra Part II.B.4.ii.a.2.

Torture is one such example of persecution. Long Hao Li v.
Attorney Gen. of U.S., 633 F.3d 136, 149 (3d Cir. 2011) (“Our oftquoted, non-exclusive list of examples of persecution ‘include[s]
threats to life, confinement, torture, and economic restrictions so
severe that they constitute a threat to life or freedom.’”) (quoting
Cheng v. Attorney Gen. of U.S., 623 F.3d 175, 192 (3d Cir. 2010)).
50

184a
if the evidence is the same under both analyses. Id.
Therefore, in light of the standard applicable in this
case (to show a reasonable likelihood of success by a
preponderance of the evidence), this Court’s analysis
of the withholding claim parallels its analysis of the
CAT claim. The evidence in the record before the
Court shows a reasonable likelihood that the
Defendant could have successfully shown, following
his 2011 Removal Proceeding, that it was more likely
than not that his life or freedom would be threatened
in El Salvador. As with the CAT claim, this conclusion
is based on the Court’s review of the matters in the
record already described above and the testimony of
the Defendant’s family (which the Court finds and
concludes was credible). The Court concludes that the
Defendant can show a reasonable likelihood of success
on a withholding of removal claim pursuant to 8 U.S.C.
§ 1231.
d. Presumption of prejudice

Even though the Defendant meets the prejudice
prong based on the reasonable likelihood of success on
the asylum, CAT, or a withholding claim, the Court
also concludes this is the very case contemplated in
Charleswell where the procedural defects were so
central to the 2011 Removal Proceeding’s legitimacy
that prejudice must be presumed. 456 F.3d at 362
n.17.51 While our Court of Appeals has yet to address
51

That footnote reads:
Here, it makes sense to require such a burden because
Charleswell remains able to show, on the record, how, if at
all, the result could have been different. However, as some
courts have recognized, this standard is not necessarily
fixed. Almost all courts that have established a prejudice
standard have done so with scenarios that involved the

185a
a case with facts showing this level of disregard for an
alien’s due process rights, trial courts in other Circuits
have.
The District of Massachusetts confronted one such
case in 2017. In United States v. Walkes, the
defendant received a Notice of Intent to Issue a Final
Administrative Removal Order (presumably the I851). No. 15-cr-10396, 2017 WL 374466, at *1 (D.
Mass. Jan. 25, 2017). That DHS officer told the
defendant that he had no rights; the defendant was
not allowed to see a judge; he was not given a list of
organizations that could provide free legal counsel; he
did not receive a copy of his forms at the end of the
meeting; and he indicated on a separate form that he
wished to contest his deportation. Id. Based on the
“specific facts of this case,” the district court found that
prejudice would be presumed. Id. at *5. The Walkes
court acknowledged that (a) the passage of time; (b)
the record in front of the Court; (c) the vacating of the
underlying conviction;52 and (d) the circumstances of
erroneous denial, by an IJ, of some opportunity to apply for
discretionary relief, such as a waiver under section 212(c).
But some procedural defects may be so central or core to a
proceeding’s legitimacy, that to require an alien to establish
even a “reasonable likelihood” that he would have obtained
a different result establishes too high a burden. See United
States v. Luna, 436 F.3d 312, 321 (1st Cir. 2006) (“There
may be some cases where the agency’s violations of a
petitioner’s rights were so flagrant, and the difficulty of
proving prejudice so great that prejudice may be presumed
. . . .”) (internal citations and quotations omitted).
456 F.3d at 362 n.17 (emphasis added).
Walkes’s guilty pleas from prior state court convictions were
vacated pursuant to Padilla v. Kentucky, 559 U.S. 356 (2010)
(counsel’s failure to inform a client whether his plea carries a risk
52

186a
an expedited removal proceeding following a criminal
conviction made it more difficult for the defendant to
establish that he would have found some sort of relief
had the process been conducted correctly. Id. The
Walkes court then noted that the deprivation of a right
to appeal was “sufficiently flagrant to justify a
presumption of prejudice.” Id.
In light of the facts here, the Court reaches the same
conclusion as the Walkes court that prejudice must be
presumed based on the “sufficiently flagrant”
deprivation of rights. Id. The record here goes beyond
the facts of Walkes. Id. As explained above, any actual
understanding and exercise of his rights by the
Defendant was stopped dead in its tracks by the DHS
Officers who steered the Defendant to waive away his
rights (or did it for him) before providing an
explanation of such rights to the Defendant.
As in Walkes, there are additional factors that
support the conclusion that prejudice should be
presumed. First, the dissembling and convoluted
testimony of the DHS Officers clouded any
opportunity for this Court to get an accurate idea of
what actually happened in the 2011 Removal
Proceeding. While the Court applied the law to the
facts in the record with respect to claims for asylum,
CAT, and withholding of removal and concluded that
the Defendant met his burden with respect to
prejudice in such regards, the lapse in time and the
changes in the law since 2011 forced the Court to
engage in a degree of prediction as to what an IJ at a
different time would or would not have concluded on
of deportation results in constitutionally deficient assistance of
counsel). Walkes, 2017 WL 374466, at *2.

187a
discretionary matters. That is all a result of the
conduct of the DHS Officers here. Beyond that is the
reality that the Defendant’s New Jersey conviction
was insufficient to warrant expedited Removal
Proceedings in the first place, as that conviction is
insufficient to make the Defendant an “aggravated
felon” under federal law. All of this is compounded by
the “sufficiently flagrant” deprivation of rights which
occurred here, which alone is sufficient to presume
prejudice in this case. Walkes, 2017 WL 374466.
“An error is fundamental if it undermines
confidence in the integrity of the criminal proceeding.”
Young v. United States, 481 U.S. 787, 810 (1987).
While the 2011 Removal Proceeding was not criminal
in nature, “liberty itself may be at stake in such
matters.” Id.; see also Dimaya, 138 S. Ct. at 1209
(“[D]eportation is a particularly severe penalty, which
may be of greater concern to a convicted alien than any
potential jail sentence.”). Therefore, even if the
Defendant was unable to show prejudice by
demonstrating that he had a reasonable likelihood of
success on his asylum, CAT, or withholding
arguments, such prejudice must be presumed in this
case, given the gravity of what happened at the 2011
Removal. The Defendant satisfies the third element
of § 1326(d).53
C. Disposition
Dismiss

of

Defendant’s

Motion

to

The Defendant has satisfied the three elements of
§ 1326(d) to collaterally attack the 2011 Removal
Of course, the Attorney General’s 2018 decision in Matter of AB- has no impact on this portion of the Court’s Opinion in this
case.

53

188a
Order. Therefore, the Defendant’s Motion to Dismiss
Indictment is granted on the merits.
III. Defendant’s Motion for Release on Bond
The Defendant’s Motion for Release on Bond, ECF
No. 36, is denied as moot in light of the Court’s
dismissal of the Indictment.
IV. Government’s Motion to Dismiss
Three months after the Defendant filed his Motion
to Dismiss, the Government filed its own Motion to
Dismiss Indictment, ECF No. 46. The Government
was willing to dismiss its own Indictment with
prejudice, but it would not consent to the Court’s
granting of the Defendant’s Motion to Dismiss. (Tr. of
Proceedings, ECF No. 57, 6:18–24, 30:5–7.) The
difference between the “cross” Motions to Dismiss
Indictment is that the Defendant’s Motion to Dismiss,
now granted, attacks the validity of the underlying
2011 Removal Proceeding. The ultimate effect of
granting the Defendant’s Motion to Dismiss on its
merits on any future removal proceedings against the
Defendant is uncertain, as that issue in the first
instance is for an immigration court (and perhaps
ultimately the Court of Appeals). But without an
adjudication of the Defendant’s Motion (or the
Government’s concession to it), the conduct and result
of the 2011 Removal Proceeding would be shielded
from public examination, notwithstanding that the
Government relied on that very Removal Proceeding
in seeking the Defendant’s Indictment. This is
important since, as the Government conceded at the
hearings in this case, the United States could (and
may well) simply now seek to rely on the 2011 Removal
Process, the fatally flawed Forms, and the resulting

189a
2011 Removal Order in this case in future removal
proceedings. (ECF No. 77, 37:23–38:12.)
In light of the Court’s granting of the Defendant’s
Motion to Dismiss because the Defendant has
successfully collaterally attacked the 2011 Removal,
and in light of the facts brought before the Court by
the Government itself, the Government’s Motion to
Dismiss is denied. Recognizing that it is unusual for
a court to deny the Government’s motion to dismiss an
indictment that the Government sought in the first
place, the Court further explains its reasoning.
A. Fed. R. Crim. P. 48(a)
The Government seeks dismissal of its own
Indictment because “the United States has
determined that dismissal . . . is in the interests of
justice.”54 (Gov’t’s Mot. to Dismiss Indictment, ECF
No. 46, at 1.) The Federal Rules of Criminal Procedure
provide that “[t]he government may, with leave of
court, dismiss an indictment, information, or
complaint.” Fed. R. Crim. P. 48(a) (emphasis added).
But courts do not have “unfettered discretion” to deny
But despite some substantial digging by the Court on the
record, the Government never came out and said what those
“interests” were, other than asserting that there was a “litigation
risk” without articulating what the risk was (see ECF No. 57,
32:8–36:21), along with the avoidance of the expenditure of
additional Government time and resources on this prosecution.
(Gov’t’s Resp. Br. in Supp. of Gov’t’s Mot. to Dismiss, ECF No. 66,
at 9.) The risk that the Government may not prevail, or that it
would have to expend further litigation resources, are not in the
Court’s estimation “interests of justice,” but are instead the
interests of the Department of Justice were it considered to be in
the position of an ordinary litigant. But, of course, it is not.
Berger v. United States, 295 U.S. 78, 88 (1935).
54

190a
such motions. In re Richards, 213 F.3d 773, 777 (3d
Cir. 2000).
The Third Circuit’s standard for when a court may
refuse to dismiss an indictment under Rule 48(a) is
that a court is to grant a government Rule 48(a)
motion to dismiss unless such dismissal is “clearly
contrary to manifest public interest.” Id. at 787.
Courts have acknowledged “that refusal to dismiss is
appropriate only in the rarest of cases.” Id. at 786.
This standard functions to prevent a court from
routinely substituting its judgment for that of the
prosecutor. Id. at 788. After all, our Constitution
places the principal power to prosecute in the
Executive Branch, not the Judicial Branch. See In re
United States, 345 F.3d 450, 453 (7th Cir. 2003)
(granting a government’s petition for mandamus
following a district court’s denial of a government’s
motion to dismiss an indictment where the defendant
agreed to the government’s motion to dismiss).
But our Court of Appeals has also stated that a
district judge “has independent responsibilities” to
protect certain rights, interests, and duties. In re
Richards, 213 F.3d at 788. While Rule 48(a) should
rarely be used to bar dismissal, a district court’s role
in considering a Rule 48(a) motion is not that of a
rubber stamp. Id. The district court’s exercise of its
judgment, as set out in In re Richards, takes two
forms. First, it protects a defendant from harassment
such as repeated prosecution and also protects judicial
processes from abuse. Id.; see Rinaldi v. United States,
434 U.S. 22, 29 n.15 (1977) (per curiam). Second, “the
public has a generalized interest in the processes
through which prosecutors make decisions about
whom to prosecute that a court can serve by inquiring

191a
into the reasons for a requested dismissal.” Id. at 789.
“Bringing these decisions into the open may, in turn,
lead to attempts by the public to influence these
decisions through democratic channels.” Id.
B. Application of Rule 48(a)
This is not a case where the Court is refusing to
dismiss the case. The case will be dismissed. But it
will be dismissed on the merits, as explained above,
pursuant to the Defendant’s Motion to Dismiss. Such
a result balances the principles of In re Richards as it
serves to limit this Defendant’s exposure to future
prosecutorial efforts reliant on the invalid 2011
Removal without offending the role of the Executive
Branch’s exercise of prosecutorial discretion and does
not constitute a refusal to dismiss. In reaching this
result, the Court concludes as follows.
With respect to risk of prosecutorial harassment as
that term is used in this context,55 given that further
immigration proceedings (Removal Proceedings)
against the Defendant lie at least initially in nonArticle III tribunals or processes under the authority
of the Department of Justice,56 a dismissal with
prejudice on the Government’s Motion to Dismiss is
insufficient to address the real risk to this Defendant
55 In this Court’s judgment, this does not require a showing of a
malicious prosecutorial motive, but is instead focused on the
repeated use of prosecutorial authority in a manner that offends,
for instance, core due process interests.

The Office of the Chief Immigration Judge and the appellate
body, the Board of Immigration Appeals, are organized within the
Office for Immigration Review, an agency of the Department of
Justice, and the Attorney General is responsible for appointing
the Chief Immigration Judge and the members of the Board of
Immigration Appeals. 8 C.F.R. §§ 1003.1, .9.

56

192a
of further prosecutorial actions at the behest of, or in
conjunction with, the Department of Justice, reliant
on the 2011 Removal. That is important here because
prior to the Defendant’s Indictment in this case, on
October 3, 2017, DHS issued a “Notice of
Intent/Decision to Reinstate Prior Order,” which
provided notice of the Secretary of Homeland
Security’s intent to reinstate the 2011 Removal Order.
(Def.’s App. 1.) Despite what has surfaced in this case
before this Court, the Government (which its lawyers
assert in this Court is really only the Department of
Justice and no one else) has steadfastly refused to
provide any assurance that the Forms, and the 2011
Removal Proceeding, will not be relied upon in future
proceedings against the Defendant, and the Court may
therefore conclude that they will be. (ECF No. 77,
37:23–38:12.) And the Court may fairly conclude (and
does) that a principal motivation for the Government’s
dismissal motion is the avoidance of an adjudication
relative to the validity of the process used to engineer
the 2011 Removal.57 This all brings this case squarely
“Reinstatement orders do not exist independent and separate
from their prior orders of removal but are instead explicitly
premised on the prior order.” Charleswell, 456 F.3d at 352.
Pursuant to 8 U.S.C. § 1231(a)(5), when a prior order of removal
is reinstated, the prior order of removal is not “subject to being
reopened or reviewed” at the administrative immigration level.
However, of consequence here is the fact that any such
reinstatement order is subject to judicial review by our Court of
Appeals, which specifically includes an examination of whether
the original removal order was invalidated. Ponta-Garcia v.
Attorney Gen. of U.S., 557 F.3d 158, 163 (3d Cir. 2009) (“While
[§ 1231(a)(5)] prohibits relitigation of the merits of the original
order of removal, it does not prohibit an examination of whether
the original order was invalidated . . . .”). In so holding, our Court
of Appeals directly referenced the decision of the First Circuit in
57

193a
within the principles of Rinaldi, which concluded that
a Rule 48(a) dismissal should not be granted when
there is a taint of impropriety related to the effort to
dismiss. 434 U.S. at 30. And here, there is the
undeniable possibility (if not probability) that the
Forms and the 2011 Removal Order will be reused,
front and center, in a future proceeding conducted
under the auspices of the Department of Justice.
Thus, in the Court’s estimation, this risk of recycling
the 2011 Removal and the Forms in future proceedings
(including those managed by the Department of
Justice’s
immigration
enforcement/adjudication
processes) demonstrates that granting dismissal only
pursuant to the Government’s Motion to Dismiss
would be clearly contrary to the “manifest public
interest” in the integrity of our Nation’s legal
processes. Id.
The Department of Justice has also made it crystal
clear that it will take no action to ensure a lawful
future Removal Proceeding against the Defendant to
the extent it involves another Executive Department.
The Department of Justice, here, downplays its role in
immigration matters or its relationship to future
applications of the 2011 Removal Proceeding by
invoking what it says is in effect a bureaucratic wall
within the Executive Branch. While the Department
of Justice has decided that it will seemingly not pursue
Ponta-Garc[i]a v. Ashcroft, 386 F.3d 341 (1st Cir. 2004), which
observed that the administrative reinstatement of a removal
order that had been invalidated by a federal district court would
be “problematic.” Id. at 343. The long and the short of it is that
a determination as to the validity of the 2011 Removal may be a
matter of substantial consequence in regard to future proceedings
involving the Defendant.

194a
the Defendant further on this criminal charge in this
Court, its lawyers, lawyers for the United States, have
declined to affirmatively disclaim that the federal
Executive Branch won’t continue to fully rely on the
Forms or the 2011 Removal in any upcoming Removal
(or other) proceedings as to the Defendant—Forms
and a process which the Court has described as
“wholly unlawful.” (Tr. of Proceedings, ECF No. 77,
53:4.)
For the Department of Justice to seek to treat our
Nation’s immigration legal system as somehow
distinct and detached from that Department’s critical
role in it bypasses well-established law. First, as a
general matter, the Attorney General takes the reins
in all litigation to which the United States or an
agency is a party—his is the voice of the United States
in a case before this Court. See 28 U.S.C. § 519
(“Attorney General shall supervise all litigation to
which the United States, an agency, or officer thereof
is a party . . . .”); see also 28 U.S.C. § 516 (“Except as
otherwise authorized by law, the conduct of litigation
in which the United States, an agency, or officer
thereof is a party, . . . is reserved to officers of the
Department of Justice, under the direction of the
Attorney General.”) And in this case, as explained
above, the Assistant United States Attorney appeared
at every hearing and every oral argument in this case,
buttressed by the presence of DHS Officers.
The Attorney General and the Department of
Justice of course play leading roles in the
The
determination of immigration matters.58
Simply by way of example, according to the Department of
Justice, its Executive Office for Immigration Review “administers
58

195a
Government seemingly contends that the Department
of Justice is some sort of stranger to the important
work of formulating federal immigration policy and
leading its enforcement.59 But for this Court to so
conclude would “tax[ ] the credulity of the credulous.”
Maryland v. King, 569 U.S. 435, 466 (2013) (Scalia, J.,
dissenting). As former Attorney General Alberto
Gonzales and Department of Justice Senior Litigation
Counsel for the Office of Immigration Litigation
Patrick Glen recently explained, “the Department of
Justice [has] final say in adjudicat[ing] matters of
immigration policy . . . .”60 See 8 U.S.C. § 1103(a), (g)
(providing Attorney General determinative role as to
legal issues relative to administration of immigration
policy).
The Attorney General also has far-reaching powers
to himself decide specific immigration cases with his
powerful referral authority under 8 C.F.R. § 1003.1
(h)(l)(i) (2015), and the exercise of that power results

the Nation’s immigration court system” and “decides whether [a
charged] individual is removable from the country.” U.S. Dep’t of
Justice, Executive Office for Immigration Review: An Agency
Guide
(2017),
https://
www.justice.gov/eoir/page/file/
eoir_an_agency_guide/download.
59 The “Attorney General enjoys broad powers with respect to
‘the administration and enforcement of [the INA itself] and all
other laws relating to the immigration and naturalization of
aliens.’” Matter of A-B-, 27 I. & N. Dec. at 323 (quoting Blanco de
Belbruno v. Ashcroft, 362 F.3d 272, 279 (4th Cir. 2004)).

Hon. Alberto R. Gonzales & Patrick Glen, Advancing Executive
Branch Immigration Policy Through the Attorney General’s
Review Authority, 101 Iowa L. Rev. 841, 847 (2016).

60

196a
in precedential that shape immigration law.61 See,
e.g., Matter of A-B-, 27 I. & N. Dec. at 323 (“The
extraordinary and pervasive role that the Attorney
General plays in immigration matters is virtually
unique.”).62 It has been aptly observed that, “[i]t is the
Attorney General who was statutorily charged, and
remains charged together with the Secretary of the
[DHS], with the administration and enforcement of
the immigration laws.”63
Given these realities, it is simply incorrect for the
Government’s lawyers to advise this Court that they
are in no position to speak on behalf of the United
States as to the future conduct of this immigration
case.
As explained above, the 2011 Removal
Proceedings as they were carried out against the
Defendant were a hollow facsimile of the due process
bedrock of our Nation’s legal system. This is reason
enough to convince the Court that resolving the case
on the Government’s Motion to Dismiss alone risks
very real prejudice to the Defendant stemming from
further legal action against the Defendant based on
the Forms and the 2011 Removal. Thus, it is
necessary for this Court to use its “inherent authority
to ensure that its processes are not being abused” by
actually adjudicating the Defendant’s Motion to
Dismiss, which collaterally attacks the validity of his
2011 Removal Order, as opposed to dismissing the
case without such an adjudication. In re Richards, 213
F.3d at 788 (emphasis added).
Id. at 857 (citing Miranda Alvarado v. Gonzales, 449 F.3d 915,
921–22 (9th Cir. 2006)).
61

62

See supra note 40.

63

Id. at 850 (citing 8 U.S.C. § 1103(a), (g) (2012)).

197a
With respect to prosecutorial discretion, concerns
about the judiciary’s intrusion into such discretion are
not an issue here. The effect of denying a prosecutor’s
motion to dismiss an indictment typically results in a
conundrum in which the Judicial Branch is forcing the
Executive Branch’s hand in matters that are nearly
exclusively within the Executive’s power. See In re
United States, 345 F.3d at 453–54. That is not the case
here. The issue before the Court on these cross
Motions is not whether this case would be dismissed.
It certainly will be. The issue facing the Court is
whether the case is to be dismissed pursuant to the
Defendant’s Motion or the Government’s.
The Court is also unconvinced that granting the
Government’s bald Motion to Dismiss would serve
“either the public interest in the fair administration of
criminal justice or [act] to preserve the integrity of the
courts.” United States v. Omni Consortium, 525 F.
Supp. 2d 808, 810 (W.D. Tex. 2007). As noted above,
the testimony provided in this Court by the
Government’s witnesses (who are federal officers) was
at best nonsensical and at worst based in some
material part on self-serving falsity. Based on the
representations of the Government, the Court has no
confidence that the 2011 “process” (including the
“waivers” allegedly reflected on the Forms) will not
simply be recycled and used as the starting point for
the Defendant’s Removal now, on the premise that the
2011 process had been legitimately conducted. And
the Government’s dismissal motion did not arrive
until it was evident that the 2011 Removal, upon
which the Government relied to make its case here,
was fatally flawed. Statements by the Government
“have significant consequences for the public’s

198a
perception of judicial proceedings. And activity that
threatens the perception of fairness in those
proceedings undermines faith in our system of justice.”
United States v. Kpodi, No. 17-3008, 2018 U.S. App.
LEXIS 10720, at *15 (D.C. Cir. Apr. 27, 2018). As this
Court has concluded, the Defendant was upon
Indictment forced to litigate (now successfully) a
collateral attack on the validity of his removal under
§ 1326(d), and the invalidity of that proceeding has
been demonstrated. It is not “whether the decision to
maintain the federal prosecution was made in bad
faith” that guides this Court’s decision to deny the
Government’s Motion to Dismiss. Rinaldi, 434 U.S. at
30. It is instead the Government’s efforts to now
terminate this prosecution at this “cross Motion to
Dismiss” stage without any adjudication on the merits
of the § 1326(d) defense that the Court concludes
necessitates this outcome. Id. It simply is not in the
public interest to permit the Government to now avoid
such adjudication because it was required to confront
the reality of the evidence it had advanced.
Beyond that is the reality that although the
Government has formally advised the Court that it
does not adopt nor rely on its own witnesses’ testimony
in this Court, the Government nevertheless has not
affirmatively disavowed it. The factual findings and
resulting conclusions in this Opinion should not be
surprising. The Court went to great lengths to lay out
what it viewed as the apparent fallacies,
inconsistencies, and inaccuracies of the Officers’
testimony during the course of the hearings in this
case. After learning that the Government would not
rely on that testimony, the Court asked the
Government (at the final hearing in this case) if the

199a
Court should believe the Officers’ testimony. The
Government’s lawyer responded, “Your Honor, you
should give it as much weight as you see fit.” (Tr. of
Proceedings, ECF No. 77, 27:21–22.) Thus, the
Government neither vouches for the testimony of the
federal agents it called as witnesses nor does it
acknowledge the facial flaws in it.
Of course, our Court of Appeals has rejected the
principle of the Government taking such a
noncommittal position as to the credibility of its own
witnesses:
We do not believe, however, that the
prosecution’s duty to disclose false testimony by
one of its witnesses is to be narrowly and
technically limited to those situations where the
prosecutor knows that the witness is guilty of the
crime of perjury. Regardless of the lack of intent
to lie on the part of the witness, Giglio and Napue
require that the prosecutor apprise the court
when he knows that his witness is giving
testimony that is substantially misleading. This
is not to say that the prosecutor must play the role
of defense counsel, and ferret out ambiguities in
his witness’ responses on cross-examination.
However, when it should be obvious to the
Government that the witness’ answer,
although made in good faith, is untrue, the
Government’s obligation to correct that
statement is as compelling as it is in a
situation where the Government knows that
the witness is intentionally committing
perjury.

200a
United States v. Harris, 498 F.2d 1164, 1169 (3d Cir.
1974) (emphasis added). The Government’s nonposition as to the credibility of the testimony of the
only witnesses it called in support of this prosecution
gives the Court no basis to conclude that the
Government will not re-use the 2011 Removal against
the Defendant at the next opportunity if its validity is
not adjudicated one way or the other, here and now.
As a final note, the timing of the cross Motions to
Dismiss is also not the issue here. While it is true that
the Government’s Motion to Dismiss became fully
briefed a few weeks before the Defendant’s previously
filed Motion to Dismiss was fully briefed, the delay in
the briefing schedule for the Defendant’s Motion to
Dismiss was a direct result of the timing of the
Government’s production of documents to the
Defendant. It also bears noting that the most telling
physical evidence that the Forms were invalid stems
from the color copies of the Forms, which were not
produced to the Defendants until March 12, 2018, two
months after the Defendant filed its Motion to Dismiss
and over four months after the Government filed its
Indictment. (Receipt for Local Rule 16.1 Material
Suppl., ECF No. 61.) Asylum-related documents key
to the Defendant’s case regarding prejudice were also
not provided until March 12, 2018. (Receipts for Local
Rule 16.1 Material Suppl., ECF Nos. 59, 60, 61, 62.)
In fact, this Court modified the briefing schedule on
Defendant’s Motion to Dismiss five (5) times to allow
sufficient time for the Government to produce
necessary and previously requested documents to the
Defendant. (Orders, ECF Nos. 30, 33, 35, 39, 51.)
Further adding to this delay, after the fourth
extension, the Government instructed DHS to cease

201a
document production and redaction when it filed its
own Motion to Dismiss. (See Tr. of Proceedings, ECF
No. 58, 79:14–79:20.)
It struck the Court as appropriate to wait until the
briefing of the previously filed Defendant’s Motion had
been completed before ruling on the cross Motions to
Dismiss. Indeed, the Government reported to this
Court after it filed its own Motion to Dismiss that it
still was “interested in providing supplemental
briefing” on the issue of prejudice as it pertained to the
Defendant’s Motion to Dismiss. (Tr. of Proceedings,
ECF No. 57, 30:20–31:1.) Allowing the Defendant’s
Motion to Dismiss to complete its briefing schedule
and for the Court to rule on the Motions at the same
time was both necessary and appropriate to the
Court’s obligations to fully consider the Government’s
stated reasons for its dismissal motion, in light of the
testimony of the DHS Officers during these
proceedings.
C.

The Government’s Motion to Dismiss
Indictment is Denied

The Government’s Motion to Dismiss is denied.
“Procedural fairness and regularity are of the
indispensable essence of liberty.” Mounts v. Boles, 326
F.2d 186, 188 (4th Cir. 1963) (quoting Shaughnessy,
345 U.S. at 224 (Black, J., dissenting)). Whether the
Defendant will be subject to new proceedings aimed at
now effectuating his removal from the United States
in conformity with the law is a matter in the next
instance for the administrative immigration process,
with judicial review of those proceedings at the United
States Court of Appeals. But it is this Court’s
obligation to rule on the competing dismissal motions

202a
on the record that is now before it. As “justice must
satisfy the appearance of justice,” Offutt v. United
States, 348 U.S. 11, 14 (1954), this Court concludes
that the facts and the law direct that this case be
dismissed on the merits, and not based simply on the
post-indictment, post-testimony exercise of the
Government’s prosecution prerogatives.
V. Conclusion
For these reasons, the Defendant’s Motion to
Dismiss Indictment, ECF No. 14, is granted.
The Defendant’s Motion for Bond, ECF No. 36, is
denied without prejudice as moot. The Government’s
Motion to Dismiss Indictment, ECF No. 46, is denied.
An appropriate Order will issue.

Mark R. Hornak
Mark R. Hornak
United States District Judge
cc: All counsel of record

203a

Exhibit
A

204a

205a

Exhibit
B

206a

207a

208a

Exhibit
C

209a

210a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
PENNSYLVANIA
UNITED STATES OF AMERICA,
v.
MARIO NELSON REYES-ROMERO,
Defendant.

)
)
) 2:17-cr-292
)
)
)

ORDER
AND NOW, this 2nd day of July, 2018, for the
reasons stated in this Court’s Opinion of this date, it
is hereby ORDERED that:
1.

The Defendant’s Motion to Dismiss Indictment,
ECF No. 14, is granted.

2.

The Defendant’s Motion for Bond, ECF No. 36, is
denied without prejudice as moot.

3.

The Government’s Motion to Dismiss Indictment,
ECF No. 46, is denied.

It is ORDERED that the Indictment of Mario
Nelson Reyes-Romero, ECF No. 1, is hereby dismissed
with prejudice.
/s/ Mark R. Hornak
Mark R. Hornak
United States District Judge
cc: all counsel of record

211a

APPENDIX D

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1923
UNITED STATES OF AMERICA,
Appellant
v.
MARIO NELSON REYES-ROMERO
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. No. 2:17-cr-00292-001)
Chief District Judge: Mark R. Hornak
SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellee in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court

212a
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge

Date: June 26, 2020
Lmr/cc: Donovan J. Cocas
Laura S. Irwin
Adrian N. Roe

